<html>
<title> - FROM IMUS TO INDUSTRY: THE BUSINESS OF STEREOTYPES AND DEGRADING IMAGES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
FROM IMUS TO INDUSTRY: THE BUSINESS OF STEREOTYPES AND DEGRADING IMAGES 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMERCE, TRADE,
                        AND CONSUMER PROTECTION

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2007

                               __________

                           Serial No. 110-67


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-459 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MIKE DOYLE, Pennsylvania             STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

               David L. Cavicke, Minority Staff Director

                                  (ii)
        Subcommittee on Commerce, Trade, and Consumer Protection

                   BOBBY L. RUSH, Illinois, Chairman
JAN SCHAKOWSKY, Illinois             CLIFF STEARNS, Florida,
    Vice Chairman                         Ranking Member
G.K. BUTTERFIELD, North Carolina     J. DENNIS HASTERT, Illinois
JOHN BARROW, Georgia                 ED WHITFIELD, Kentucky
BARON P. HILL, Indiana               CHARLES W. ``CHIP'' PICKERING, 
EDWARD J. MARKEY, Massachusetts          Mississippi
RICK BOUCHER, Virginia               VITO FOSSELLA, New York
EDOLPHUS TOWNS, New York             GEORGE RADANOVICH, California
DIANA DeGETTE, Colorado              JOSEPH R. PITTS, Pennsylvania
CHARLES A. GONZALEZ, Texas           MARY BONO, California
MIKE ROSS, Arkansas                  LEE TERRY, Nebraska
DARLENE HOOLEY, Oregon               SUE WILKINS MYRICK, North Carolina
ANTHONY D. WEINER, New York          MICHAEL C. BURGESS, Texas
JIM MATHESON, Utah                   MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana          JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
    officio)
  



















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     2
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. G.K. Butterfield, a Representative in Congress from the 
  State of North Carolina, opening statement.....................     5
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     7
Hon. George Radanovich, a Representative in Congress from the 
  State of California............................................     8
Hon. Anthony D. Weiner, a Representative in Congress from the 
  State of New York, opening statement...........................    10
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas.................................................    11
Hon. Edolphus Towns, a Representative in Congress from the State 
  of New York, opening statement.................................    12
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    14
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............    15
Hon. Mary Bono, a Representative in Congress from the State of 
  California, opening statement..................................    16

                               Witnesses

Philippe P. Dauman, president and chief executive officer, Viacom 
  International, Incorporated, New York, NY......................    17
    Prepared statement...........................................    19
Edgar Bronfman, Jr., chairman and chief executive officer, Warner 
  Music Group, New York, NY......................................    24
    Prepared statement...........................................    25
Doug Morris, chairman and chief executive officer, Universal 
  Music Group, New York, NY......................................    27
    Prepared statement...........................................    30
Alfred C. Liggins III, president and chief executive officer, 
  Radio One, Incorporated, Lanham, MD............................    35
    Prepared statement...........................................    37
Strauss Zelnick, chairman of the board, Take Two Interactive 
  Software, New York, NY.........................................    38
    Prepared statement...........................................    40
Levell Crump, a.k.a., ``David Banner''...........................    55
    Prepared statement...........................................    58
Percy Miller, a.k.a. ``Master P'' \1\............................    61
Michael Eric Dyson, Georgetown University, Washington, DC \2\....    63
Tracy Sharpley-Whiting, Vanderbilt University, Nashville, TN.....    85
    Prepared statement...........................................    88
Andrew Rojecki, University of Illinois-Chicago, Chicago, IL......    92
    Prepared statement...........................................    94
Faye Williams, national chair, National Congress of Black Women, 
  Incorporated, Washington, DC...................................    96
    Prepared statement...........................................    99
Lisa Fager Bediako, president, Industry Ears, Odenton, MD........   101
    Prepared statement...........................................   105
Karen Dill, Lenoir-Rhyne College, Hickory, NC....................   114
    Prepared statement...........................................   117

----------
\1\ Mr. Miller did not submit a prepared statement for the 
  record.
\2\ Mr. Dyson did not submit a prepared statement for the record.


FROM IMUS TO INDUSTRY: THE BUSINESS OF STEREOTYPES AND DEGRADING IMAGES

                              ----------                              


                      TUESDAY, SEPTEMBER 25, 2007

              House of Representatives,    
           Subcommittee on Commerce, Trade,
                           and Consumer Protection,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Bobby L. 
Rush (chairman) presiding.
    Members present: Representatives Schakowsky, Butterfield, 
Barrow, Markey, Towns, Gonzalez, Hooley, Weiner, Stearns, 
Fossella, Radanovich, Pitts, Bono, Terry, Myrick, Burgess, and 
Blackburn.
    Staff present: Consuela Washington, Christian Fjeld, 
Valerie Baron, William Carty, and Chad Grant.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. The committee will come to order. The Chair 
recognizes himself for 5 minutes for an opening statement. I 
want to begin by thanking our witnesses who have come from far 
and near to be a part of this hearing, and I want to assure 
everyone present that this hearing is not a head-hunting 
hearing. This hearing will be a positive hearing. I hope to 
come away from this hearing on this day with a foundation to 
move forward in our Nation. This is not the end. This is just 
the beginning.
    We have a crisis in our communities throughout this Nation. 
There is a culture of death that permeates our society. It is 
the responsibility of this Congress as it is the responsibility 
of each and every one of you to be a part of the solution as 
opposed to being part of the problem. So I am looking forward 
to developing and to engaging in a coalition of concern and 
compassion and commitment to address the issue of violence, 
hate, degradation that has reduced too many of our youngsters 
to automatons, those who don't recognize life, those who don't 
value life, and those who don't look forward to a future of 
hope in this life.
    I have heard too many of our young people looking and 
expressing a future that ends before they are 25 years old. 
They don't think that they will live to be 25 years old, indeed 
some say as early as 22. They don't expect to see 22 years of 
age. The statistics according to the Department of Justice bear 
them out. The greatest cause of death for youngsters 18 to 24 
years old is homicide in our communities. I am not blaming 
anybody. We all are part of the problem, and we all must be 
part of the solution.
    This hearing is not anti-hip hop. Let me be real clear. I 
am a fan of hip hop. I have got children who love hip hop. I 
admire and respect the hip hop artists who have created an art 
work, an industry, and an environment where they can employ 
thousands of people who might not have received employment 
opportunities were it not for them. I respect the first 
amendment, and I know that great art is always controversial, 
but we must also take responsibility in our freedom of 
expression.
    I want to conclude by saying and stating the obvious, that 
the pendulum is beginning to swing, and I am convinced that so-
called gangster rap and misogyny is on its way out of the hip 
hop culture. This committee has a profound responsibility, 
immense jurisdiction, and it is within the purview and the 
power of this committee and has to be within the purpose of 
this committee to make sure that we engage in a conversation 
that deals with this issue that confronts the fabric of this 
Nation and threatens the fabric of this Nation, its families, 
its communities, its institution, indeed its foundation. We can 
do no more or nothing greater than to open up this discussion, 
remove the biases, the hypocrisies, and the hype. We have got 
to have an honest discussion. Our future depends on it.
    I yield now to the ranking member, my friend from Florida, 
Mr. Stearns, for 5 minutes.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning. And, thank you, Mr. Chairman. I 
just want to echo your sincere comments that you speak from the 
heart. We all have interest in this subject, and I want to 
thank you for calling this hearing.
     Looking at the witness list on panel 1, and looking at all 
these CEOs, we can certainly appreciate how much their hourly 
rate together would be for their time, so we appreciate you 
taking your time to come to speak to us this morning. The 
chairman talked about the violence, the hate, and the 
degradation that exists, and why it continues to flourish.
    I think it is worthwhile to discuss this in light of some 
of the entertainment we see in a very small segment but an 
important segment, and obviously it is disappointing for 
Members of Congress to have to have this issue brought before 
us in terms of decency in our civil society, and to see how it 
continually profoundly affects our country. But this committee 
has jurisdiction in this area. We should be looking at this. I 
had a hearing when I was chairman of this subcommittee dealing 
with the video game industry and how it impacted our children, 
and many of you will note at that time that Grand Theft Auto 
was the subject of that hearing, and in particular a segment of 
that video game dealing with hot coffee which a portion of that 
was imported into the Grand Theft Auto to create pornography.
    And I note that because of our hearing the video game 
industry seemed to respond to the pressure we provided and the 
outrage from the public and from this committee. In the wake of 
hearings I held in the Congress last session the rating board 
has strengthened its review process and the industry is 
offering many new tools to parents to help them. Indeed, the 
Federal Trade Commission has found that the video game industry 
is policing itself from production to the retail stores. So I 
commend them for their good work, and I note, Mr. Chairman, 
that these hearings do provide pressure in themselves. 
Sometimes we look to perhaps legislate. Perhaps we look 
sometimes to influence, and perhaps this hearing will bring 
influence into this vital area.
    Music and images can be powerful influences on our 
children's mind, and I think Congress has been down this road 
many times debating regulation of speech and commerce. Many of 
us wonder whether it would be appropriate for Congress to issue 
a legislative solution. I am not sure we are able to do it to 
this difficult problem. We are a nation founded on the 
principle, as you mentioned earlier, Mr. Chairman, of freedom 
of speech, and we are usually united in our efforts to export 
that core principles to countries and governments that censor 
their people and their media.
    So obviously we don't want to ban the liberty and freedom--
the idea of liberty of freedom of speech. We want to be able to 
have people to express themselves, particularly in oppressive 
regimes perhaps like China. But, however, there is today a lot 
of vulgarity in both the entertainment and the video game 
industry that we are concerned about which has a major 
influence on our children, and the problem is often a decision 
of what is package and what is market, but that primarily is 
determined by what sells, so a lot of what we see in our 
culture is perhaps something that these companies and other 
companies are providing because that sells.
    Whenever it sells quickly it is imitated, and across the 
industry other people come up with new favorites. I don't 
necessarily believe there is a conscious decision to determine 
the content companies will sell before market analysis shows 
what is popular, and that is perhaps a key question of this 
hearing. Numerous examples demonstrate that consumers in the 
United States have certain tastes that the entertainers cater 
to. Content that does not sell usually disappears. However, 
there are other forms of entertainment that still survive and 
sell well. Nursery rhyme books, animated movies, and religious 
books all have their audiences and are produced precisely 
because publishers and producers know they will sell. It is 
rate that a successful business is set up solely to satisfy a 
market niche without some indication first that the product 
will sell and will be well received.
    Business failures are often attributable to poor planning 
and poor research that never finds its market as big as it 
hoped. The successful ones are often the businesses that either 
know their market beforehand or readily adapt to it.
     So in conclusion, Mr. Chairman, I, like yourself, have 
some serious objections to much of the content that is sold and 
concerned about the effects it has on our society. I look 
forward to hearing from our witnesses and obviously asking them 
some pertinent questions on their opinions. Obviously, American 
consumers can make their own decisions, but they need 
information first, and perhaps the biggest thing to do is 
provide transparency for the consumer so that certainly the 
parents know beforehand the product they are getting.
    There is obviously another concern this committee has 
always had, and that is privacy and protection of the 
individual's privacy. And in many universities they provide 
broadband Internet for their students. Now a lot of these 
universities do not set up privacy safeguards so the music 
can't be stolen. I am happy to say that the University of 
Florida, that I represent in my district, works actively with 
the recording industry to stop piracy on their broad band 
networks so I hope more universities that university's 
indication and recommendation. And with that, Mr. Chairman, I 
yield back.
    Mr. Rush. Thank you very much. The Chair now recognizes the 
gentlelady from Illinois, Ms. Schakowsky, for 5 minutes for 
opening statement.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ILINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman. And I too want to 
thank you for your opening statement both in its tone and its 
substance. I want to focus particularly on the treatment of 
women in our communities, and the role of corporations and the 
media and the entertainment industry and consumers in that 
treatment. Like everyone else, I am sure I want my 
granddaughters to be brought up in a society that values their 
worth and teaches them to be confident and empowered members of 
our community. I want them to grow up free from physical and 
verbal abuse. Unfortunately, we have not yet created a society 
in which that is guaranteed.
    Girls and young women of color in particular are faced with 
repeated onslaughts of disrespect and bigotry. As we saw so 
dramatically with Don Imus' remarks even those who accomplish 
great things are not immune. All of us have a responsibility to 
work to end racism and sexism and bigotry in all forms. And I 
am glad that industry representatives, artists, academics, and 
women's advocates have gathered here today to begin a 
productive dialog. I believe that all parties at this hearing 
bear a special responsibility to insure that the culture in 
which our children and grandchildren grow up is a tolerate one. 
There are several fundamental questions here. What kind of 
culture do we want for our children? How do we determine 
whether certain words and pictures and values are appropriate? 
What is the Government's role? None of these questions is easy, 
which is why this discussion is so important, not just here but 
more importantly in communities and in homes across the Nation.
    The sexist and racial stereotypes in much of today's media 
are culturally poisonous. Many of us see its effects in our 
neighborhoods every day. But the hallmark of an open society is 
the right to speak and to create art without governmental 
interference. Like Chairman Rush, I respect the first 
amendment, and I am wary of interfering in a way that stifles 
free expression. Censorship of media that we find offensive is 
a dangerous game. Who decides what music or movies merit fines 
or restrictions? Why, for instance, does Wal-Mart ban the sale 
of explicit music with parental advisory warnings and yet 
continues to sell Grand Theft Auto in which players are 
encouraged to stomp on and rape women?
    Government censorship would be equally arbitrary and it is 
a slippery slope down which I don't want to go. This hearing 
recognizes the power of entertainment and culture in our lives. 
I believe art both reflects and influences society. Artists and 
corporations need to understand that role and take it 
seriously. I don't believe in censorship, but I also don't 
believe that corporations should reap financial rewards by 
promoting intolerance and bigotry. Consumers too need to take 
responsibility. Consumers, we have seen, can have a major 
impact, as we saw on the pressure that resulted in the firing 
of Don Imus, with the growing demand for more positive lyrics 
and less violent videos.
    I want my four grandchildren to grow up in a society that 
treats all of its members with respect but I am equally 
concerned with protecting their freedom of creativity. This is 
why I thank the chairman for calling this hearing and giving 
all stakeholders here the opportunity to start a dialog that 
can achieve both goals. I don't think that is impossible. I 
take this issue very seriously, and I look forward to the 
discussion. Thank you, Mr. Chairman, and I yield back.
    Mr. Rush. I want to thank the gentlelady. The gentleman 
from Nebraska, Mr. Terry, is recognized for 5 minutes for an 
opening statement.
    Mr. Terry. Thank you, and I will waive.
    Mr. Rush. The gentleman from North Carolina, Mr. 
Butterfield, is recognized for 5 minutes.

OPENING STATEMENT OF HON. G.K. BUTTERFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mr. Butterfield. Thank you very much, Mr. Chairman. I thank 
you and I thank the ranking member for arranging this hearing 
today. I understand that you had some difficulty in getting it 
arranged. You told me a few months ago that you were going to 
do it, and finally the day has come. And so thank you very much 
for your work in this area. In reading the material that we 
received in our offices a couple days ago, I noticed that the 
title of this hearing is ``From Imus to Industry.'' I am not 
sure that that is the best title for this hearing. I wish we 
had had some discussion about that. We probably could have come 
up with another title that would have been less antagonistic to 
the industry, but having said that we are here today and 
hopefully we will have a productive hearing.
    Mr. Chairman, Americans have forever enjoyed being 
entertained whether through music, movies or video games. These 
devices have made their way into the homes of nearly all 
Americans where music lyrics are mimicked, movie lines are 
quoted, and video game characters are emulated. Through these 
various media outlets stereotypes of exaggerated and women are 
at times degraded, and that is most unfortunate. Are these 
lyrics and images a sign of the times? Are the producers of 
these products merely responding to society's status quo or is 
our increasingly tumultuous society causing these offensive 
trends in entertainment.
    Mr. Chairman, I believe that this is a cyclical problem. It 
raises larger societal issues than what is being addressed with 
this hearing. Music is playing a larger part than ever in 
American society. It is without question that the artists who 
perform these songs with questionable lyrics or suggestive 
themes pull from the personal experiences that they have had in 
their lives in order to arrive at their final product. Whether 
we like it or not, this is the culture that we find ourselves 
in today. I attended a hip hop summit a few weeks ago at A&T 
State University in my home State of North Carolina, and just 
on a few days notice there were thousands of students attending 
this hip hop summit. Some of those could not even enter the 
coliseum.
    And so, Mr. Chairman, I fully believe in the first 
amendment. Certainly we all do. I have been in the legal 
profession for many years, many years as a judge, and years 
before that as a lawyer, and so I for one certainly believe in 
the first amendment right that we have under our Constitution. 
And so the chairman is correct, we must uphold the first 
amendment rights that we have in this country. Our society is 
nothing without the first amendment. With that said, however, I 
think the artists, and two of those artists are here today and 
perhaps more, they are here and they have the knowledge that 
millions of Americans would idolize them and imitate them and 
emulate them. And so they have an obligation. Yes, they have an 
obligation to record music and to make their movies and to make 
their videos in a responsible fashion.
    The artists need to know that their positions are power and 
they have positions of power. If you think Members of Congress 
have positions of power, I want you to know that the artists 
have profound positions of power. They are attractive to our 
youth so their influence should be positive. The artists whose 
music we are exposed to on a daily basis are driven by powerful 
record labels and they too have a fiduciary responsibility to 
their stockholders to produce what sells. That is basic 
corporate law 101. Corporations are in the business of 
producing a profit for their stockholders, and none of us want 
to diminish that. But the record labels have a large 
responsibility and they have a responsibility to our society 
that they not sit idly by and allow these lyrics and the music 
video images from invading impressionable minds.
    Studies suggest that exposure to media violence increases 
levels of aggression leading to increased crime in music and 
movie and video games that promote gang activity and crime and 
degradation of women have a direct impact on the way 
impressionable individuals lead their lives. The entertainment 
industry as a whole, the artists and the actors and the record 
labels and video game designers and large media conglomerates 
must work together. I have a daughter who is a hip hop 
executive, and I have told her on numerous occasions we all 
have a responsibility and an obligation to society, and so we 
must all continue to work together to try to solve the problem 
that we are facing today.
    But the responsibility does not terminate with the 
industry. Parents and children and consumers must be vigilant 
about what they are buying for themselves and their families. 
The only way to solve this problem of stereotypes and degrading 
images in the media is to work together. That is the message 
that I am delivering today. We must all work together and not 
engage in a confrontation. I am going to yield back, Mr. 
Chairman. I will submit my remaining statement for the record.
    Mr. Rush. The Chair thanks the gentleman. The gentlelady 
from Tennessee, Mrs. Blackburn, is recognized for 5 minutes for 
an opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, for holding the 
hearing. We appreciate this, and want to welcome all of our 
witnesses who are here from media, entertainment, academia. We 
appreciate your time. I especially want to give a welcome to 
Dr. Tracey Denine Sharpley-Whiting. She is from Vanderbilt 
University and will be with us on one of our panels today.
    Today's topic, as you are hearing, is extremely sensitive. 
Many people have strong feelings regarding the lyrical and 
visual content portrayed in popular music, and these are not 
altogether positive. As a mother for my children as they were 
growing up, and I understand and share many of the concerns 
that you are hearing expressed here today.
    However, there are equally passionate voices on the other 
side of the issue that cherish the purity of the creative 
process and view today's proceedings as an assault on a 
artist's first amendment rights. So I anticipate that we are 
going to hear from both sides of this before the day is done, 
and my hope is that we are going to have a better understanding 
and probably a bit more nuance perspective as we look at the 
issue going forward. After all, I cannot and will not begin to 
read back many of the lyrics written by the two gentlemen that 
are going to be on the second panel. They are obscene 
regardless of when they were written and to what audience they 
were directed. And in my opinion they do not deserve the 
dignity of this committee's time.
    It raises a good question though for these individuals. 
Where and how did society fail you to the point that you would 
choose to write such filth? I find it very sad. I find it very, 
very sad that there would be such a societal failing that you 
would choose to write such filth. Yet, no matter what I think 
of the lyrical quality, I cannot and will not begin to consider 
legislative remedies that put on the slippery slope of 
silencing our Nation's creators. But that does not absolve 
policymakers, community leaders, and families from taking an 
active role in combating the pervasive influence that perverse 
misogynist and racially insensitive pop culture content plays 
in our society today. We must do our part in explaining to our 
children that what they see on TV and hear on the radio may not 
always reflect reality.
    And the job doesn't stop there. Our friends and partners in 
the corporate entertainment industry must remain actively 
involved in the fight to promote artists and entertainer who 
carry a positive image. One of the things we have to remember 
is that as corporate executives--and you work with the 
understanding that choices have consequences. You also 
understand that your standards reflect the core values for your 
company. We will be interested in talking about those core 
values. I do not pretend to fully understand the pressures that 
the recording industry faces today from epidemic piracy to the 
transition to the digital platform but I do understand that 
corporate leaders in the music business are our partners in 
helping to build a better community. They are rising to the 
challenge.
    We will be interested to know what you are doing for 
charities and with charities and with education on how to 
properly use entertainment products. I also understand that 
much of the world forms their perception of America by what 
they see on the screen and stage and what they hear across the 
air waves. In this regard, you do hold the world in your hands. 
My hope is that you are going to handle it very carefully, and 
remember that with our great Nation perception is many times 
reality in the eyes of those beholders. Mr. Chairman, I thank 
you for your diligent work. I look forward to visiting with our 
witnesses as we proceed through the day. I welcome them all, 
and I yield the balance of my time.
    Mr. Rush. The Chair thanks the gentlelady. The gentleman 
from Georgia, Mr. Barrow, is recognized for the purposes for an 
opening statement for 5 minutes.
    Mr. Barrow. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Stearns for calling this hearing. I want to 
thank you for taking this subject on. There are some problems 
where the only thing worse than talking about the problem is 
not talking about the problem, so I commend you for your 
willingness to take this subject on. I can't think of anything 
I could add to your statement, Mr. Chairman, to set the stage 
for this, so in the interest of time, I am going to yield the 
balance of my time. I want to thank you once again for calling 
this hearing.
    Mr. Rush. The Chair thanks the gentleman. The gentleman 
from California, Mr. Radanovich, is recognized for 5 minutes 
for an opening statement.

 OPENING STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman. I appreciate your 
efforts and Ranking Member Stearns, and appreciate the fact 
that you are holding this hearing today. As the parent of a 9-
year-old daily interaction with my son, with people he meets, 
and things he sees and hears are constant influences on his 
development. Children are particularly impressionable and often 
do not understand the difference between fact and fiction, the 
real and surreal. Naturally I want to make sure that my son is 
not exposed to that which he is either not mature enough to 
understand or content that is just simply inappropriate for his 
age.
    To be honest, some of the content available today whether 
in music, video games, TV or movies can be downright 
disgusting, and in my view is inappropriate for any age group. 
Certainly I don't enjoy it, and I also understand that there 
are things that I enjoy that other people do not. However, 
whether I like the content or not, we live in a country where 
the very foundation of our society rests on the freedom to 
express ourselves and that is something I hope we all keep in 
mind during today's discussion.
    Fortunately, we also live in a time when there is an 
abundance of tools, technology, and messaging designed to keep 
the public informed of content and enable parents to control 
what their children are exposed to. TV shows now have a rating 
system that is prominently displayed during the show. Also, 
technology such as V chip are available through cable and 
satellite companies that allow parents to block certain shows 
that they may not want their children watching based on the 
show's rating. At the end of the day, no matter how many tools 
are available to control content the responsibility ultimately 
lies with the individual or the parent.
    I recognize that there is room for almost every interest in 
the market place, and diversity makes it easy to filter who is 
exposed to what. One of my favorite public service 
announcements was created by the Ad Council in conjunction with 
industry leaders and broadcasting cable satellite as well as 
other consumer electronics community. The commercial starts 
with a model who walks into her living room with a Soprano-like 
character sitting in front of her, and mom says, ``Remember 
last week when you hit Vinnie on the head with a shovel? Well, 
it was pretty graphic, too graphic for my kids, so I am going 
to have to block you.'' The TVboss.org ad is a perfect example 
of how the system should work with the tools that are provided 
to parents.
    All the industries represented here today, and some that 
aren't, have made great strides and have gone to great lengths 
to address the concern of inappropriate content. My son loves 
to play video games. The gaming industry through rating systems 
and the ability to block certain games from being able to be 
played on my son's device has made my job as a parent more 
doable. I know that with a few clicks of a button I can insure 
only games with an ``E'' for everyone can be played on his 
machine. Whether it is the ability to block programs, producing 
edited versions of CDs or the diversity of having channels that 
you know all content will be acceptable for certain viewers, I 
commend the industry's foresight and innovation. The only thing 
I would ask is that as the market evolves, that technologies 
improve, keep giving parents more tools to make their job 
easier because I think we can all agree that raising a child in 
today's world is not an easy task.
    Mr. Chairman, I thank you and the ranking member for 
holding what I think will prove to be a productive discussion 
between industry leaders, artists, lawmakers, and parents on 
how we can all work to continue to produce and improve the best 
controls possible that make my life as a parent more 
manageable. Thank you.
    Mr. Rush. The Chair thanks the gentleman. I want to just 
make a point. There is a fine line between the jurisdiction of 
this subcommittee and the jurisdiction of the subcommittee that 
Mr. Markey chairs, the Telecommunications Subcommittee. I want 
to remind Members that this subcommittee's jurisdiction rests 
with the content and the interstate commerce which includes 
products, CDs, video games, et cetera. The public airwaves are 
under the jurisdiction of Mr. Markey's subcommittee, the 
Telecommunications Subcommittee. Please be mindful of that. Ed 
is my friend and we don't want to battle over jurisdiction. The 
Chair now recognizes the gentleman from New York, Mr. Weiner.

 OPENING STATEMENT OF HON. ANTHONY D. WEINER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Weiner. Thank you, Mr. Chairman. And I too want to 
thank you for holding the hearing and the tenor of your opening 
remarks. There is almost no doubt that we are experiencing a 
coarsening of discourse in our country, an increase in the 
amount of violence and sex and degradation that is going on in 
our public consciousness and our public debate, and in the 
media that goes along with it. There is no doubt that for 
whatever reason the music industry is not creating and 
rewarding acts like Tribe Called Quest, and Grand Newby, and De 
La Soul, and acts that once upon a time celebrated a different 
type of conversation in the communities of our country.
    There is no doubt that Dance Hall is also affected and 
other parts of music, and there is no doubt that the traditions 
of Studio One that created the Barrington Levys of the world 
and the Bob Marleys of the world have given way to the Buju 
Bantons of the world, the misogyny and homophobia that they 
communicate. There is no doubt that when you look at the 
artists that are being celebrated in the market place today, 
extraordinarily successful artists like 50 Cent, you see the 
promotion of records like Get Rich or Die Trying in some of the 
communities most ravaged by handguns, giant posters with the 
artist holding a handgun in his hand extended outward clearly 
sending a message and communicating a message that is a violent 
one.
    But this is also the extension of a debate we have been 
having in this country for generations and generations. The 
names might be different but it is no different than the 
conversation we had about sex on television and curse words on 
television. I remember being shocked when I was a young kid and 
Alan Alda on MASH said ``son of a b * * * *'' during a MASH 
episode. You would probably not be able to get through a 
Sopranos episode without hearing a curse word in every other 
scene. It is no different than the conversations we have had 
about all forms of communication and conversation. I don't know 
who is going to solve the problem. I don't know to what degree 
it represents a problem or the natural outgrowth of a vibrant 
market place of ideas. I can tell you we aren't. I can tell you 
Congress isn't. It is good that we are having this hearing to 
continue the discussion because it is important that we 
understand. Only when lines are egregiously broken and crossed 
like they were in the case of Don Imus do we really engage in 
this conversation. We go long periods of time before we are 
shocked at the consciousness and start thinking about it again.
    I can tell you that we, an institution of 435 members of 
America's elite, most of us white, most of us well-to-do, most 
of us not exactly the creators of art, we are not going to be 
solving the problem. It is good for us to have the 
conversation. Ultimately it is going to most likely begin with 
the artists and their customers. I would have liked to see the 
first panel be the artists. I would like to hear a little bit 
about what are in the thoughts and minds of someone who creates 
are that is so violent, that is so misogynistic, that is so 
angry and coarse. I can tell you that most likely, and I take 
some exception and disagreement with Mr. Butterfield, I think 
this is ultimately going to be a business decision.
    I think when Chamillionaire makes a decision on his second 
record not to use the ``N'' word and not to use curse words to 
some degree it is a business calculation. To some degree he is 
saying what, the market place is pretty well occupied with 
people cursing and yelling and saying nasty things. 
Chamillionaire, who is clearly a very shrewd businessman, is 
saying, you know what, I am going to try to occupy a different 
place and see if there is a market place for people who want to 
exhale a little bit, let their shoulders slump because there is 
finally some music that doesn't say these things. He is clearly 
making a political statement, and this is what artists have 
done through generations.
    I can tell you that it is going to be very easy for us to 
say, well, maybe if Universal didn't promote something or 
Warner didn't promote something or maybe if Viacom didn't put 
it in a video on MTV, although I must admit I haven't seen a 
video on MTV in forever, maybe then we will be able to solve 
this problem. But, there was an article in today's the Daily 
Swarm, which is a blog online that talks with the music 
industry, about Amazon's new service it is going to sell, MP3s. 
It had a remarkable statistic. It said they are going to have 2 
million songs from 180,000 artists represented by 20,000 major 
and independent labels. So if you think that Mr. Morris or Mr. 
Bronfman or anyone can say, you know what, I think this is so 
violent, that is it, you are done, I am taking you off of my 
label, there are only 19,999 other places for those artists to 
go.
    And we all are familiar with the idea that now one of the 
most important ways to promote your music is not to have a 
label at all, just go to the clubs with your CD. You get an 
influential enough DJ to play your music. Before you know it, 
you don't need a label at all. So it is probably not going to 
be Congress to solve this coarsening of society problem. It is 
probably not going to be the suits that represent the labels. I 
believe ultimately we need to have a conversation that includes 
the artists and their customers about why these messages are 
becoming so popular, why it is that it is so much the popular 
message. When the artist Shinehead, during the explosion of the 
crack epidemic, put out a record that was almost entirely 
devoted to the idea that crack was killing their communities. 
It sold. Maybe that will begin again. Maybe the Shineheads will 
emerge again. Thank you.
    Mr. Rush. The Chair thanks the gentleman. The Chair now 
recognizes the gentleman from Texas, Mr. Burgess, for the 
purposes for an opening statement.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. Mr. Chairman, I thank you also for holding 
this hearing. I agree this is an extremely important discussion 
that we need to have. The discussion needs to be in the board 
rooms. It is appropriate to discuss it in Congress, and quite 
honestly it is a discussion that needs to be had within the 
family, but I thank you for bringing it to the forefront of 
this committee. Now the topic of today's hearing, the business 
of stereotypes and degrading images, affects communities 
throughout the country. This past weekend back in my district 
at Fort Worth, TX, I had the honor of hosting an economic 
development summit in my district. It really didn't take long 
for the conversation of this committee's hearing to come up.
    A civic leader in Fort Worth, Mr. Eddie Griffin, who 
frequently engages me in conversation on a variety of subjects, 
he is, as he pointed out, a member of the Afrosphere Bloggers 
Association, we talked about this at some length and about the 
impacts that the art is having on his community. He sent me an 
e-mail yesterday knowing that this hearing was going to be 
happening, and I found his statement to be really very simple 
and very profound. He said, ``We will use our collective powers 
to negatively impact the profitability of those companies who 
cross the line.'' Mr. Chairman, the Constitution wisely limits 
what we in Congress can do legislatively regarding what we may 
consider objectionable material in art or media, but consumers, 
and as a nation of consumers, we hold tremendous power and we 
can stop buying the degrading music and video games.
    We all know that if there weren't a profit, if people 
weren't buying into the line of products then they would no 
longer be on the shelves in our local stores for purchase. As 
Mr. Griffin said, we, everyone in this room and everyone 
watching this hearing on television can collectively use our 
power of our individual purse to no longer make this a 
profitable business for anyone including the companies 
represented in this room. Some of the artists who are here with 
us today who pen the lyrics are the retailers who sell the 
depravities that come into our homes disguised as a simple CD 
or video game. It is really the most powerful recourse that we 
have.
    Mr. Chairman, Mr. Griffin also said in his e-mail that 
there is only so much that we as African Americans or other 
Americans can take. I personally don't think that we as 
Americans should take this type of performance art any longer. 
It is up to us as citizens to put an end to it. Mr. Chairman, 
it is my hope this hearing will help us do just that. I thank 
you for your leadership on this essential issue, and I will 
yield back the remainder of my time.
    Mr. Rush. The Chair thanks the gentleman for the brevity of 
his opening statement, and now recognizes the gentleman from 
New York, Mr. Towns, for 5 minutes for an opening statement.

 OPENING STATEMENT OF HON. EDOLPHUS TOWNS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Towns. Thank you very much, Mr. Chairman. Let me thank 
you and Ranking Member Stearns for bringing us together and 
indicating that we must work together to find the proper 
balance, and I am a strong supporter of the first amendment. I 
am glad that these fine witnesses are willing to engage us in a 
discussion of the negative effects of degrading images and 
stereotypes in our culture. We all should have taken some 
responsibility to help combat the negative effects as we 
respect important freedoms. I believe this hearing will serve 
as an important function in that regard. I am especially 
pleased to see the video game industry represented here today 
as it continues to provide consumers with innovative technology 
and products. Over the course of my years on this subcommittee, 
I have come to know the video game industry well. I know 
publishers like you, Mr. Zelnick, have contributed a great deal 
to the industry's overall success in building parents trust and 
the industry's voluntary rating.
    In fact, this very subcommittee, as the gentleman from 
Florida indicated earlier, commissioned a report by the Federal 
Trade Commission on the practices of the industry. In that 
report released in April of this year the agency applauded a 
number of measures taken by the industry to increase parental 
awareness, retail enforcement and advertising best practices, 
and I salute you for that. The agency found that nearly nine in 
10 parents are aware of the rating system that cut the number 
of minors who could purchase M-rated games nearly in half.
    These findings support my view that the industry is taking 
responsibility for the product it makes and gives parents the 
supportive tools they need to make informed decisions about 
what games come into their homes. Regarding the media industry 
as a whole, there has been an explosion of options available to 
consumers. We have gone from three networks at PBS to hundreds 
of channels of diverse content. The main complaint these days 
is that there is too much to choose from rather than not 
enough. However, among all of the available content options 
there are definitely things that I don't care for. I am pleased 
that the industry has created a rating system that offers 
parents more information so that they can block degrading 
images from their kids. There should be a far greater effort to 
teach parents how to use these controls on their televisions.
    There is surely something for everyone among the hundreds 
of channels and iPods and satellite radio programs and DVDs so 
watch what you like, and don't watch what you don't like. That 
is a pretty simple theory. As far as lyrics and adult content 
are concerned, it is a cultural conversation, and we need to be 
careful not to look like we are advocating censorship of 
artists whose creative expression reflects their lives and 
experiences. Those things are what shapes our young people's 
lives that experiences have forced them to think.
    I am pleased that we have two successful artists here today 
to tell their stories. Let us make certain that we respect 
those important freedoms. This is a complicated subject matter, 
and the most important thing we can do is convene these forums 
and engage in a serious, civil conversation that heightens 
everyone's sensitivities to the problem, not the problem of rap 
music but the problems facing our community each and every day. 
This is not about legislating or pointing fingers at anyone. It 
is about a serious thought for dialog, and I thank you all for 
furthering the national debate in this forum, and it is really 
about working together to see in terms of what we might be able 
to do because you admit, and I admit, that there is a problem. 
On that note, Mr. Chairman, I almost yield back but I am out of 
time so I can't yield anything back.
    Mr. Rush. I want to thank the gentleman. The gentleman from 
Pennsylvania, Mr. Pitts, is recognized for 5 minutes.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman. I will submit my entire 
statement for the record but I would like to make a few points. 
First of all, thank you for holding this important hearing, and 
thank you for your leadership on this issue. It is very much 
appreciated. A number of the images and actions, profanity, and 
overall messages promoted by the music and entertainment 
industries today are deeply disturbing. Violence, devaluation 
of life, the degradation of women permeate much of the visual 
and vocal products circulating in our market place. What people 
see and hear absolutely does affect them, and that is why 
marketers spend billions of dollars every year on media 
advertising. They know that people, particularly kids, 
internalize what they see and hear, especially when they see 
and hear it over and over.
    Companies are in business to make a profit. That is clear, 
but is it only when there is a public outcry, for example, over 
lead tainted toys, that companies make changes? Or look at 
cigarette production. It took a long time for cigarette 
companies to admit that nicotine was addictive despite a 
plethora of cited evidence because they did not want to admit 
the health risk associate with their lucrative products. In 
terms of degradation in music videos and other forms of 
entertainment sadly profanity and violence do seem to sell 
well. Tragically when a product promotes violence it does 
impact individuals' lives and community lives, even our 
Nation's life. Take Columbine, for example. We know that the 
young men who took other students' lives listened to very 
violent music.
    One of the songs they listened to repeats six times in one 
song, ``If I had a shotgun, I would blow myself straight to 
hell.'' If a child listens over and over and over to lyrics of 
a song the message begins to sink in and becomes part of the 
perspective through which he or she views life. In addition to 
violence in general, a deeply disturbing message promoted by 
certain songs and videos treats women as objects, not people. 
These images foster an environment that can be permissive in 
terms of attitudes of domestic violence against women. Domestic 
violence statistics in our Nation are horrible, and incidents 
of violence across all sectors and economic levels of society.
    According to the University of Minnesota's human rights 
library, ``Domestic violence also contributes to other forms of 
violence against women. Women who experience violence at home 
may be more willing to look for and accept an uncertain and 
potentially risky job abroad placing them in danger of being 
trafficked.'' In 2004 there was a briefing in Capitol Hill 
focusing on domestic trafficking and sexual exploitation. The 
main panelists were not adult experts, but were five young 
women from various backgrounds who had lived through years of 
abuse both at home and on the streets from pimps, police 
officers, foster care, and others.
    Even after receiving assistance, the girls were afraid to 
testify against the pimps who had caused such great harm in 
their lives because the men would only get 6 months in prison. 
The girls all knew of others who had testified but who had been 
beaten up afterwards or even killed. Basically, pimps are sex 
traffickers. Unfortunately, the music messages we are 
discussing today promote domestic violence and trafficking in 
humans. Mr. Chairman, I strongly believe that the 
responsibility for messages promoted in a particular music 
album, music video, video game or the like lies at all stages 
of development and production. Artists, managers, producers, 
sales representatives, upper level management, and CEOs all 
bear culpability for the messages that are promoted and affect 
our youth.
    There are those performers who are taking a stand to help 
stop promoting negative messages to our youth. I applaud them. 
I also commend our distinguished witness, Mr. Percy Miller, on 
his efforts to produce albums with positive message. We need 
more individuals like these. I look forward to hearing from our 
distinguished witnesses, and I yield back.
    Mr. Rush. The Chair now recognizes the gentleman from 
Massachusetts, Mr. Markey, for 5 minutes.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. Markey. I thank you, Mr. Chairman, and I commend you 
for this most welcome inquiry and discussion. Whether it is rap 
or hip hop or any other musical genre, it is vital that artists 
can freely express their talent and convey their messages. This 
is true of any art form, the spectrum of what it is to be 
human, what the experience may be for a particular person at 
this time in history, and whatever circumstances they find 
themselves discovers following an expression in art. This 
should be celebrated and revered even if such art or messages 
occasionally make people uncomfortable.
    What our popular mass media does, however, is to take 
certain artists' works and essentially put them on steroids. 
Quite often the art that is marketed and sold reflect the 
personal experiences of artists, their neighborhoods, and their 
understanding of the world in which they have grown up. On the 
other hand, some of the art that is chosen by large commercial 
companies for marketing back into such neighborhoods has the 
power to reinforce messages and bestow acceptability upon 
themes, actions, and words that no parent and no community 
leader would ever deem to endorse. Such products can be mean 
and degrading, and repeated over and over again represent an 
incessant undermining of human dignity.
    It was brought into focus most recently for me by comments 
made by former NBA star Isaiah Thomas. In a taped video Isaiah 
Thomas said that if a white male referred to a white female by 
a vulgar term it would be highly offensive. If a while male 
referred to a black female by the same term it would also be 
highly offensive. But if a black male referred to a black 
female by the same vulgar term, Isaiah Thomas said it wasn't so 
bad. That is repugnant because he is such a role model for so 
many young people in our country. What a hideous double 
standard he is promoting.
    This hearing is tapping into something that is long 
overdue. Like Isaiah Thomas' comments the subjects for this 
hearing indicate a moral failing. What responsibility do media 
companies exercise when they select artists and songs and 
videos to promote and to mass distribute. I remember when BET 
was launched. It was supposed to be the black sophisticated 
educational and entertainment channel full of high-minded fare 
invoking the best of the Harlem renaissance and the great 
diversity of the community. Instead it became the lowest common 
denominator of cheap and tawdry music videos and other 
questionable programming.
    I was encouraged to see today's article about some of the 
new programming BET will be putting out. That is wonderful. 
But, frankly, it has a long way to go to make up for such a 
long history of previous programming. And I understand that the 
music industry is prepared to make its rating system more 
useful to parents by implementing a mechanism whereby parents 
can block inappropriate songs. This is something that warrants 
much further exploration and implementation. In short, I hope 
that today's hearings result in a dramatic reassessment by 
media companies as to their overall responsibility and as to 
the criteria they use to select what they choose to promote and 
to air. I want to again commend Chairman Rush for calling this 
hearing, and I thank our witnesses for joining us here today.
    Mr. Rush. The gentlelady from California is recognized for 
5 minutes.

   OPENING STATEMENT OF HON. MARY BONO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Bono. Thank you, Mr. Chairman. I appreciate your 
holding this hearing today on this very important topic. As you 
know, I have a connection to, and an affinity for, the 
entertainment industry, but as a mother and as a Member of 
Congress, I also have concerns about some of the entertainment 
products that are delivered to our families in the form of 
games, television shows, movies, and music. As a result, I 
believe the industry has a responsibility to provide parents 
with easily identifiable information and access to the best 
technology available so they as parents can decide what is seen 
in their households.
    In many respects, the industry is addressing its 
responsibility through available technologies and parental 
notifications. It seems to me though that the true challenge is 
continuously connecting parents to this information. For that 
reason, I am pleased that you have convened this hearing. It is 
important that the subcommittee be a part of the national 
conversation about whether artistic expression can go too far 
and what too far is or said another way whether there are 
additional actions that entertainers and industry should 
consider in order to insure that they can continue to innovate, 
freely express themselves, and provide ample notice to 
consumers, particularly parents about the products being sold.
    Of course, this debate has been going on for as long as 
there has been music or even teenagers for that matter. I 
remember a while back after a controversial appearance by Two 
Live Crew a conservative Republican senator from Florida made 
news and turned heads when he said, ``Under our form of freedom 
of speech words are protected. Once we begin selectively 
defining which words are acceptable, we enter a slippery slope 
where freedom is compromised.'' And that senator had it exactly 
right. Last night when I was reviewing the panel's testimony, I 
was pleased to see that some of you made similar points. I was 
also pleased to notice that you all seem to take this issue 
seriously and that you take your responsibilities just as 
seriously.
    Our founders understood that we are healthier as a nation 
if we don't silence words that offend or provoke but instead 
use them to encourage the very dialogs and discussions like we 
are having today. I share this belief and am glad you are all 
engaged in a dialog with us, with your colleagues throughout 
the entertainment industry, and most importantly with parents. 
I would like to thank our panelists for being here today. Mr. 
Chairman, I yield back the balance of my time.
    Mr. Rush. The Chair thanks the gentlelady. I am just going 
to take prerogative right now. There are two people in the 
audience that I really have to recognize. One is my friend, Mr. 
Dick Gregory. He is in the audience. I want to thank you, Dick, 
for being a part of this hearing. And another struggling 
entrepreneur from this city, Mr. Anton Mohammed. Mr. Mohammed, 
thank you for your participation in this hearing. Now the Chair 
recognizes the witnesses. Again, I want to thank you for the 
generous use of your time. You have been very, very patient 
with us, and we certainly thank you.
    And the Chair now recognizes Mr. Philippe Dauman. He is the 
president and CEO of Viacom, Incorporated. As we all know, 
Viacom is one of the largest media companies in the world and 
owns MTV network and Black Entertainment network, both of which 
feature music videos along with original programming. Mr. 
Dauman, you are recognized for 5 minutes for an opening 
statement. Thank you for your presence.

  STATEMENT OF PHILIPPE P. DAUMAN, PRESIDENT AND CEO, VIACOM 
                INTERNATIONAL INC., NEW YORK, NY

    Mr. Dauman. Thank you, Chairman Rush, and Ranking Member 
Stearns. My name, as you said, is Philippe Dauman. I am 
president and CEO of Viacom, home to some of the world's most 
iconic television entertainment brands including MTV, Comedy 
Central, Nickelodeon, Spike, Logo, and BET, as well as 
Paramount Pictures, which produces and distributes motion 
pictures across the globe. The success and popularity of these 
and our other entertainment brands is rooted in the innovative 
spirit of our organizations. Viacom has two of the most 
experienced, well-respected leaders in the business running our 
TV programming divisions, Judy McGrath, chairman and CEO of MTV 
Networks, and a 20-year veteran of the company, and Debra Lee, 
who has spent the past two decades at BET Networks, and today 
serves as chairman and CEO, each a trail blazer in her own 
right. Judy and Debra oversee diverse executive teams that are 
the stewards shaping the content of our channels.
    We understand that with influence comes responsibility and 
we take our responsibilities seriously. We have a 
responsibility to entertain. If we fail to fulfill this most 
basic responsibility we don't have a business. We have a 
responsibility to speak authentically to our viewers. Our 
entertainment has to engage the audience. Believe me, this is 
no simple task. Boomers, generation X, progressives, 
conservatives, parents, children, and every race and ethnic 
background, we cover a lot of ground. The fact is that none of 
these distinct audiences is monolithic. That is why we spend a 
lot of time, effort, and money researching what our audiences 
want. A one size fits all approach cannot succeed. That 
explains why ``Juvies'' a real-life portrayal of the juvenile 
criminal justice system, aired on MTV along side ``The Hills'' 
a show about affluent young adults living the good life in LA.
    While on BET, you will see Sunday Best, a search for the 
next great gospel singer, as well as Baldwin Hills, a reality 
series focused on the lives of upper middle class African 
American high school students. Rather than stifling creativity 
in pursuit of consensus, we seek balance, a balance of content 
that entertains and reflects the full spectrum of our diverse 
audiences' interests but every show is not for every audience. 
This is why we have standards and practices that govern all of 
our programming and guide our ratings. Every show and every 
music video are reviewed by a diverse group of employees before 
they are seen on a lot of our networks.
    We play no role in producing or creating videos. That is 
within the exclusive purview of the artists and record labels. 
We do, however, take a very proactive role, which is why some 
videos are edited and some are rejected. Once programming meets 
our standards it is given a rating. Videos are rated in blocks. 
Parents and viewers can then rely upon these ratings to make 
informed decisions and use existing technology to block 
programming they don't want or simply turn off the TV.
    That brings me to an equally important responsibility, the 
responsibility to engage, educate, and empower our viewers. We 
continually strive to make a positive difference in our lives 
and in our world. This commitment is part of our DNA, and I am 
proud to say we do it very well. Some of our most successful 
efforts include Viacom's worldwide KNOW HIV/AIDS initiative, 
VH1's Save the Music Foundation, BET's HIV/AIDS Rap It Up 
campaign, mtvU's fight to raise awareness about the genocide in 
Darfur, and an exciting new venture Think.MTV, an online site 
designed to encourage and enable young people to get involved 
in public service, which launched just last week with the 
generous support of the Bill & Melinda Gates Foundation.
    Finally, we have a responsibility to listen to both fans 
and critics, and engage in a constructive dialog that will help 
us fulfill all of these missions. That is why I am here today. 
And we don't just listen to our audiences and our critics, we 
provide a platform for their voices to be heard. That is why 
tonight BET will premiere the first of a three-part news 
special, Hip Hop vs. America, a wide-ranging, insightful 
discussion of the impact of hip hop on our culture. For nearly 
three decades, Viacom has created compelling, entertaining and, 
yes, sometimes controversial programming. But as you will see 
in this clip from Hip Hop vs. America, we intend to continue to 
engage our audiences in a productive dialog and create 
programming that reflects our dynamic popular culture.
    [Video clip shown.]
    [The prepared statement of Mr. Dauman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Rush. Our next witness is Mr. Edgar Bronfman, Jr., 
president and CEO of Warner Music Group. Warner Music Group 
recently separated from Time Warner, Inc., and owns the hip hop 
label Asylum Records under the independent label group. Mr. 
Bronfman, thank you for coming. You have 5 minutes for an 
opening statement.

  STATEMENT OF EDGAR BRONFMAN, JR., CHAIRMAN AND CEO, WARNER 
                   MUSIC GROUP, NEW YORK, NY

    Mr. Bronfman. Thank you, Chairman Rush, and Ranking Member 
Stearns, and members of the subcommittee, on behalf of the men 
and women of Warner Music Group, I want to thank you for 
inviting me to testify here today. We at Warner recognize that 
we have a responsibility for the content we distribute and 
present to the public. Mr. Chairman, we welcome your convening 
this hearing and we hope it will allow us to engage in a 
thoughtful approach, a dialog among artists, media companies, 
community leaders and public officials, that is best able to 
examine an issue of importance and civic interest.
    How we grapple with issues of humanity, including race and 
gender, ultimately comes to define what we, as a nation, stand 
for and who we, as a people, are. The history of our country 
is, in one sense, the unfolding story of how we have dealt with 
these issues. Often, artists who deal with the topics of race 
and gender in their works are seen as not only casting a 
spotlight on those issues but sometimes as being part of the 
problem themselves. Creative works in any medium, not just 
music, can be controversial. In fact, they are often 
intentionally controversial in order to shed light on a social 
problem and to try to bring about much needed change. Protest 
art, whether music, literature, or the visual media has played 
a long and distinguished role in the history of our country.
    But we also recognize that some creative expression is 
capable of being more than controversial. Some creative 
expression can be offensive. At the same time, we recognize 
that sensibilities are individual by their very nature and what 
may be offensive or inappropriate to some is important and 
necessary to others. As a result, when evaluating the content 
we release the balance we have to strike requires us on the one 
hand to protect and defend an artist's freedom of expression. 
That is an activity we see as supporting not only our own 
business but also our Nation's principles. At the same time, we 
know that we must consider and very carefully consider the 
impact on our society of the content that we are offering to 
the public.
    Striking the appropriate balance among these often 
conflicting values, interests, and concerns is a complex and 
ongoing challenge, and it is also a moving target. In the 1950s 
many people were deeply offended by Elvis Presley, and a decade 
later many more were scandalized by the Beatles and the Rolling 
Stones. At various points in time, even entire musical genres 
such as Rock and Roll, Rhythm and Blues and Jazz were branded 
as the work of the devil. Thankfully, as years have gone by, 
those perceptions have been altered.
    Public tastes and distastes wax and wane, which is why it 
is impossible to apply a uniform standard to any form of 
creative expression. However, to try and maintain our 
obligation as a responsible corporate citizen while dealing 
with these very complex challenges, we have developed and 
continue to evolve a set of practices to guide us. I would like 
to give you a brief overview of our practices regarding 
content. They begin with the creative process itself. The 
executives at our record labels maintain an ongoing 
relationship with our artists and their music. Our aim is not 
to create art or to censor it, but rather to assure that our 
artists are aware of the potential impact of what they have 
created.
    We are very careful to consider any potentially offensive 
content, including matters of race, national or ethnic origin, 
religion, age, gender, sexual orientation or physical or mental 
disability. We also evaluate the societal context, cultural 
value and artistic merit of the creative work, as well as the 
reputation, background, personal history, and intent of the 
artist, as well as how the work relates to, and compares with 
other works. We label our content as explicit using RIAA 
guidelines to alert the public, especially parents and 
guardians of young people to the presence of explicit content.
    Additionally, we offer edited versions of label product to 
our retail, broadcast and digital partners, so as to broaden 
the choices available to consumers. But reviewing our content 
is not a simple job for many reasons, not the least of which is 
that there are no absolutes. Every day we grapple with finding 
the right balance. Different people draw the line between 
acceptable and unacceptable in different places. What is 
acceptable when it comes to creative expression is often 
determined by our age or class, our education or religion, our 
cultural surroundings, perspective or profession to name but a 
few of the influences on our individual attitudes, and the line 
keeps shifting.
    As I mentioned earlier, it is abundantly clear that what is 
deeply offensive to some people at a given moment in history 
can become with the passage of time not only acceptable but in 
some cases revered. So the message I with to convey to you 
today is this, we recognize our responsibility with respect to 
our content. It is one we do not take lightly. Meeting that 
responsibility requires a delicate balance of many complex and 
difficult issues, one that only be achieved through a 
constructive dialog among artists, the industry and the 
communities we live in and serve. And we are committed to being 
a strong and thoughtful partner in that dialog. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Bronfman follows:]

                    Statement of Edgar Bronfman, Jr.

    Chairman Rush, Ranking Member Stearns and members of the 
subcommittee, on behalf of the men and women of Warner Music 
Group, I want to thank you for inviting me to testify here 
today.
    We at Warner Music Group recognize that we have a 
responsibility for the content we distribute and present to the 
public.
    Mr. Chairman, we welcome your convening this hearing and we 
hope it will allow us to engage in a thoughtful approach--a 
dialogue among artists, media companies, community leaders and 
public officials--that is best able to examine an issue of 
importance and civic interest.
    How we grapple with issues of humanity, including race and 
gender, ultimately comes to define what we, as a nation, stand 
for and who, as a people, we are.
    The history of our country is, in one sense, the unfolding 
story of how we've dealt with these issues.
    Often, artists who deal with the topics of race and gender 
in their works are seen not only as casting a spotlight on 
those issues but sometimes as being part of the problem 
themselves.
    Creative works in any medium--not just music--can be 
controversial. In fact, they are often intentionally 
controversial in order to shed light on a social problem and to 
try to bring about much-needed change. Protest art--whether 
music, literature or the visual media--has played a long and 
distinguished role in the history of the United States, dating 
back to our Revolution.
    But we also recognize that some creative expression is 
capable of being more than controversial. Some creative 
expression can be offensive. At the same time, we recognize 
that sensibilities are individual by their very nature and what 
may be offensive or inappropriate to some is important and 
necessary to others.
    As a result, when evaluating the content we release, the 
balance we have to strike requires us, on the one hand, to 
protect and defend an artist's freedom of expression. That's an 
activity we see as supporting not only our business, but also 
our nation's principles. At the same time, we know that we must 
consider--very carefully consider--the impact on our society of 
the content that we are offering to the public.
    Striking the appropriate balance among these often-
conflicting values, interests and concerns is a complex and 
ongoing challenge. And it is also a moving target. In the 
fifties, many people were deeply offended by Elvis Presley and 
a decade later many more were scandalized by The Beatles and 
The Rolling Stones. At various points in time, even entire 
musical genres such as Rock and Roll, Rhythm & Blues and Jazz 
were branded as the work of the devil. Thankfully, as years 
have gone by, those perceptions have been altered.
    Public tastes and distastes wax and wane, which is why it 
is impossible to apply a uniform standard to any form of 
creative expression. However, to try and maintain our 
obligation as a responsible corporate citizen while dealing 
with these very complex challenges, we've developed and 
continue to evolve a set of practices to guide us.
    I'd like to give you a brief overview of our practices 
regarding our content.
    They begin with the creative process itself. The executives 
at our record labels maintain an ongoing relationship with our 
artists and their music. Our aim is not to create art or to 
censor it, but rather to ensure that our artists are aware of 
the potential impact of what they've created.
    We very carefully consider any potentially offensive 
content, including matters of race, national or ethnic origin, 
religion, age, gender, sexual orientation or physical or mental 
disability.
    We also evaluate the societal context, cultural value and 
artistic merit of the creative work, as well as the reputation, 
background, personal history and intent of the artist, as well 
as how the work relates to, and compares with, other works.
    We label our content as ``explicit'' using RIAA guidelines 
to alert the public--especially, parents and guardians of 
children and young people--to the presence of explicit content.
    Additionally, we offer edited versions of labeled product 
to our retail, broadcast and digital partners, so as to broaden 
the choices available to consumers.
    But reviewing our content is not a simple job. For many 
reasons. Not the least of which is that there are no absolutes. 
Every day we grapple with finding the right balance.
    Different people draw the line between ``acceptable'' and 
``unacceptable'' in different places. What's ``acceptable'' 
when it comes to creative expression is often determined by our 
age or class, our education or religion, our cultural 
surroundings, perspective or profession to name but a few of 
the influences on our individual attitudes. And the line keeps 
shifting.
    As I mentioned earlier, it is abundantly clear that what is 
deeply offensive to some people at a given moment in history 
can become, with the passage of time, not only acceptable but 
revered.
    So the message I wish to convey to you today is this: we 
recognize our responsibility with respect to our content. It is 
one we do not take lightly. Meeting that responsibility 
requires a delicate balance of many complex and difficult 
issues, one that can only be achieved through a constructive 
dialogue among artists, the industry and the communities we 
live in and serve.
    We are committed to being a strong and thoughtful voice in 
that dialogue.
                              ----------                              

    Mr. Rush. The Chair thanks the gentleman. Now we will 
recognize the president and CEO of the Universal Music Group, 
Mr. Doug Morris. The Universal Music Group owns Interscope 
Records, one of the most prominent, ground breaking hip hop 
recording labels in the world. And at the conclusion of Mr. 
Morris' opening statement, we will have to recess because there 
is a vote on the floor, and we will reconvene--there are four 
votes on the floor, and we will reconvene immediately at the 
conclusion of those four votes. I thank you for your patience 
as we go over to vote upon the conclusion of Mr. Morris' 
statement. Mr. Morris, you are recognized. Thank you and 
welcome.

  STATEMENT OF DOUG MORRIS, CHAIRMAN AND CEO, UNIVERSAL MUSIC 
                      GROUP, NEW YORK, NY

    Mr. Morris. Thank you, Chairman Rush. Thank you, 
Congressman Stearns. Thank you, Congressmen and women who are 
present here today. My name is Doug Morris, and I am chairman 
and CEO of the Universal Music Group. Thank you for this 
opportunity to be part of a national dialog on the impact of 
music in our lives and on our society. I certainly am not a 
stranger to the subject matter of this hearing. Lyrics and 
contents of songs are something that I have discussed with 
artists and media executives a great many times over too many 
years. I remember talking about it with my own parents and then 
with my kids as part of the inevitable tug between parents and 
teenagers.
     There are problems in our communities, and it would be 
disingenuous to act as if music and the media have no influence 
on our culture.
    The question that my colleagues and I regularly wrestle 
with is what we should do when an artist chooses to push the 
envelope. How can we balance the artist's right to express 
himself or herself with our responsibility to parents, 
employees, and society at large? These are really important 
issues, and we thank the chairman for providing such a 
prominent forum to further this conversation.
    First some context. My company's music catalogue covers 
everything from Motown and Mozart to U2, Pavarotti, Reba 
McEntire, and Common. We distribute titles that range from High 
School Musical to Cornel West's recent CD about contemporary 
society.
    Rap is but a small part of Universal's total release 
schedule each year. Universal's mission, my mission, is to 
offer music fans around the world a selection of voices and 
sounds from as diverse and dynamic a group of artists as 
possible, knowing full well that not everyone will like or 
appreciate every artist or every work by every artist. The 
reason I like working with artists is because they look at the 
world a little differently than you and I. Their unique 
perspective pushes us to consider things we might not otherwise 
even consider.
    From its inception rap has always been one of the most 
reflective genres in our culture. Perhaps it is the artist's 
willingness to hold up for review and scrutiny the more 
disturbing elements of the human condition. There has been a 
great deal of discussion about three particularly incendiary 
words sometimes used in rap, the B, H, and N words. I should 
point out that the overwhelming majority of the music in the 
Universal catalogue does not contain those words. Some rappers 
do use highly charged words, and that of course has led to this 
debate. From rappers themselves--like Chamillionaire in his new 
song which is quite funny, it is called the Hip Hop Police--
discussions on Oprah and BET, to op-eds, the words used by some 
are prompting a very important dialog that will tell us some 
things about ourselves, our society now, and the future of our 
society.
    While I am the chairman of my company, the artists' words 
are certainly not my words. I have not lived their lives. I did 
not grow up in their homes or neighborhoods, and I certainly do 
not wish to control their emotions or their opinions. Much of 
the music is made by young people, many struggling to find 
their way. Like many young people their age they are 
rebellious, angry, filled with testosterone. Unfortunately, 
many of us grew up to be our parents. Maybe not unfortunately, 
but that is a fact. Their words reflect this. Often times the 
words are the most incisive commentaries on the problems 
plaguing our communities.
    I don't take credit for the observations and expressions 
made in the songs that we love, nor for songs that contain 
lyrics that you and I may find offensive, but I do have a 
compact with every artist that we sign that I will support 
their art and I will support their right to express themselves. 
Importantly, this commitment extends to the public as well. 
Whether it is parents, fans or critics, if artists choose to 
use explicitly highly charged words, we will sticker the song 
with a parental advisory label. We are committed to insuring 
that music buyers get a heads up when a song contains words or 
themes that might not be suitable for all audiences.
    The people at our record labels who reviewed the lyrics 
come from different walks of life. Their decisions are not made 
in a vacuum. Context is important. The cultural climate has an 
impact. There are regular conversations with retail outlets, 
radio programmers, and TV executives. And if the labels decide 
to sticker a song, edited versions are typically made available 
for retail as well as radio and television. If a work contains 
a parental advisory sticker our record companies follow the 
RIAA guidelines that limit when and how we market our music. In 
other words, we do not market explicit lyrics anywhere near 
young people.
    We believe we mostly get it right through the sticker 
process and by making available edited editions, sanitized 
versions that address the feedback that we get from consumers 
and our distribution partners. I opened my remarks today by 
talking about the national discussion taking place about the 
impact of music in our culture and our responsibilities to the 
company. I think it is really a healthy one for all concerned. 
As we debate this issue, I am mindful of an important 
principle.
    Mr. Rush. Mr. Morris, you have exceeded your time. Please 
conclude your comments. We do have to go vote so we have got 
just a couple more--as a matter of fact, the time is up for us 
to go vote. We got to run over there before they bang the 
gavel, so would you please bring your comments to a close, 
please? Please bring your comments to a close.
    Mr. Morris. Certainly. I will just finish. I have one last 
paragraph. We pay a price for the first amendment. The price 
includes allowing highly charged words and images in our music 
even if they sometimes offend and cause pain. But consider the 
alternative. We pay a price but it is insignificant compared to 
the ability to speak our minds. I thank you today for inviting 
us.
    [The prepared statement of Mr. Morris follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Thank you. The subommittee stands in recess until 
the conclusion of the last vote. We have got four votes. We 
will begin again immediately after the conclusion of the fourth 
vote.
    [Recess.]
    Mr. Rush. This subcommittee is called to order again. Let 
me first of all remind the witnesses that your full written 
statement will be entered into the record. If you can summarize 
your statements in a matter of 5 minutes, then that would be 
good. We have not had a problem so far. I think that we have 
been very good as it relates to not going over the 5 minutes, 
and I really respect and acknowledge that.
    I want to call now to testify before the subcommittee Mr. 
Alfred C. Liggins III. He is the president and CEO of Radio 
One. Radio One is a minority-owned radio station and it is the 
seventh-largest radio broadcaster and largely targets African-
Americans with urban-based programming. Welcome, Mr. Liggins, 
and please take 5 minutes for an opening statement.

 STATEMENT OF ALFRED C. LIGGINS III, PRESIDENT AND CEO, RADIO 
                     ONE, INC., LANHAM, MD

    Mr. Liggins. Thank you, Chairman Rush and Ranking Member 
Stearns and members of the subcommittee for allowing me to 
testify here today. For those of you who I have not met, let me 
formally introduce myself. I am Alfred Liggins III, chief 
executive officer of Radio One Incorporated. Radio One 
Incorporated is currently the largest media company in the 
United States that primarily targets African-Americans. Our 
media platform includes radio, print, satellite, Internet and 
our nationally distributed cable channel, TV One. Our Radio One 
network currently consists of 60 radio stations and can be 
found in 19 mostly large cities around the Nation. Three of our 
stations serve the Detroit market with music and talk formats 
including the first nationally syndicated black talk network. 
Five of our stations in Dallas and Houston provide music 
formats including our innovative contemporary inspirational 
format, which can now be heard on 12 FM radio stations across 
the country including Charlotte and Augusta.
    However, those numbers do not really paint the full picture 
of who Radio One is. Radio One takes its responsibility to 
serve its communities very seriously. For this reason, the 
content broadcast on Radio One stations is a product and 
reflection of the audiences we serve. We at Radio One pride 
ourselves on our close-knit relationships with our listening 
audience, and we and view them as members of our extended 
family. This causes us to be responsive to and engaged in the 
many public affairs issues facing the local communities where 
we broadcast.
    Just within the last week, two of our popular radio DJs who 
host shows with a hip hop format, one of whom can be heard in 
Dallas and Augusta and one of whom can he heard in Detroit, 
played an instrumental role in bringing national attention to 
the issues faced by the six black teenagers known as the Jena 
6. We are proud to say that the efforts of many of our local 
radio stations to raise awareness of the Jena 6 case and 
organize bus caravans helped lead thousands of citizens, I 
think 50,000 citizens, to journey to Louisiana and played a 
pivotal role in making the rally for justice in Jena such a 
resounding success. Also last week in response to the senseless 
violence that is currently plaguing Philadelphia and causing 
the city to lead the Nation in homicides, our local station 
there, Praise 103.9, organized a sold-out gospel concert 
featuring Yolanda Adams and Les Brown at Sharon Baptist Church, 
focusing on the theme, black life has value. We broadcast the 
concert live and also had personalities from our hip hop 
station in attendance to show their support for this important 
message.
    I mention these events because they represent Radio One's 
commitment to our audience and are important to truly 
understanding who we are as a company. I applaud the 
subcommittee and Chairman Rush in particular for tackling this 
important topic. Throughout the course of our Nation's history, 
there have been many debates and differing opinions regarding 
musical content, freedom of speech and what constitutes art. 
Some have claimed the Bible is too violent, that Mark Twain is 
too racist, and I am willing to bet 100 years from now we will 
still be debating these important issues.
    When it comes to hip hop music, some may choose to focus on 
particular artists or music that they found objectionable and I 
believe that that sort of debate is healthy and ultimately good 
for our society. However, it should be noted that hip hop music 
is not representative of the bulk of the content that we at 
Radio One provide. Only a small minority, 14 out of 60 total 
radio stations, have an urban contemporary format and they play 
hip hop music which often reflects the realities that many of 
these audiences face and observe in their daily lives.
    Radio One is also not in charge of creating content or in 
the business of censorship or determining what is in good or 
bad taste. However, while other media platforms do not have 
public interest obligations, as the members of this 
subcommittee know and are well aware, we are regulated by the 
Federal Communications Commission. Radio One has always taken 
great care to comply with FCC guidelines and standards in 
regards to content. In fact, it should be pointed out that of 
all the music platforms available to listeners today, only 
broadcast radio is required to take steps to protect our 
listeners.
    It is Radio One's policy that no song can be broadcast over 
the radio until it is listened to and the content is reviewed. 
Also, every Radio One station has a program director who is 
directly responsible for the music that is broadcast on that 
station. Each of our radio stations receive radio edit versions 
of songs which if necessary are further edited consistent with 
FCC regulations and local community standards. Our program 
directors participate in a conference call every other week 
moderated by our senior vice president of programming to 
discuss the content of music playing on our radio stations.
    Part of the success of Radio One is based on the fact that 
we as a company respond to the variety and diversity of musical 
tastes of our audiences. If Radio One did not play hip hop 
music, we would not be serving our audience. Radio in many ways 
is a reflection of its community and what its listeners want to 
hear. We pride ourselves on being local broadcasters with the 
emphasis on ``local.'' It is broadcasters that offer the 
localism that communities need and deserve. While hip hop music 
is many different things to many different people, it is 
important to remember this revolutionary art form has created a 
multitude of opportunities and economic benefits for those who 
may not otherwise have had such an opportunity. For example, 
Snoop Dogg's success has allowed him to create a football 
league intended to attract inner city youth to football and not 
gangs, and David Banner has successfully used his star power to 
raise funds and increase visibility for the victims of 
Hurricane Katrina, which we participated in. We at Radio One 
are proud of our track record and are committed to serving the 
needs of our diverse audience and being responsible 
broadcasters.
    Again, I thank you for allowing me to testify before the 
subcommittee today and I look forward to answering any 
questions that you might have.
    [The prepared statement of Mr. Liggins follows:]

                   Testimony of Alfred C. Liggins III

    Thank you Chairman Rush, Ranking Member Stearns, and 
members of the subcommittee for allowing me to testify here 
today.
    For those of you I have not met, let me formally introduce 
myself. I am Alfred Liggins, chief executive officer of Radio 
One, Inc. Radio One is currently the largest media company in 
the United States that primarily serves African-Americans. Our 
media platform includes radio, print, satellite, Internet and 
our nationally distributed cable channel, TV One.
    Our Radio One network currently consists of 60 radio 
stations and can be found in 19 cities around the nation. Taken 
together we reach over 12 million listeners across the country. 
Three of our stations serve the Detroit market with music and 
talk formats, including the first nationally syndicated Black 
Talk Network. Five of our stations in Dallas and Houston 
provide music formats, including our innovative Contemporary 
Inspirational format which can now be heard on 12 FM stations 
across the country. The Contemporary Inspirational format can 
also be heard in Charlotte, where we have two stations, and 
Augusta, where we have five stations.
    However, those numbers do not really paint the full picture 
of who Radio One is. Radio One takes its responsibility to 
serve its communities very seriously. For this reason, the 
content broadcast on Radio One stations is a product and 
reflection of the audiences we serve. We at Radio One pride 
ourselves on our close knit relationships with our listening 
audience and view them as members of our extended family. This 
causes us to be responsive to and engaged in the many public 
affairs issues facing the local communities where we broadcast.
    How we serve our audiences can be summarized with two 
recent examples. Just within the last week two of our popular 
radio DJs who host shows with a hip hop format, one of whom can 
be heard in Dallas and Augusta and one of whom can be heard in 
Detroit, played an instrumental role in bringing national 
attention to the issues faced by six black teenagers known as 
the Jena 6. We are proud to say that the efforts of many of our 
local radio stations to raise awareness of the Jena 6 case and 
organize bus caravans helped lead thousands of citizens to 
journey to Louisiana, including the two DJs referred to above, 
and played a pivotal role in making the rally for justice in 
Jena such a resounding success.
    Also, last week, in response to the senseless violence that 
is currently plaguing Philadelphia, and causing the city to 
lead the Nation in homicides, our local station Praise 103.9 
organized a sold out gospel concert featuring Yolanda Adams and 
Les Brown at Sharon Baptist Church focusing on the theme of 
Black Life Has Value. We broadcast the concert live on 103.9 
and also had personalities from our hip hop station in 
attendance to show their support for this important message.
    I mention these events because they represent Radio One's 
commitment to our audience and are important to truly 
understanding who we are as a company. It is important to note 
that music is only one element of how we serve and entertain 
our listeners.
    I applaud the Subcommittee, and Chairman Rush in 
particular, for tackling this important topic. Throughout the 
course of our Nation's history there have been many debates and 
differing opinions regarding musical content, freedom of speech 
and what constitutes art. Some have claimed the Bible is too 
violent, that Mark Twain is too racist--and I am willing to bet 
100 years from now we will still be debating these important 
issues.
    When it comes to hip hop, some may choose to focus on 
particular artists or music that they find objectionable and I 
believe that sort of debate is healthy and ultimately good for 
our society. However, it should be noted that hip hop music is 
not representative of the bulk of the content that we at Radio 
One provide. For instance, the vast majority of our stations do 
not play hip hop at all. Only a small minority, 14 out of 60 
total stations, have an urban contemporary format and they play 
hip hop music which often reflects the realities that many in 
the audiences face and observe in their daily lives
    Radio One is also not in charge of creating content, or in 
the business of censorship or determining what is in good or 
bad taste. However, while other media platforms do not have 
public interest obligations, as the members of this 
Subcommittee are well aware, we are regulated by the Federal 
Communications Commission, or the FCC. Radio One has always 
taken great care to comply with FCC guidelines and standards in 
regards to content. In fact, it should be pointed out, that of 
all the music platforms available to listeners today only 
broadcast radio is required to take steps to protect our 
listeners.
    Furthermore, it is Radio One's policy that no song can be 
broadcast over the radio until it is listened to and the 
content reviewed. Every Radio One station has a program 
director who is directly responsible for the music that is 
broadcast on that station. Each of our radio stations receive 
radio edit versions of songs, which, if necessary, are further 
edited consistent with FCC regulations and local community 
standards. Our program directors participate in a conference 
call every other week moderated by our senior vice president of 
programming to discuss the content of music playing on our 
stations.
    That being said, part of the success of Radio One is based 
on the fact that we as a company respond to the variety and 
diversity of musical tastes of our audiences. If Radio One did 
not play hip hop music we would not be serving our audience. 
Radio in many ways is a reflection of its community and what 
its listeners want to hear. We pride ourselves on being local 
broadcasters, with the emphasis on ``local.'' It is 
broadcasters that offer the localism that communities need and 
deserve. Furthermore, while hip hop music is many different 
things to many different people, it is important to remember 
this revolutionary art form has created a multitude of 
opportunities and economic benefits for those who may not 
otherwise have had such an opportunity. Snoop Dogg's success 
has allowed him to create a football league intended to attract 
inner city youth to football, not gangs. And David Banner has 
successfully used his star power to raise funds and increase 
visibility for the victims of Hurricane Katrina.
    We at Radio One are proud of our track record and are 
committed to serving the needs of our diverse audience and 
being responsible broadcasters. Again, thank you for allowing 
me to testify before this subcommittee today and I look forward 
to answering any questions you may have.
                              ----------                              

    Mr. Rush. Thank you very much.
    Our next and final opening statement will come from Mr. 
Strauss Zelnick, who is the chairman of the board of Take-Two 
Interactive Software Incorporated. Take-Two owns Rockstar 
Games, which makes the popular and controversial Grand Theft 
Auto video game series, and I might add, other kinds of 
products also.
    Mr. Zelnick, welcome and please take 5 minutes for an 
opening statement.

 STATEMENT OF STRAUSS ZELNICK, CHAIRMAN OF THE BOARD, TAKE TWO 
               INTERACTIVE SOFTWARE, NEW YORK, NY

    Mr. Zelnick. Thank you, Mr. Chairman, Ranking Member 
Stearns. I have submitted my testimony to the record so if I 
may, I am going to speak somewhat less formally to the 
committee.
    Chairman Rush, in the beginning you talked about forming a 
coalition of concern, compassion and commitment, and I think 
from everyone's comments today, I think it suggested we see the 
world very much as you do. In fact, there is not a lot of 
diversity of comments here. I am the chairman, as you said, of 
Take-Two Interactive, one of the world's largest independent 
publishers of interactive entertainment. Before that, I was the 
chief executive of a big record company, BMG. Before that I was 
the president of a big movie studio, 20th Century Fox, and I 
started my career in television at Columbia Pictures. As 
Representive Stearns said, our job is to make hits. That is 
what I have had to do my whole career, and we make hits by 
paying attention to what our consumers want and delivering them 
a product that most people like. So in my career, my companies 
have not only put out products like Grand Theft Auto but my 
companies have released movies like ``Home Alone'' and been 
responsible for artists like Whitney Houston.
    This is a committee that is partially focused on commerce. 
This is a big business. While the music business has faced some 
declines of late and the movie business has basically been 
flat, interactive entertainment has been growing rapidly. Today 
it is an $18.5 billion industry. It is bigger than the box 
office in America and around the world and we employ about 
250,000 people. My own company, which some people probably have 
never even heard of, does over $1 billion a year in sales and 
we employ over 2,000 people around the world.
    I take this topic really seriously. Like many others here, 
I have children; I have three kids. My oldest took the subway 
to school this morning in Brooklyn. I am really concerned about 
my kids' safety, their opportunities, violence that they see 
around them and that might affect them, and a culture of 
civility which seems pretty stressed right now. So I agree that 
this shouldn't be a discussion about finger pointing. In fact, 
the evidence and common sense suggests that entertainment 
doesn't create values and certainly doesn't create behavior. As 
the interactive entertainment business has grown in the last 17 
years, in fact per capita violence in America, as stunning as 
it still is, is actually down 50 percent in those 17 years.
    What is also pretty remarkable is all the entertainment we 
produce is worldwide. It is a worldwide phenomenon but many of 
the issues that we are discussing today are uniquely American 
problems. So why are we so special? Well, the first is, sadly, 
there is ready access to guns in America. Thirty-five percent 
of American households have firearms. Despite our enormous 
wealth in this country, there is inadequate educational 
opportunity. There is domestic abuse, there are drugs, there is 
gang activity and the list goes on. I am also pleased that 
today's discussion isn't about the first amendment. Everyone 
here agrees that the first amendment must be protected. It 
seems to me that everyone here is proud that we live in a 
country that guarantees freedom of speech, even speech we don't 
like.
    So I think the discussion should be about what are we doing 
as an industry to address social concerns and what are we doing 
when we bring our entertainment products out. Well, what are we 
doing in the interactive entertainment business? The first 
thing is, the average age of our players is 33 and it is 
rising. The average age of our purchasers is 39. Ninety-two 
percent of the industry's releases are for family and teens. 
Only 8 percent are for adults. The FTC, directed by this 
committee, reviewed our industry's rating system and said it is 
the most rigorous in the business. Eighty-seven percent of 
parents are satisfied with our system and all of our hardware 
has parental controls which are easy to use and encourage 
parents to make choices for their kids, and retailers comply 
with our system at least as effectively as cinema owners comply 
with motion picture ratings.
    So it seems to me the discussion should be about our 
responsibility, and I take that very seriously. We have three 
jobs to do at my companies. We have to make great entertainment 
because frankly, if we are not making hit entertainment that 
everyone wants to consume, we are not relevant and I wouldn't 
be sitting here today. We also make art. The reason I am in 
this business is not just entertainment and certainly not just 
to make money. I believe what we do is art and that is our 
standard at all of our companies. If we don't believe it is 
art, we will not put it out. But art is in the eyes of the 
beholder and some art that some people consider beautiful, 
other people don't even consider pretty or even tasteful or 
acceptable. And finally, we are in the business of business and 
that is just a truth. We are in commerce and that is why we are 
all sitting here and that is also why we are relevant.
    I think there is an enormous line between entertainment and 
exploitation. We try to stand on the line of entertainment. 
Sometimes we make mistakes. It is our job to be vigilant about 
those and to correct them. And then when we make a product, we 
need to let parents and consumers know what it is before they 
get it home so they are not surprised and they don't consume 
something that they don't want to consume. Having done that, 
having tried to meet those standards, having reviewed our 
products, having played our games, when we put them in the box, 
I stand behind them fully and I take complete responsibility 
for what we put out.
    I welcome our dialog today. Thank you for having me.
    [The prepared statement of Mr. Zelnick follows:]

                      Statement of Strauss Zelnick

    Chairman Rush, Ranking Member Stearns, and members of this 
subcommittee: I welcome the opportunity to testify today. I do 
so as the father of three children, as a concerned citizen, and 
as the recently-named chairman of an industry-leading company 
that produces a broad spectrum of interactive entertainment.
    Today, I hope to provide some perspective on a vital 
question: does entertainment influence violent behavior in our 
society--or does it instead reflect a social environment that 
has become unacceptably violent? This question is complex--and 
the answers are elusive.
    We in the entertainment industry must also ask ourselves: 
how should we balance our right to free expression with our 
responsibility to avoid exposing children to inappropriate 
words and images?
    Before considering those questions, let me address two 
common misperceptions about our industry.
    First, interactive entertainment is not predominantly 
consumed by young people. In fact, the average age of our 
players is 33.
    Second, there is no evidence--none--of a direct link 
between interactive entertainment and violent behavior.
    We certainly can agree that the level of violence in 
America today is unacceptably high. In 1990, the U.S. homicide 
rate was approximately 10 in 100,000. According to the Bureau 
of Justice Statistics, the rate dropped to 5.6 per 100,000 in 
2006--an improvement, to be sure, but far from ideal.
    This period of declining violence coincides with the 
emergence and dramatic growth of a new form of art and 
entertainment: the video game--clearly demonstrating a lack of 
correlation between the consumption of our products and the 
trend in violent behavior.
    Then what is at the root of the unacceptably high level of 
violent behavior in America today? Before we address this 
question, we must, at a minumum, acknowledge that entertainment 
produced in the U.S. is equally popular and available 
worldwide--yet the per capita rate of violent crime in our 
country is vastly greater than in any other developed nation.
    What distinguishes us from our neighbors?
    Nearly 35 percent of U.S. households have firearms, and our 
regulations regarding the licensing, registration and 
authorization of guns are among the most permissive in the 
world.
    Other social forces must also be considered. A 1999 article 
entitled ``The Epidemic of Violence in America,'' in the 
journal postgraduate medicine, cited several risk factors, such 
as: domestic abuse, weakening community values, an inadequate 
educational system, and gang activity.
    Entertainment was not exempted from this list. While the 
article did not mention music or interactive software, its 
author noted: ``The average american child sees more than 
200,000 violent acts on television before age 15.''
    It is perhaps understandable that many citizens, frustrated 
by intractable problems such as the widespread availability of 
guns, domestic abuse, failing schools, fractured communities 
and gang activity, would be tempted to fixate on a target that 
seems somewhat more manageable: entertainment.
    However, restricting ideas on the printed page, on the 
movie screen, on the evening news, in audio recordings, or in 
interactive entertainment will not eradicate violence in our 
society--any more than covering up a mirror will eliminate the 
reality it reflects.
    The fact is, all forms of entertainment may contain words 
or images that could be considered violent, and to some extent 
they always have. That is because artists have--and indeed must 
have--the freedom to explore all aspects of society--the good, 
the bad and the controversial.
    Some further believe that exposure to depictions of 
violence can play an important role in the development of an 
individual's moral and social outlook. As Judge Richard Posner 
of the U.S. Court of Appeals for the Seventh Circuit wrote in 
2001, ``Violence has always been and remains a central interest 
of humankind and a recurrent theme of culture as anyone 
familiar with classic fairy tales is aware.''
    I think the issues involving entertainment and violence 
might be clearer if we review the story line of one of our 
products--grand theft auto: san andreas. It is often the case--
sadly--that an artwork's most vocal critics are those who have 
not seen it. Playing san andreas, one finds that this cinematic 
interactive work is more complex than most novels or movies--
and that there are serious consequences for violent acts.
    Just as the Sopranos on television, or Goodfellas in film, 
depict violent behavior as part of a dramatic narrative 
involving crime and redemption, so does Grand Theft Auto: San 
Andreas.
    And, unlike tv, movies, or books, grand theft auto includes 
instant feedback that demonstrates the dire results of anti-
social acts: the player immediately increases his ``wanted 
level,'' which can make the game not just hard, but actually 
impossible to play. At the highest level, the national guard is 
mobilized against the player and there is no escape from the 
long arm of the law. There are also explicit rejections of drug 
use and racism--and a strong moral center in the African 
American hero.
    That said, the entertainment industry must operate in a 
responsible manner. We are in the business of making art and 
entertainment, and engaging consumers. To achieve these goals, 
we aim to attract uniquely talented individuals and encourage 
them to express freely their passion and creativity.
    We must weigh our creative impulses and commercial goals 
with the ballast of social responsibility. While we do not 
create--and cannot prevent--violence, our companies must work 
to ensure that society's youngest, most vulnerable and most 
impressionable members are not exposed to inappropriate subject 
matter in our products.
    I am proud of the measures that my company and our industry 
have taken to ensure that our products are enjoyed responsibly 
by appropriate audiences.

    <bullet> First, our industry produces a broad range of 
products, so that consumers of all ages have access to 
compelling, engaging and age-appropriate entertainment. I know 
that adult-themed entertainment draws a disproportionate level 
of media attention. However, titles rated ``M for Mature'' made 
up only 15 percent of total sales last year, as compared to 85 
percent for those with youth-oriented ratings.
    <bullet> My own company publishes a wide range of products, 
including ``E'' rated titles such as carnival games, rockstar 
games presents table tennis, dora the explorer and sports 
titles--just as major movie studios offer family fare as well 
as ``R'' rated films.
    <bullet> Second, the interactive entertainment industry 
operates within a voluntary rating system that is rigorous and 
independent. An April 2007 report by the Federal trade 
commission found that a high proportion of parents use--and are 
very satisfied with--that system. The report also found that 
retailers enforced the ratings as effectively as the movie 
industry. Our product packages also include content descriptors 
to inform consumers--and especially parents--as to the specific 
subject matter of the products.
    <bullet> Third, we market our products in a thoughtful and 
responsible manner. We design our advertising, marketing plans 
and media buys to reach audiences of the appropriate age group, 
in accordance with the ESRB's rules.
    <bullet> Fourth, today's interactive entertainment hardware 
offers robust control options that enable parents to limit a 
child's access to mature content. The controls also work for R-
rated movies, which means that these consoles provide parents 
with tools that are not typically available on commercial DVD, 
cd or mp3 players.
    <bullet> Fifth, the ESRB produces educational 
advertisements regarding the ratings system, and has entered 
into partnerships with state attorneys general and the national 
parent teacher association to educate and inform parents. 
Individual companies also are doing their part: Take-Two runs 
banner ads for the ESRB on our homepage.

    In my view, entertainment companies make a decision with 
every release, and that decision must be well-considered, 
thoughtful and sound. At Take-Two, every product is reviewed by 
members of top management--myself included. We will not release 
a title that does not meet our standards: as art, as 
entertainment, and as a socially responsible product. Once we 
do release a product, I stand behind it fully and completely.
    We aim to distinguish creative and compelling story telling 
that advances artistic expression from subject matter that 
gratuitously exploits or glorifies violence. And all of our 
products need to be rated and marketed appropriately.
    We all must continue to be thoughtful and responsible 
citizens, parents and executives. My children walked to school 
in our Nation's largest city this morning. They are listening 
to me right now. So I share your fundamental concern about 
violence in america. I share your concern that we do everything 
we can to protect our youth. And along with those concerns, i 
also have confidence in my conviction: that the interactive 
entertainment industry will remain vigilant in its efforts to 
balance art and entertainment with sound judgment, and our 
cherished and unfettered freedom of expression with social 
awareness, sensitivity and responsibility. Thank you very much.
                              ----------                              

    Mr. Rush. I want to thank all of our witnesses. The Chair 
recognizes himself for 5 minutes of questioning.
    I am going to begin my questioning and I am going to 
address it to each and every one of you. A prominent hip hop 
executive and artist, Mr. Russell Simmons, and others have 
suggested that the recording industry and artists ban or 
refrain from the use of hateful words or hateful speech, the 
``N'' word, the ``B'' word, the ``W'' word, other words that 
are hateful as they depict racial and religious and sexual 
orientation. Do you believe that this is a viable, quote, 
unquote, business model? Can your industries and your 
corporations profit from such a ban or indeed such a pledge? I 
will start with Mr. Dauman.
    Mr. Dauman. Mr. Chairman, in our standards and practice 
which we have had in place for some time, we do in fact ban 
those words, and when we have music videos submitted to us as 
we consider them for airing, if they contain those words we 
will not air them. We will air them if they get edited and we 
choose them for creative reasons but it is part of our 
standards and practices applicable across our networks to ban 
those words and others that are derogatory terms from a racial 
point of view, gender, sexual orientation and many other 
reasons.
    Mr. Rush. Mr. Bronfman.
    Mr. Bronfman. Well, distinct from Mr. Dauman's role as the 
distributor of content, we at Warner Music are creators of 
content, and we don't think that banning expression is an 
appropriate approach. We do of course sticker any content that 
would include the words that you described, the ``N'' word, the 
``B'' word, the ``H'' word. No content goes out of Warner Music 
with those words contained that doesn't explicitly warn parents 
that there is explicit content, and we make edited versions for 
distribution partners like Mr. Liggins and Mr. Dauman who 
standards and practices would not carry those words or explicit 
versions of the content that we create. But hateful language, 
sir, is in the eye of the beholder. It also is important that 
it is contextualized, and it is important that our artists have 
the opportunity to express the frustration that they have with 
the problems in their communities with which they live, and if 
you ask me were I fortunate enough to be in a position many 
years ago whether I would have distributed or stood behind the 
material of Lenny Bruce, I would have said yes. I think he is a 
legitimate artist who did use hateful words in a different 
context to express his opinion and that is why I said, I think 
this is a very contextual argument, but as I said, at the end 
of the day as much as we understand people's concerns and 
frustrations with the use of this language, it is very 
difficult as a producer of content to censor or limit artists 
and so what we choose to do is to sticker that product so that 
parents and other guardians can make informed decisions about 
the content that we create.
    Mr. Rush. Mr. Morris?
    Mr. Morris. I agree with Mr. Bronfman. I think they are 
horrible, evil words. I would never ban any word. If I can 
digress one little bit, Mr. Chairman, what I think bothers 
everyone on this committee is the feeling that standards within 
the companies have deteriorated, and that is what the benefit 
of this meeting for me really is, that we will take these 
discussions back to our company and we will ask them, do you 
feel the standards are very different, that they are lower than 
they were 10 years ago or 20 years ago, and if so, can we 
improve them. I don't think you can improve anything to ban 
three words from any kind of musical or theatrical production. 
It just makes ``The B * * * * is Back'' by Elton John--you are 
not going to ban that song so it is--but I do think we will 
take this back with us and deal with it in the proper manner.
    Mr. Rush. Mr. Liggins, I have about 5 seconds. Can you 
just----
    Mr. Liggins. I guess if somebody like Russell Simmons was 
able to convince artists not to use those words, there would 
still be a coalition or a faction of renegades that, through 
technology, are increasingly able to even bypass the record 
companies and get straight to the consumers through digital 
technology. So I think even if you have an effort by everybody 
up here and Radio and Viacom, you are still going to have a 
leak in terms of exposure to the consumer.
    Mr. Rush. Mr. Zelnick?
    Mr. Zelnick. I suppose I have less than 5 seconds. Mr. 
Chairman, I don't think a ban is a good plan. As Mr. Bronfman 
said, it depends on the context. If we are portraying good guys 
and bad guys, maybe the only way you can portray a bad guy is 
to put terrible language in that person's mouth. But I am very 
much opposed to glorifying those kinds of stereotypes and 
images. And interestingly, this is a conversation we have at 
our companies all the time. We had a conversation about one of 
those words you mentioned quite specifically, utterly without 
regard to this hearing, a couple of weeks ago. Degrading words 
and images shouldn't be glorified, they shouldn't be put in the 
mouths of characters that people are going to admire. But it is 
possible that a work of art can't possibly be seen as realistic 
if we eliminate every allusion to what is actually going on in 
the streets. So it is a complicated discussion but no, I 
wouldn't suggest we ban the words.
    Mr. Rush. The Chair recognizes the ranking member, Mr. 
Stearns, for 5 minutes.
    Mr. Stearns. Thank you, Mr. Chairman. Mr. Morris, did I 
hear you just say that you would not ban any word? I thought 
you just said that. Mr. Morris?
    Mr. Morris. I am trying to think if there is any word that 
I would ban.
    Mr. Stearns. What I understand you to say is you would not 
ban any word, which means in this case Universal Music Group 
under your leadership would not ban any word in any of the 
publications. Is what you implied? That is what your statement 
was.
    Mr. Morris. Well, it depends on the context it would be 
used in, Congressman.
    Mr. Stearns. Well, I am going to hand out to you some 
lyrics. It took me 30 seconds to pull up some lyrics for 50 
Cent, and you can read just the first two paragraphs of that. 
It has, as the chairman mentioned, it has the ``F'' word, the 
``S'' word, the ``N'' word. We are also giving you lyrics we 
picked up in 15 seconds, Cameron lyrics, which talk about 
explicit sex, and my question to you, in your mind, is this 
free speech to use these words and to talk about explicit sex 
in the song the way it is? You are welcome to read a few of 
those lyrics.
    Mr. Morris. Yes, in my mind, this is free speech and this 
is what he wanted to say. It is not my place in this life to 
tell him what to say.
    Mr. Stearns. And you feel that when a person uses those 
words which almost everybody in this room would be appalled----
    Mr. Towns. Will the gentleman yield?
    Mr. Stearns. No, I will not yield.
    Mr. Towns. I wanted to get a copy of what you are talking 
about.
    Mr. Stearns. Oh, sure, I will be glad to give you a copy. I 
think everybody in the room would be appalled to hear those 
words in a public forum yet you are saying here today that you 
would support and not ban any of that word in any of your 
publications at Universal Music is what you are saying.
    Mr. Morris. That is correct, Congressman. I believe he has 
the right to say whatever he wants. That is my point of view.
     By the way, in my testimony as I said before, all of this 
is reviewed by different committees within the company.
    Mr. Stearns. Yes. Mr. Bronfman, you said in your opening 
statement that you don't believe in any absolutes. Is that 
correct? You used those words, ``I don't believe in any 
absolutes,'' and you go on to talk about this contextual 
argument and everything has to be framed and you talked about 
the Beatles and Elvis Presley, and I think Mr. Liggins talked 
about Mark Twain, but in your opinion, there is really no 
absolutes at all in your business that you can have the total 
freedom for an artist to say or do anything they want with no 
absolutes in terms of our culture?
    Mr. Bronfman. Well, I think that it is difficult to draw an 
absolute. We do review work. We are in constant dialog with our 
artists, and as I said, this material that you are referring to 
here specifically, Congressman, does get stickered. It is not 
generally available.
    Mr. Stearns. But can't you go on satellite radio and hear 
this and it is not stickered, it is not deleted, and all these 
words on satellite radio you can hear? Isn't that true?
    Mr. Bronfman. Satellite radio is regulated by someone other 
than----
    Mr. Stearns. I understand, but Warner Music publishes this. 
In fact, the Cameron lyrics is published by Warner Music in 
which it talks all about explicit sex, and so you said that 
this is OK, we will publish it, but if it comes to the radio, 
we will dub it out, but when it gets on satellite radio it is 
the full information, isn't it?
    Mr. Bronfman. There may be explicit channels on satellite 
radio. You can listen to their comedy channels, you can listen 
to any number of things where language like this is found, Mr. 
Chairman, and I think what is important also to remember is 
that while the language that you might find offensive here and 
in fact many people including myself might find offensive in 
content that is produced by any number of entertainment 
companies, that is not true for everyone, and the relevance of 
this content in some communities is very different than----
    Mr. Stearns. Oh, I know. You can go across the spectrum and 
find people that have different tastes, and I understand that, 
but you as a publishing executive, you are saying that you are 
going to not censor anything if it has the ``N'' word in it or 
the ``F'' word or the ``S'' word or explicit sex. In your 
opinion today, that is OK and it is a freedom of expression.
    Mr. Bronfman. That is not what I said nor is it what I have 
testified to, Congressman. What I said is to the question would 
I put a ban on all work containing those words, I said no, and 
I wouldn't.
    Mr. Stearns. Do you support the Cameron lyrics as free 
speech?
    Mr. Bronfman. I do.
    Mr. Stearns. OK. So then you condone the words that are in 
here as free speech?
    Mr. Bronfman. I recognize my responsibility----
    Mr. Stearns. Even though the cultural abhorrence of what--
--
    Mr. Bronfman. Congressman, I recognize that my role as a 
citizen and my role as a corporate executive are two different 
things.
    Mr. Stearns. OK. Here is a question for you, Mr. Bronfman 
and Mr. Morris. Have you ever consulted with one of our artists 
about lyrics that they should or should not put in their work?
    Mr. Bronfman. The answer to that is yes.
    Mr. Stearns. Yes? Mr. Morris?
    Mr. Morris. Yes.
    Mr. Stearns. Mr. Chairman, before my time is off, it is 
possible that I could go across the aisle to answer that same 
question whether they consult with their artists about the 
lyrics that should or should not be put in the work? Mr. 
Dauman?
    Mr. Dauman. I do not. I trust programming decisions to the 
people who run our networks. As I mentioned in my prepared 
remarks, Debra Lee oversees BET networks and people below her, 
Judy McGrath as well as people who run their networks, and I 
believe they do their job very responsibly.
    Mr. Stearns. So you have no interface then with the 
artists?
    Mr. Dauman. I personally do not.
    Mr. Stearns. And Mr. Liggins?
    Mr. Liggins. I don't either. All of our programming is----
    Mr. Stearns. Mr. Zelnick?
    Mr. Zelnick. Yes, the buck stops on my desk. I certainly 
do. I do it all the time. Sometimes I annoy people when I do 
it.
    Mr. Stearns. So you will actually call the artist up 
himself and----
    Mr. Rush. The gentleman's time is up.
    Mr. Butterfield is recognized for 5 minutes.
    Mr. Butterfield. Thank you very much, Mr. Chairman. This 5 
minutes has a tendency of going so fast and so I am going to 
try to read my question in the interest of time. Let me start 
with Mr. Dauman. Thank you very much for coming forward today. 
You have a great company. I know a lot about your company and 
thank you so very much.
    Mr. Dauman. Thank you.
    Mr. Butterfield. Viacom subsidiaries, according to our 
research, reaches over 500 million households worldwide and 
Viacom owns the top music entertainment stations currently 
broadcasting in this country. Do you think that your company 
goes far enough with its standards and practices to ensure 
content is being properly reviewed for offensive content before 
it is broadcast to these households or could those standards 
and practices be more rigorous so as not to be derogatory to 
women or other individuals?
    Mr. Dauman. We continually review our standards. We evolve 
with the culture. We both reflect the culture and try to inform 
the culture and we are very proud of that. Because we appeal to 
young people, you mentioned our 500 million-plus viewers around 
the world, we have a responsibility not only to the U.S. but 
around the world as we reach young people. We are very proud of 
many of the issues we have. I mean, for example, we talked 
about gaming, our MTV youth site. We put out a free game on the 
Internet called ``Darfur is Dying'' which was downloaded 3 
million times. So we feel we have an important role and a very 
pro-social role in impacting youth today and we impact youth by 
entertaining them, and then once we entertain them, we reach 
out to them. You can always do better. Domestically in our 
networks, just to give you an idea, these are 24-hour-a-day 
networks. We run over 100,000 hours of programming a year on 
just our major domestic networks, hundreds of thousands of 
hours across the globe, across all out networks.
    Mr. Butterfield. But are you satisfied with----
    Mr. Dauman. Some things slip by occasionally and we review 
what occurs but if you look at the totality of what we do, we 
are extremely proud.
    Mr. Butterfield. But you are satisfied with your standards 
as they are currently written?
    Mr. Dauman. We believe we have appropriate standards. As I 
said, we review them all the time and we have diverse group of 
employees reflecting their constituencies and they think about 
issues that get brought up. We meet with our critics and we 
meet with consumers, and I am satisfied we have a good process.
    Mr. Butterfield. Let me spend a couple of minutes with you, 
Mr. Bronfman. Thank you very much also for coming, and I want 
to equally salute your company for the work that you do as 
well. Sir, you speak about Warner Music's practices regarding 
content and you say that your aim is not to create or censor 
art but to ensure that your artists are aware of the impact of 
their creation. But what do you do, sir, in an instance where a 
young individual doesn't care about the impact of their music 
or the effect that it is going to have on a certain portion of 
our society when their only interest is making money and not in 
the social consequences of their music? Can you help me with 
this?
    Mr. Bronfman. Well, sir, it is very difficult to answer a 
hypothetical question. As I mentioned in my testimony, we 
review content and we review that content with an eye towards 
the personal history of the artist, the artist's history as a 
recording artist and the context in which the piece of work is 
being created and we take that responsibility seriously. It is 
very difficult to answer, as I said, a hypothetical question 
and very difficult to determine sitting at a time that a record 
is produced what its impact on society will be.
    Mr. Butterfield. Do you concede that there are artists that 
you deal with who don't care about societal consequences?
    Mr. Bronfman. I think the majority of artists that we work 
with are good American citizens who are primarily concerned 
with their art. That is what they do. And I am not sure that is 
different in any work or any genre.
    Mr. Butterfield. All right. Mr. Morris, let me conclude 
with your, sir. While the parental advisory label on music sold 
in stores gives the consumer, be it a young person or a parent 
a heads-up on the music, what more can be done to make sure 
that impressionable young minds are truly educated about the 
potential impact that music can have on their lives?
    Mr. Morris. Well, this is a discussion we have endlessly at 
our company, and----
    Mr. Butterfield. Please push the button, or pull it closer 
to you. Thank you.
    Mr. Morris. Would you repeat your question, Mr. 
Congressman?
    Mr. Butterfield. Yes. Let me phrase it this way. The 
parental advisory label that is on your music that is sold in 
the stores gives the consumer a heads-up, if you will, about 
what type of music they are to expect, and my question is, what 
more can be done to make sure that this young person is 
educated about the consequences of the music?
    Mr. Morris. We are in continual discussions about how to 
improve getting that word out to the parents. As I said, all of 
our explicit music is stickered with an RIAA certified sticker, 
and it shines out like a neon bulb. Then it is up to the 
parents to understand what it is in that. There is parental 
responsibility in all of this.
    Mr. Butterfield. Yes, we all need to work together to 
better educate our families about the consequence of the music.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rush. The gentlelady from Tennessee, Mrs. Blackburn, is 
recognized for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you to 
our witnesses for bearing with us while we run to the floor and 
vote and we thank you that you are hanging with us on this 
hearing because it is important, and the more I listen to you, 
the more I think that what we are talking about nibbling around 
the edges of the symptoms. We are not getting at the root 
causes, and Mr. Rush and I visited for a few moments while we 
were off at votes about, we may want to come back to you with 
some more questions once we have heard from the next panel, and 
I agree with my colleague from New York that what we may have 
wanted was to have that panel first and then come to you. And 
Mr. Chairman, if it is agreeable with you, I would like the 
opportunity for us to come back to them with written questions.
    Mr. Rush. Without objection, we will make sure that we have 
30 days to submit written questions to the witnesses and we 
will ask them to properly respond to the written questions.
    Mrs. Blackburn. Thank you, Mr. Chairman. We appreciate 
that.
    We keep coming back to the things that I mentioned in my 
opening statement, that choices have consequences and that your 
standards are based on your core values from which your 
companies operate, and what I would like to know from each of 
you is how you facilitate that. Mr. Bronfman is dealing with 
creators of the content. Mr. Dauman and Mr. Morris are deciding 
what they are going to censor and put together. Mr. Liggins 
makes choices about what he puts on the air, Mr. Zelnick, what 
he is going to drop into a game, and I assume that most of you 
are either parents or grandparents, and you don't make these 
choices in a vacuum, that you have kind of an internal little 
thermometer more or less as you look at different things and 
that is for you personally but I would like to hear from you 
how you vet this within your company. Do you have a committee, 
do you pull together your division heads? Is it just a hey, we 
think this is going to make money or is there this thoughtful 
process that goes into your choices, and I would like to hear 
from you on that simply because I do think that we are talking 
about symptoms and causes when we look at the content. But the 
other component of this is, you have that pressure of the 
Internet and many times I think some of you probably get blamed 
for releasing an uncut version of something that gets put onto 
YouTube or loaded into the Internet and then it is there for 
all the world to see. So I want to hear from you each on 
standards and kind of your best practices and also I would like 
to know, and you may need to submit to me in writing and if you 
want to punt this one and get back to me with a percentage, how 
much of your annual operating budget, annual operating budget 
are you spending on education and charitable work and doing 
some goodwill in the community to help fight the root causes 
that may lead some of these content creators to write and 
create some of this content that they are bringing forward. So 
we have got a minute and 10 seconds left. Mr. Dauman, I will 
start with you.
    Mr. Dauman. Let me start with your last point because we do 
an awful lot. I mentioned some of the initiatives that we have 
across out networks. Let me just talk about this week.
    Mrs. Blackburn. Very quickly.
    Mr. Dauman. We put $2 million of airtime as well as $1 
million in cash to raise money for the Martin Luther King 
Memorial. This Saturday on Nickelodeon, we are going off air on 
a ``Let's Just Play'' campaign where we are the only network 
who goes blank to encourage kids to go play. We have any number 
of initiatives across the globe----
    Mrs. Blackburn. I am going to cut in and hand it to Mr. 
Bronfman.
    Mr. Bronfman. Congresswoman, I will get back to you on the 
exact dollars that we spend but we have a number of initiatives 
across the company that the company spends money on and then 
further that our executives also invest in.
    Mrs. Blackburn. And best practices or vettings?
    Mr. Bronfman. Yes, and then the process that we follow at 
the company is our labels in accordance with the RIAA 
guidelines determine what is potentially going to be stickered.
    Mrs. Blackburn. Let us restate that. RIAA guidelines?
    Mr. Bronfman. RIAA guidelines.
    Mrs. Blackburn. Thank you for clarity.
    Mr. Bronfman. That material, those lyrics----
    Ms. Blackburn. I am going to punt to Mr. Morris, please.
    Mr. Morris. Our system is very similar to Mr. Bronfman's.
    Mrs. Blackburn. OK. Thank you.
    Mr. Liggins?
    Mr. Liggins. We are regulated by the FCC so we are the only 
entity that actually----
    Mrs. Blackburn. All right. Mr. Zelnick?
    Mr. Zelnick. We have a quarterly product review process 
where the creative team meets with the executive team to go 
through the products and----
    Mrs. Blackburn. Quarterly?
    Mr. Zelnick. Quarterly, every quarter, every product that 
is in development. Our products take 2 or 3 years to develop. 
We have ongoing discussions about what we think we should or 
shouldn't do creatively. As I said, we are opposed to 
glorifying----
    Mrs. Blackburn. So it is a part of your everyday ongoing 
process?
    Mr. Zelnick. Every day, and before a game is released I 
look at it, I play it----
    Mrs. Blackburn. My time has expired. Mr. Chairman, thank 
you and I yield back.
    Mr. Rush. And the Chair requests that the witnesses, would 
you please put the full context of your responses to that 
question in writing to the committee, please? Thank you.
    The Chair recognizes the gentleman from Texas, Mr. 
Gonzalez.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. My 
apologies to the chairman and to my colleagues for not being 
present during the testimony, and to the witnesses, obviously 
we have to be in five different places at one time and I 
apologize and I am hoping that in your testimony you may have 
covered some of this and I apologize again if in fact it is 
redundant.
    But it seems there are some considerations here. First of 
all, you have individuals that have raised this to a question 
of free speech, first amendment, artistic expression and so on, 
and when we deal with that, we all kind of retreat and we get 
kind of concerned. I am not real sure that is true or not so 
the first question is, from your perspective, the individuals 
that provide the videos, the music and such, is it really an 
issue of first amendment, artistic expression, freedom of 
expression and so on? Is it really about censorship? There was 
an article last week on the 19th in the Post and it was about 
Reverend Coats being over with Black Entertainment Television 
and protesting and they said oh, nice try, reverend, but we 
call that Talibanning, that's censorship and such, and I just 
wondering from your perspective if that really is a factor in 
making your decision about what you put out there. The other 
thing is, are you factoring in that there is not as much 
control as to what young people get to view, listen and 
download? It is a whole new age. It is the age of squint TV. 
Your mobile devices, what we are doing with those. Do you 
factor that in, that there is a tremendous audience out there 
that has expanded exponentially? People don't have control over 
what young people--it is one thing what you have at home and 
you can supervise and such. The last thing, truly, it is just a 
matter of dollars? If it is going to make money, does anything 
else really matter? Those are the three questions, and if you 
can just real short answers, let us see if we can get through 
with it, and we will start with the first gentleman. Thank you.
    Mr. Dauman. Congressman, again we do listen to different 
voices in the community. You mentioned Reverend Coats. We have 
met with many, many people and we listen to critics and that 
informs our programmers as to what they put out. I am not sure 
it is quite appropriate to harass one of our executives at her 
home but that is what we contend with. As far as the way we 
look at our content and our mission, yes, we are here to make 
money. There is the business part of show business. But we also 
use our power to entertain very responsibly in our view and we 
look for opportunities to reach young people, and I do find it 
ironic that we run a company and my colleagues run companies 
where there are standards and practices, where there is a 
review, and we live in a world, as you point out, where there 
is infinite ability on the part of young people, old people to 
access any content, objectionable or not. We try to put it in 
context but there is a larger problem here that is not just 
about the media, it is about societal problems and there is no 
way to control all content whether we find it objectionable or 
not, so the role that we play putting it in context is 
important.
    Mr. Gonzalez. Mr. Bronfman?
    Mr. Bronfman. Congressman Gonzalez, I would say that the 
first amendment and more importantly, freedom of artistic 
expression, is very important and remains very important to us. 
But at the same time, and in my testimony I said that dose not 
absolve us of our corporate responsibility. We cannot rest only 
on the fact that our artists have a right to express 
themselves. I would also say to you, sir, that in terms of 
distribution, it is dramatic how our works are now available 
legally and illegally on almost every possible distribution 
device and distribution network. On many of those networks, our 
work sits side by side with all kinds of pornography and other 
kinds of reprehensible content that has not been overseen, laws 
are not being observed, and frankly, we could use your help in 
trying to police the amount of pirated material that is 
circulating everywhere including on Sprint devices and any 
other mobile or online device. And lastly, I would admit to the 
same truth that Mr. Dauman did which is yes, we run a business, 
yes, we have owners. We are charged with making a profit, but 
nowhere in our core values does making a profit come ahead of 
being proud of what we do and what are proud of what we do as a 
company and we stand behind what we do even though there are 
going to be products from time to time that people, different 
people and different walks of life will find difficult to deal 
with.
    Mr. Gonzalez. Mr. Morris?
    Mr. Morris. Congressman, I really feel that the music 
mirrors society. It reflects what is going on in the world. It 
is very interesting that 95 percent of music we put out has 
nothing to do with rap music, but I am of the position that 
music is really a narrator of what is going on in the world and 
that is what we have to deal with. I am particularly angry at 
the fact that the music business is the only business I have 
ever heard of that is being destroyed by criminal behavior and 
no one has even discussed that. Our business has deteriorated 
because of the work of criminals who steal most of it, and if 
you would go to Limewire, you would have something that would 
shock you beyond belief. Every song is taken off for free. All 
the people who work at our company, we used to have 12,000 
people working at the company. We have now 6,000. Tower 
Records, hundreds of stores have closed because of this. In 
between our music, which is now stolen and everyone loses the 
money, is an amazing array of child pornography and it is 
incredible to me that Congress has not looked into this 
Limewire situation, which is truly----
    Mr. Gonzalez. And I am not saying that we haven't failed in 
certain respects but we are just looking today in particular to 
you and to some of the artists and such in a particular area, 
and I don't actually think we actually are failing there. But I 
will tell you, you are saying that music sometimes will reflect 
society and such but you have tremendous influence, and what 
you promulgate, you can legitimize that which is illegitimate. 
You can make that acceptable which is truly unacceptable. That 
is what marketing is all about, and we are kidding ourselves, 
especially in the society that we live today, that the power of 
the product and the service that you put out expands markets, 
makes things acceptable and such. My time is up and we may have 
some additional time where the other individual witnesses may 
respond.
    Thank you very much, Mr. Chairman. Thank you to the 
witnesses.
    Mr. Rush. Mr. Fossella is recognized for 5 minutes.
    Mr. Fossella. I will waive, Mr. Chairman.
    Mr. Rush. Mr. Weiner, you are recognized for 5 minutes.
    Mr. Weiner. Thank you, Mr. Chairman. I think that we should 
also recognize that we in political life are part of the 
passion play around this issue. We benefit also from our 
ability to stand up and thump our chest about outrageous music 
that we hear and we can talk about how it is degrading our 
society and we respond as well. We are part of this echo 
chamber that goes along with this debate. But I would caution 
my colleagues who are looking for magic words that sometimes it 
is very difficult to do it absent a context.
     If someone wrote in a song ``I shot a man in Reno just to 
watch him die,'' would that be seen at outrageous, over-the-
topic music advocating someone just murdering someone for sheer 
joy? I don't think anyone would argue that Johnny Cash somehow 
had a corrosive effect on American culture. But I also think 
that sometimes you get into areas where I am not sure I want 
the gentlemen who are at that table making these calls. I mean, 
at the explosion of west coast rap, there was a band called 
NWA. I am actually curious, does anyone know, did they choose 
to abbreviate their name or did the label force them do? Does 
anyone happen to know that? I am just curious. Never mind. We 
will talk about it later.
     A band called NWA has had a very popular song called ``F 
the police.'' You know, Dr. Dre and Snoop had a chorus ``187 on 
an mf cop'' as a chorus to their songs. Now, it is outrageous, 
I mean really it makes your blood boil, the idea that a chorus 
of a song would talk about murdering a police officer. But if 
you look at the context of what was going on in L.A. and police 
brutality and that is what people were screaming about and 
protesting about and talking about, I am not sure the place to 
adjudicate it is here or even there. I am not sure what you do. 
As troubling as these things are, if you start to say we are 
going to look at a word absent the context of those words, 
absent a real debate and discussion about those words, I am not 
sure how you do it. I can tell you something that when the 
argument and the public debate was going on about those lyrics, 
it was the first time many in my social circle were even having 
these discussions. To some degree the music did drive a whole 
discussion about how you deal with issues of police brutality 
and relationship with all communities in this country.
    So I would be very careful laying the responsibility at 
anyone's desk. I don't know. When my colleague, my good friend 
from Florida asked that question, I was thinking to myself, I 
don't know which answer I would like more, yes, we stop the 
words from being used, or no, we don't stop the words from 
being used or some variation like convene a panel of people to 
decide. It is outrageous and mind-boggling to me that there 
would be a theme and songs and music and on the Internet people 
saying don't cooperate with police investigations of crime that 
are ravaging the same communities these people come from. It is 
mind-boggling to me. It is mind-boggling that when you ask an 
artist about don't snitch and he says I wouldn't--how would you 
respond about a mass murderer moved in next door to you. He 
said I would move. I mean, that is mind-boggling to me. Now, 
should I be the one who says that is outrageous? No, I 
shouldn't. But if I can just use my time to ask a question that 
has come up in the context of Mr. Gonzalez' question, there is 
no one here representing the Internet service providers where I 
would argue a larger and larger portion of the music is being 
distributed, promoted, shared, stolen, and Mr. Morris, you 
clearly are unaware of a lot of the hearings we have done here 
and how responsive we have been to the industry's complaints 
about this and how many hearings we have had both in this 
committee and the Judiciary Committee. But if you decide 
tomorrow to take the admonitions of some of my colleagues and 
say we are done, any song that has the ``F'' word, if your 
artist says OK, I will take my master and go to the Internet, 
is there anything stopping them from doing that? I guess the 
music guys are the best to answer that. Mr. Bronfman?
    Mr. Bronfman. There is essentially nothing stopping an 
artist from doing that.
    Mr. Weiner. Mr. Morris, is there anything stopping an 
artist from doing that?
    Mr. Morris. From going to the Internet?
    Mr. Weiner. Yes, from taking and saying if you don't want 
to put it out, that is fine, Mr. Morris, I will bypass you and 
I will go--I will take my music and put it up on 
dirtylanguagerapper.com and distribute it that way?
    Mr. Morris. If the artist is signed to one of our labels, 
we would own that master, but the truth of the matter is, it 
would be out, and by the time the courts adjudicated the 
matter, it would be history. All the music is up on the 
Internet.
    Mr. Weiner. Right, and there is a thousand different points 
of contact with citizens at this point and you can choose----
    Mr. Morris. Music is being stolen from the Internet.
    Mr. Weiner. I understand, Mr. Morris, and with all--I love 
you and I appreciate you being here and everything. If you want 
to start a different hearing, we can come back for that one and 
it is right down the hall, Judiciary is. I am a member of that 
committee and we can have that discussion there. This is 
something we wrestle with as well and frankly it is the subject 
for a different conversation. But my time is expired. I thank 
the panel.
    Mr. Rush. I want to thank the gentleman.
    Let me just ask, I sit here and I hear you and I understand 
what you are saying and I appreciate all your testimony, but do 
you agree that there is a problem? And if there is a problem in 
terms of negative images, then how do you become a part of the 
solution to that problem? Given your business, the limitations 
of your business, but also given the extraordinary power that 
your businesses have over the minds of particularly young 
people, how do you become a part of the solution to the problem 
in our neighborhoods throughout the city--throughout the 
country? Art imitates life. The images that I see and hear are 
only a slice of life in the hood. I live in the hood. Where is 
my slice at in the 'hood and where are other productive 
American citizens who are struggling to get--young people, the 
Rutgers basketball team--where do they get represented in these 
commercial images? Mr. Morris?
    Mr. Morris. Well, I think that this was a very--a good 
opening to starting a communication with--I can only speak for 
my company and I like the way this has all been done. I feel 
that it has been done in a respectful, fair manner and I intend 
to respond in a respectful, fair manner and I certainly 
appreciate the way that you have handled this and you will hear 
from us, and I believe everything starts somewhere and we did 
that today.
    Mr. Rush. Is there any other response? Mr. Liggins?
    Mr. Liggins. Yes, I have got two points. One, I think that 
just as in financial markets, consumer markets also tend to 
self-regulate themselves so as you stated at the outset of the 
committee gathering here that you believe that gangster rap is 
on the downside. In fact, hip hop sales are significantly 
tailing off and I can tell you from an organization that 
actually plays this music, is immersed in it, that the tastes 
of the community are sort of waning on the current state of hip 
hop and that is not something that we are causing, that is 
something that the consumer is actually causing and getting 
tired of and it is showing in the record sales. Second, to Mr. 
Morris's point, the Internet technology, a lot of the 
opportunity created here on the Hill, has let the horse out of 
the barn in terms of any of these platforms being able to 
shield young people from images. It is just that is the nature 
of the Internet. That is the nature of digital technology. So 
from my perspective, if you actually want to sort of police the 
impact that these images have on kids, you should probably 
start thinking about curriculums in public schools about pop 
culture, all right, and analyzing pop culture entities, 
analyzing and dissecting pop culture entities and phenomena and 
explaining the difference between Britney Spears' activities as 
we currently see them and a normal activity or a rap song that 
has something in it that might be misogynistic or violent in 
terms of police officer activity and what a normal behavior 
might be, and if you start doing that with 7th, 8th and 9th and 
10th graders, even if they don't get it at home, at least they 
are going to get it at school. So you can have a backup for 
what is not occurring at home. And I think that that is sort of 
the policing that you guys could really focus on that I think 
would make a big difference.
    Mr. Rush. Anyone else? Mr. Dauman?
    Mr. Dauman. Mr. Chairman, I think these are complex issues 
that were raised here today. These are societal issues. 
Certainly it is the ruling media which both reflects and 
impacts what takes place. You can legislate things like gun 
control or other issues that affect our youth today and we 
certainly air a lot of those issues. We are very proud--there 
was a mention earlier about BET's history. We are very proud 
that we have authorized the largest programming expenditure in 
BET's history to fund diverse programming ranging from shows 
like ``Sunday Best'' where we try to find the best new gospel 
singers around the country, or ``Exalted'' where we celebrate 
some of the great preachers in our country, to a show called 
``Made'' on MTV where we highlight the efforts of youths to 
find themselves, and so forth. So we think there is an 
important dialog and we listen to people. We have very 
segmented audiences. We reach kids with Nickelodeon and we try 
to teach them healthy lifestyles but our schools play a role in 
that as well, parents play a role. We reach older kids through 
MTV and other networks and we reach young adults through Comedy 
Central. So we try to take a look at all the different 
audiences we address and there is always room for improvement.
    Mr. Rush. My time is up, unless anyone else wanted to 
respond to the question, but my time is up now, and is there 
anybody else who has a second question they want to ask?
    I want to really thank this panel. You have done an 
extraordinary job. We thank you so much for your time and your 
participation. Thank you very much, and we will be in 
discussion with you. Again, this is just the beginning. We 
intend to engage you in more dialog and participation and 
action on this particular problem. Thank you so much.
    Our next panel will be seated now. Will the second panel 
please be seated? Mr. Levell Crump, also known as David Banner, 
Mr. Percy Miller, also known as Master P, and Dr. Michael Eric 
Dyson, please be seated. Will the second panel be seated, Mr. 
Banner, Master P?
    Let me begin by welcoming our second panel. Let me also 
thank you for your patience. You didn't have to be here, you 
were not subpoenaed, you have come voluntarily, and we 
certainly appreciate that. You are here because you are 
concerned about the issues that are under consideration this 
morning and afternoon in this subcommittee. You are here 
because you want to do, quote, unquote, the right thing and 
have done, quote, unquote, the right thing. Again, I want to 
thank you so much for your generous use o f your time. You have 
been very, very patient to the members of this subcommittee.
    Let me begin by welcoming our first witness, Mr. Levell 
Crump, also known as David Banner, a hip hop artist. David 
Banner, who is the Republican witness on this panel, is a 
prominent rapper whose biggest hits were ``Like a Pimp'' and 
``Play.'' He will offer his insights as a hip hop artist whose 
lyrics and videos are controversial.
    Our second witness is Mr. Percy Miller, also known as 
Master P, the founder and CEO of No Limit Records. Master P is 
a hip hop icon as a rapper, producer and label executive. While 
he was famous for promoting ``gangster rap'' and ``bounce hip 
hop'' of the ``dirty South,'' he is currently engaged in 
forming a record label that promotes positive hip hop messages.
    And lastly, our witness on the second panel is Mr. Michael 
Eric Dyson, Ph.D., who is a professor at Georgetown University. 
My friend, Michael Eric Dyson, is the author of ``Know What I 
Am: Reflections on Hip Hip,'' and the other book is ``Is Bill 
Cosby Right or Has the Black Middle Class Lost Its Mind?'' 
Professor Dyson teaches theology, English and African-American 
studies and is one of America's premiere academic scholars on 
hip hop. Again, I welcome you and we will open up now with 5 
minutes of testimony from Mr. David Banner.

       STATEMENT OF LEVELL CRUMP, A.K.A. ``DAVID BANNER''

    Mr. Crump. Thank you. Good afternoon, Mr. Chairman, Mr. 
Stearns and members of the committee. My name is David Banner. 
I am an artist for Universal Recordings, a producer and a label 
executive. Thank you for inviting my testimony.
    This dialog was sparked by the insulting comments made by 
Don Imus concerning the Rutgers women's basketball team. Imus 
lost his job but later secured a $1 million contract with 
another station.
    While it seems that he has been rewarded, the hip hop 
industry is left under public scrutiny. As this dialog played 
out in the media, the voices of the people who created hip hop 
music were silenced. We were not invited to participate in most 
of the panels nor given the opportunity to publicly refute any 
of the accusations hurled at us. It is of the utmost importance 
that the people whose livelihood is at stake be made a vital 
part of this process. That is why I thank you guys today.
    I am from Jackson, Mississippi. Jackson is one of the most 
violent cities in the United States. Much like DC, Jackson 
stays in the murder capital run. When I was growing up, it was 
always ranked as one of the top 10 cities for the highest 
number of murders per capita.
    Honestly, rap music is what kept me out of trouble. 
Statistics would never show the positive side of rap because 
statistics don't reflect what you don't do, if you don't commit 
a murder or a crime. When I would feel angry and would want to 
get revenge, I would listen to Tupac. His anger in a song would 
replace my anger and I would live vicariously through his 
music.
    Rap music is the voice of the underbelly of America, and in 
most cases America wants to hide the negative that it dose to 
its people. Hip hop is that voice, and how dare America even 
consider not giving us the opportunity to be heard. I am one of 
the few artists who went to college, and to this day I see my 
friends who also attended college with me and graduated unable 
to get jobs. The truth is, what we do sells, and oftentimes 
artists do try to do different types of music and it doesn't 
sell. In America, the media only lifts up negativity.
    People consider me to be a philanthropist. I give away a 
quarter of my yearly earnings to send children from 
impoverished neighborhoods to different cities, to Disneyland. 
This gives them another vision. Rap music has changed my life 
and all of those around me. It has given me the opportunity to 
eat. I remember sending 88 kids from the inner city on a trip. 
I went to the local newspaper and the television stations only 
to be told that the trip was not newsworthy, but if I shot 
somebody it would be all over the news. I threw the largest--
listen to me. I threw the largest urban relief concert in 
history for Katrina. That never made the front cover of a 
magazine. But as soon as I say something negative and rise up 
against my own or be sharp at the mouth--no pun intended--I am 
perceived as being disrespectful to my black leaders. The 
negativity always overshadows all the positive things that we 
do as rap artists.
    Some might argue that the content of our music serves as 
poison to the minds of our generation. If by some stroke of the 
pen, hip hop were silenced, the issues would still be present 
in our community. Drugs, violence, sexism and the criminal 
element were here long before hip hop. The Crips, the Bloods, 
the Vice Lords and the gangsters were here before rap music. 
Gang violence was here before rap music. Our consumers come 
from various socioeconomic backgrounds and cultures. While many 
are underprivileged, a large percentage of those people are 
educated professionals. The responsibility for their choices 
does not rest on the shoulders of hip hop.
    Still others may raise the concern that the youth having 
access to our music. Much like the ratings utilized by motion 
picture associations, our music is given a rating which is 
displayed on the packaging. This serves to inform the public of 
the possible adult content.
    As such, the probability of shocking the unsuspecting 
consumer's sensibility is virtually impossible. If the consumer 
is disinterested or offended by the content of our music, don't 
buy the CD. Cut the radio off.
    Some may argue the verbiage used in our music is 
derogatory. During slavery, those in authority used the word 
``n * * * * *'' as a means to degrade or emasculate. There was 
no question of censorship then.
    The abuse, accompanied by the label ``n * * * * *,'' was 
forced and internalized. We had to internalize it. This made 
the situation easier to digest. Our generation has since 
assumed ownership of the word, and now that we are capitalizing 
off the word, now they want to censor it. That is amazing to 
me. Wow.
    The same respect is not often given or extended to hip hop 
artists as those in other areas. Stephen King and Steven 
Spielberg are renowned for horrific creations. These movies are 
embraced as art. Why then is our content not merely deemed 
horror music. Mark Twain's literary classic ``Huckleberry 
Finn'' is still required reading in our classrooms across the 
United States. The word ``n * * * * *'' appears approximately 
215 times. While some may find this offensive, the book was not 
banned by all districts because of its artistic value. The same 
consideration is not given to hip hop music.
    As consumers we generally gravitate to and have a higher 
tolerance for things that we can relate to. As such, it is not 
surprising that the spirit of hip hop is not easily understood. 
In 1971, the case of Cohen v. California, Justice Harlan noted 
that one man's vulgarity is another man's lyric.
    Our troops are currently at war under the guise of 
liberating other countries while here in America our rights are 
being threatened daily. This is illustrated by Homeland 
Security, extensive phone tapping and ill-placed attempts at 
censorship. If we are not careful, we will find ourselves 
getting closer to a dictatorship.
    And in closing, traditionally multibillion dollar 
industries have thrived on the premise of violence, sexuality 
and derogatory content. This capitalistic trend was not created 
nor introduced by hip hop. It has been here. It is the American 
way, and I can admit that there are some problems in hip hop 
but it is only a reflection of what is taking place in our 
society.
    Mr. Rush. Mr. Crump, would you please bring----
    Mr. Crump. Oh, yes, this is the last sentence.
    Mr. Rush. OK, last sentence.
    Mr. Crump. Can I go back, because this is very powerful. I 
can admit that there are some problems in hip hop but it is 
only a reflection of what is taking place in our society. Hip 
hop is sick because America is sick.
    [The prepared statement of Mr. Crump follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Mr. Miller, you are recognized for 5 minutes for 
testimony. Thank you so much for your participation and your 
overall work. Thank you so much.

         STATEMENT OF PERCY MILLER, A.K.A, ``MASTER P''

    Mr. Miller. Thank you, Congressman. I want to thank 
everybody for allowing me to be here. I am not here to put down 
hip hop because I want everybody to know, I didn't prepare a 
speech. What I am going to say is coming from the heart and I 
think after we leave today we should come up with some type of 
solution. I watched the first panel, and I want to commend 
David Banner for being here and I think he is an educated 
brother, and hip hop is being educated. I think we are on the 
same premises. My whole goal for being here is to preserve hip 
hop, and I know this is a culture that is involved--and I 
watched the first panel. We talked about society. It is 
definitely a problem from society but we are inflaming this 
problem but not being responsible, and I want to take that 
responsibility.
    First I want to tell everybody here that I was once part of 
the problem, and hopefully as I move on in life and I raise 
kids, I want to be a part of the solution, and the reason why 
we have such a big problem right now is that nobody wants to 
take responsibility. And I made a lot of money off of hip hop, 
gangsta rap music. That was all I had in my community so I feel 
Mr. Banner's frustration because people are only looking at the 
artist, and I am going to tell you guys right now, it is not 
the artist. Because when you look at society, I have been on 
both sides, the business side and on the artist side, and I 
think that is why I can really explain where we are right now 
in society.
    Right now we stop focusing on the artist because to me, in 
this business, you look at society as a hip hop artist, this is 
a business. When I watch everybody get up here and talk about 
this, this is a financial business. Hip hop is a $4 billion 
business, but is the artist benefiting from that? No, we can 
set up things to where the artist is being a puppet and we have 
puppet masters. So what I am saying by that is, if we stop 
focusing on each other--and I watched a bunch of these guys go 
in the back and me and Mr. Banner I hope after this that this 
is not a debate for me and him, that we could sit down as 
brothers and sisters, the audience. The other guys and their 
business, when they went in the back, they all communicate. 
They understand the big picture, and once we get us to 
understand the big picture, we definitely can save our kids and 
our community, and this is about relief, it is about growing 
up.
    Growing up in society is so important, and can I be here 10 
years ago and tell you the same thing I could tell you? No. 
Will we all get to that where we can grow up and understand the 
valuable part that we could play to preserve hip hop because to 
us and our kids, this is the way of life. This is the way we 
take our kids out of the ghetto, and for me, I could honestly 
say I was only in it for the money. I had nobody to pat me on 
the back to say P, you could do something else with your life. 
Think about the music, think about the content. Kids are 
listening. When I changed my life, I understand that my kids--I 
was in a car with my own kids and I turned on the radio and we 
turned my CD on and I noticed when my kids were in the car, I 
had to turn the music down, and I say you know what, I need to 
fix my own problem. We have to start fixing it as an 
individual.
    And I am hopeful after today everybody that was on his 
panel earlier, they all have the same intents, I mean, that we 
can all communicate and start putting some great property, some 
great music, some great visuals. I want to meet with these guys 
and say what can we do, let us fix the problem, because even 
these executives are not the problem. People haven't realized 
Debra Lee is not the problem. Everybody has a job to do. But 
what I am saying is if we start thinking about what we are 
doing and understand just like Mr. Banner said, when you look 
at society, gang violence, 800,000 gang members are born right 
now. Twenty-five percent of the murders and the crimes are 
committed by gang bangers, and my thing is, with my music, I 
can say music do put you in a mood. I look at my past history 
of music and I say to myself, wow, I wasn't thinking. I was 
thinking about my own feelings. My brother died, so I was 
angry. My cousin died. I had 12 other friends that got murdered 
in my community so I just made the music that I felt, not 
realizing that I am affecting kids for tomorrow. And so if I 
can do anything today and change that, I am going to take a 
stand and do that. I hope this society don't judge me by my 
past.
    And one thing I have for a solution, that we have to treat 
the hip hop industry just like the NBA. I figure we have to 
form some type of union, what we can control, because the 
executives in this business right now can't control. We could 
hit these kids' pockets. Anybody that have a money problem, say 
if you put out this type of music or you don't change or think 
about what you say, we are going to hurt your pockets with it. 
People are going to change because most of these guys are in it 
for the money, and it is a business.
    And I also want to tell you that looking back at everything 
that I did and said and taking this to the next level, us as 
people, we have to figure out it is a lack of knowledge. It is 
a lack of knowledge and it is a lack of vision. Back then I had 
no vision, I had nobody to give me this vision. So if we start 
getting with our kids and talking to our kids and figuring out 
how can we give them this knowledge and this vision that we can 
take our game to the next level, how we can prepare our kids 
prepare for--right now we are preparing our kids to lose. That 
is what the problem is. That is why we got so many angry 
artists right now. We are preparing our kids once they get this 
money, they don't know about taxes, they don't know about 
handling this money. I watched a lot of guys up here. They are 
able to transform to other different companies. After it is 
over with a hip hop artist's career, he is going back to the 
'hood and he is put in that environment with somebody who say 
hey, man, you did all this and now you turn your back on us. 
But I am not turning my back on my people. I want to help us 
grow and I can figure out whatever solution I want to build. I 
think if we look at the crime right now, we have to put 
facilities up.
    I want to challenge these executives. I want to challenge 
the Government to say you know what, let us put some facilities 
with a gymnasium and a library so to teach these kids how to 
read and how to grow something more than just music. And let us 
think about the consciousness that we are putting into our 
music. So I figure we form some type of union like the NBA has. 
They have a union that they talk about the music--I mean they 
talk about what happens on and off the court and we start 
fining kids for what they do, I think we could change our music 
industry and preserve it and save hip hop and that is my goals 
right now, to stop pointing the fingers and let us all get 
together to figure out how to preserve this billion-dollar 
industry and also teach our kids about equity funds, about 
growing, about building a generation of wealth instead teaching 
our kids, destroying them saying we are going to take the next 
one out and put the next one in. When 50 Cent ain't hot no 
more, we are looking for somebody else. Now, where do 50 Cent 
go after this? Well, why is he not a company executive so now 
he could understand the problem and say this is what I have 
been through, let us save some of these kids. But I think the 
problem is right now we are focusing on just the orders and we 
have to take the focus off the orders and we got to come 
together as what we are doing today but we have to get behind 
the scenes and let us keep this going.
    Mr. Rush. Thank you very much for your commentary and for 
your testimony.
    Dr. Dyson, 5 minutes, please. I am kind of liberal with my 
5 minutes but 5 minutes, please.

    STATEMENT OF MICHAEL ERIC DYSON, GEORGETOWN UNIVERSITY, 
                         WASHINGTON, DC

    Mr. Dyson. Thank you, Congressman, Reverend Honorable Rush, 
and to all of the members of the committee and to my fellow 
panelists here, Misters Banner and Miller.
    It is a deep and profound honor to be here today simply 
because this is such an important subject, that is, to draw a 
sharp and powerful distinction between edifying and intensely 
uplifting art and art that lacks what some people say is 
cultural and social imagination. But what is more interesting 
and more provocative even still is the fact that we are 
wrestling with ideas that transcend a particular art for or 
aesthetic expression, because when you talk about misogyny, the 
cruel hatred of women, sexism, sentiments directed against 
women because they are women or patriarchy, which is the 
conscious or unconscious belief that men's lives should 
determine how everybody else lives and therefore establish 
values, you can't start with hip hop to look at the origins of 
that. We talk about religious institutions, we speak about 
educational institutions and God forbid we speak about 
political institutions. It would behoove us to have the same 
self-critical impulse that hip hop has had within the walls of 
these hallowed chambers. I think for me, it is a powerful and 
necessary issue to speak about the way in which black women in 
particular have been degraded and demonized in art forms that 
claim to speak for the broader spectrum of African-American 
thought culture or position.
    But what is equally interesting is the fact that there are 
deep roots of American culture when it comes to demonizing 
women. It didn't start with Snoop Dogg. It didn't start with 
anybody who has been associated with hip hop culture. That is 
white supremacist ideology predicated upon capitalist expansion 
of opportunity. Talk about commerce. We are in the right place. 
American is built upon the degrading images perpetuated against 
black men brought here as slaves, used for free labor to build 
a country that they are presently denied.
    So when we think in terms of opportunity, so when we think 
about lethal misogyny, I don't want to dodge a bullet. Am I 
offended by it and do I think that things within certain hip 
hop communities have gone too far? Absolutely. I write about 
it. I talk about it. I think about it. I argue with rappers. 
But I don't begin there with them. When Jesus met the woman at 
the well, he didn't have a conversation about her promiscuity, 
alleged, because then she would have to account for the five 
men who abandoned her. He said, give me a drink of water. You 
start where people are. There is a conversation about misogyny 
and sexism and we don't mention homophobia because polite 
society agrees that gay and lesbian people shouldn't have too 
much rights to begin with. So this is where hip hop may agree 
with common civil society. So what is interesting is that the 
gay and lesbian people don't even--it is ``B'' word, it is the 
``N'' word, it is the ``H'' word but it is not the ``F'' word 
or the ``L'' word.
    So what is interesting is that all of us have blind spots 
when it comes to articulating viewpoints that are edifying and 
uplifting. Not only am I against censorship because I don't 
want anybody to tell me what kind of book to write--when I 
wrote a book arguing with Mr. Bill Cosby, ``How dare you argue 
against an icon who has articulated positions that are critical 
to our society's perpetuation in a good sense?'' I agree with 
that. But I also think he said some stuff that qualifies for 
gangsterism against black women. He said, ``Most of these women 
are promiscuous, they name their kids the wrong things.'' He 
said, ``I am trying to stop you from having sex with your 
grandma. When she is 15, she has a baby, when she is 13, she 
has a baby, you do the math.'' Now, that is not calling a woman 
a ``B'' or ``H'' but it is scandalously misinterpreting 
sociologically the context within which she emerges and what 
she means.
    So if we are going to deal with misogyny and sexism and 
patriarchy and homophobia, we have got to dig deeper into the 
archives of America culture and we have got to look at the 
practices, the behaviors and the beliefs that are perpetuated 
in Congress, that are perpetuated in business affairs and 
perpetuated in entrepreneurial circles and in religious 
institutions. Black women, let us not just march on the record 
companies, let us march on churches that deny black women who 
are 75 to 85 percent of the congregation access to leadership 
positions that they give their money to to support. Let us ban 
some preaching sermons that perpetuate--and they are worse than 
hip hop because they get God involved. Now they are saying God 
wants you to be a second-class citizen.
    So I am appalled by the deep and lethal misogyny I see 
expressed across the culture. I wouldn't want to quarantine the 
crazy, the hip hop. Hip hop in one sense does us the service of 
being explicit and articulate about its rage, although 
misplaced against women where other sections of the culture 
don't do so, and ultimately I think what we have to wrestle 
with is that these images that are degrading certainly are 
reflected in hip hop but did not begin there. Look at the self-
critique. Lauren Hill said, ``Even after all my logic and my 
theory, I had to mf so you ignorant n* * * * * * hear me.'' 
Right? If you think about Tupac Shakur, ``Somebody wake me up 
dreaming, I started as the semen swimming upstream, planted in 
the womb while screaming. On the top was my pops, my mama 
hollering stop from a single drop. This is what they get. Not 
to disrespect my people, but my papa was a loser. Only plan he 
had for mama was to blank her and abuse her and even as a seed 
I could see his plan for me, stranded on welfare, another 
broken family.'' I mean, listen to the cries. Even Master P 
said he was unenlightened but I think he was enlightened when 
he wrote the lyrics, ``I don't own no planes, I don't own no 
boats, I don't ship no dope from coast to coast.'' I am telling 
you that even in the mouths of young evolving artists like Mr. 
Banner from Mississippi, Mr. Miller from Louisiana, they are 
represented in Katrina's misery. The country cannot come to 
their rescue to take them rooftops but want to now indict them 
for the language they use in the aftermath of being abandoned. 
I say that is a metaphor for what America has done, and thank 
God for hip hop at its best.
    At its best, hip hop has allowed the expression of 
degraded, marginalized, yes, mostly young black men who often 
see their expanse and their opportunity at the expense of woman 
but that is no different than the black church or American 
institutions of politics. I think we have to confront it. I 
think we cannot limit it to African-American youth and I think 
we have to be honest about the way in which this music, at its 
best, mind you, has allowed the expression of young people who 
have failed to be duly recognized and as a result of that have 
little recourse except to use the language, the metaphors, the 
similes, the analogies and the beautiful vernacular at hand.
    So as I end, I think that what we must do is to constantly 
pay attention to the self-critical impulses within the culture 
itself. How come it is, why is it that ``these guys drink 
champagne, toast death and pain like slaves on a ship, brag 
about who got the flyest chain.'' Why isn't that music selling? 
Now, some people say this. Well, the declining music sales 
among hip hop artists prove that the American public is through 
with them. Well, if that is the case, you are losing the 
argument because the so-called positive rappers in hip hop are 
even further behind, so what is the public saying there. When a 
good movie like ``Talk to Me'' comes out, all the people who 
clamor for positive expression, how come they didn't go see 
that film? I think the crocodile tears of people who claim to 
want edifying art is problematic because I don't want edifying 
art, I want complex art. It is not positive versus negative. 
Some people think that I if speak in defense of gay and lesbian 
people within an ecclesiastical context, theologically that is 
negative. So I could never rest upon negative versus positive.
    Mr. Rush. Dr. Dyson, please----
    Mr. Dyson. OK. Let me end here. Let me end by saying this 
then. I think that hip hop culture at its best is a necessary 
expression of degraded, demoralized young people who find the 
cultural expression of their identities and the culture that is 
fundamentally hostile to them as something they have to do, and 
I think what we should be about doing is interrogating and 
being more introspective about the practices that are negative 
in our own communities than join with hip hop to clean up 
across the board the negativity that we find there.
    Mr. Rush. I want to thank the witnesses. I have heard a lot 
of testimony and let me just be real clear as I stated at the 
opening of this hearing. We are not here to indict hip hop nor 
are we here to indict hip hop artists. I for one am very proud 
of the hip hop genre. I know where it began. I know what it has 
become. I am proud of some of the things that it has done. It 
has created opportunities for young minority African-American 
men and women to emerge from the depths of the ghetto to become 
icons in the corporate world. It has created thousands if not 
hundreds of thousands of jobs for people who are able to 
express their gifts in this competitive, capitalistic society. 
I find that it is an art form. However, given all that, I know 
that there is a problem, a deep-seated, deeply rooted problem 
that exists in our community, and a paycheck is not an excuse 
for being a part of that problem. You have to emerge as all of 
us do and as all of us did. Those who come from the same 
communities, the same kind of neighborhoods, we all aspire to 
get out of those neighborhoods. But there is a difference 
between exploiting the pain and the problem and being a 
solution to the problem.
    I am looking today in this hearing for those again who are 
committed to becoming a part of the solution as opposed to 
being a part of the problem. I agree about the rage. I got 
rage. I am a Member of Congress. I still have deep-seated rage. 
Well, how is that rage channeled? Am I supposed to take my rage 
and then spew it out in a counterproductive way so that I can 
get paid by others to exploit my rage or do I have an overall 
greater responsibility, a higher responsibility to try to take 
my rage and be creative in an approach to becoming a part of 
the solution as opposed to being a part of the problem.
    Brothers, let me say this. You can't justify to me the use 
of the word ``n* * * * *'' because my slave master used it. 
There is no justification at all. My slave master raped my mama 
and my ancestors. I am not going to buy into that, all right? 
As a matter of fact, I can't condone that at all. I have to 
deny that approach. I don't want to adopt the mores, the 
metaphors, the machinations and the mentality of my slave 
master. I want to move myself and my community from those kind 
of anchors. I don't want to ape and imitate my slave master. I 
want to create something more life giving, something that 
affirms my dignity as opposed to affirming my death.
    Let me just ask a question here. What is the responsibility 
to our communities and to this Nation, what is the 
responsibility of the hip hop art form, the artist, the record 
owners, the consumer? What is the responsibility? What is the 
shared responsibility in terms of solving these problems that 
we all agree are problems in our community? What are the 
responsibilities? Mr. Crump, do you want to start?
    Mr. Crump. Yes. I want to start by first of all saying all 
the philanthropy, all the things that I do in my neighborhood 
have nothing to do with David Banner as a rapper. Now, I 
represent the hip hop nation but I can honestly say, this is my 
opinion and my opinion only, I don't feel that it is any 
rapper's responsibility to do anything. I think it is your 
responsibility as a man, not the type of rapper you are, the 
type of man you are. I was that type of man when I was 
hustling. I was that type of man when I was a teacher. You go 
back and you look at my history, I have always cared about poor 
people and children. I do what I do because I am that type of 
man. It has nothing to do with my job. It is amazing to me that 
the burdens of the world are placed on young black men who 
don't have the power to move anything. We don't put that same 
responsibility on our president. We don't put that same 
responsibility on our Congressmen. We don't put that same 
responsibility on our parents. We talk about children. It is 
not really about rap music, it is about the fact that we are 
having children when we are not prepared to raise them. So we 
point the finger back at somebody else, America, and I don't 
want to go into the war but America talks about weapons of mass 
destruction but when I looked at it, I was like, don't we have 
the most receipts and don't we have weapons of mass 
destruction? If we want to talk about weapons of mass 
destruction, let us get rid of ours. So and me saying that of 
course, it is not right, but the thing is, when it comes down 
to it, it is still just a song. Arnold Schwarzenegger can be 
the Governor of California but in his movies, he killed half of 
Cambodia, then he went to Mars and blew up Mars and then came 
back and killed, but it is fine because he is a white man and 
he is an actor, so that is OK, let him be the Governor. That is 
just fine. But if Snoop Dogg talks about the things that he 
actually sees in his community, whether fact or fiction, let us 
see what we can do to him.
    Mr. Rush. Mr. Miller.
    Mr. Miller. Well, my thing, I think it is a responsibility 
for us to preserve and prepare the future which is our kids. We 
got to take a stand. We can't just keep going where we are at 
right now, not knowing that it is tomorrow. I think as an 
artist, we only think about where we are now. We have no 
vision. And I think right now what we are seeing here today is, 
we have to understand that knowledge is the most important 
thing and not education. I think that education where we are, 
education is so important for our people but once we apply the 
knowledge, it is like right now what David Banner is saying, I 
think once we get the knowledge, we really can take what we are 
doing to the next level because I think we are all on the same 
mission. Because what he is saying, but we also have to think 
about what we are doing, and I think if we give our kids that 
vision, we can make that change. We got to start saying I can't 
be the person that I used to be back in the day, I got to grow, 
and I want to figure out some kind of way to teach these kids 
to grow and realize that if I say a bad word, I am a parent, my 
kids are not going to say that because I am going to teach them 
to be better than me, and that is what I want to do. I want to 
help my kids understand one thing in life, yes, your daddy can 
only be an inspiration. But with my son, Romeo, he is going to 
college because he never made any profanities. His TV shows 
were on Nickelodeon. He could be better than me and that is 
what I want to instill into my kids and I also want to instill 
into them, let them know that you can live older than 25, you 
can live older than 30. We want to build this next generation 
to be better than us and I think that is what Martin Luther 
King and all the other great people did for us, and I wanted to 
give that back to my kids and the people that is coming after 
me.
    Mr. Rush. I am woefully over time, over my time, and I am 
going to now recognize----
    Mr. Butterfield. Mr. Chairman, if it is any consolation to 
you, I am going to have to leave for a 2 o'clock meeting and I 
yield my time to you, sir.
    Mr. Rush. Well, thank you.
    Mr. Dyson?
    Mr. Dyson. I think that--look, there is no essential 
contradiction between what David Banner is saying and what 
Percy Miller is saying, that Master P and David Banner are both 
talking about a trajectory of transformation and the 
possibility of change, and that is to say, people are 
constantly evolving as human beings. You can look at your own 
life, Mr. Rush, as an extraordinary freedom fighter from the 
very beginning. When you are part of the Black Panthers, you 
are part of an organization that was demonized, that was 
negatively portrayed. I am writing now the new introduction to 
Huey Newton's revolutionary suicide volume. A lot of people put 
the brother down. People made mistakes but essentially what the 
Black Panthers were arguing for was for the reorganization of 
the logic of American capitalism and the revolutionary 
transformation of the society. I see what you are doing today 
as an evolution along that same trajectory. As a minister and 
Member of Congress, you have taken the challenge and 
responsibility of evolving and changing and making that 
transformation more coherent morally than perhaps before but 
also with that same impulse. I see what these young men are 
doing as extraordinary. I think artists do have a 
responsibility, as Mr. Banner said, as a human being, as a 
citizen of a global community. We all have a responsibility to 
do the right thing and I think that doesn't mean that hip hop 
should somehow be exonerated from that critique. Hip hop has a 
huge amount of serious self-critical impulses going along with 
it, but if you don't listen to hip hop, then you don't know 
that a lot of people who are so-called underground are mad at 
some of this commercial stuff. They are mad that they can't 
even be heard, and I think that is very important.
    Let me say one thing about the ``N'' word here. I know Mr. 
Banner spoke about that. I think that we have to be complex 
about the ``N'' word. It is not simply whether or not--and you 
made a brilliant and eloquent testimony that you didn't want to 
simply reproduce the pathology that was transmitted to you by 
white supremacist overlords, and I think that is absolutely 
right. But words are complex and meanings are flexible and I 
think when black people have appropriated a term of derision--
the night he died, Martin Luther King, Jr., according to the 
autobiography of Andrew Young, said to Mr. Young when he came 
into his room, because he had not seen Mr. Young the entire 
day, ``Little n * * * * *, where you been?'' I don't think 
Martin Luther King, Jr., was a self-hating, degrading black 
person. No, he did not stand up in public and deploy that term 
because probably he would have found that offensive to the nth 
degree and he understood the political context of language and 
how that can be interpreted. But I am simply saying that the 
use of the ``N'' word didn't begin with hip hop. I heard 
ministers and preachers talk about it, bishops talk about it. I 
heard respected members of the community talk about it. There 
is a communication gap and a generational gap between young 
people who have circulated that term for global expression out 
of the political context in which it emerged so that means 
there are some people in Japan who don't even understand that 
that was a term of derision and are now using a term in a way 
that we find offensive because they didn't understand it. So 
all of us are responsible for being educated and enlightened.
    Mr. Rush. Thank you, Dr. Dyson. I must apologize because I 
didn't recognize my Republican ranking member, and now I 
recognize the gentleman from Florida, Mr. Stearns.
    Mr. Stearns. Thank you, Mr. Chairman.
    Let me just thank the witnesses for coming and I think it 
is very interesting and enlightening I think for everybody to 
hear your statements, so I appreciate you taking the time.
    One of the questions that came up on this hearing when we 
talked to the executives, how much influence they have on you, 
perhaps not the CEO of Warner or the CEO of some of these music 
companies but has there been in your relationship with them, 
have the industry executives ever asked you to alter your music 
or lyrics, and if so, if you can recollect under what 
circumstances, and I will start with you, Mr. Crump, and then 
Mr. Miller.
    Mr. Crump. Actually they have, and I personally have a 
problem with that, I must add, but they send our music through 
all kind of boards and we have to write out our lyrics and 
present our lyrics, and I can honestly say I am one of the 
artists probably has the worst potty mouth than anybody could 
ever see in the world and I do and I stand for that because the 
situation in which I arose out of reflect that, and I am going 
to answer your question, but I want to make this statement 
before I forget it. If Congress wants to change hip hop, they 
can start with Congress Heights. That is right down the block. 
If you want to see why we rap the way that we rap, go to 
Congress Heights. You don't even have to come to Mississippi. I 
asked you to come to Mississippi and spend 2 days. Because it 
is funny, you guys make these different speeches but when you 
go home, you go home to a nice house and some pretty nice kids 
who will probably get a job because of your influence. It is 
not the case where we are from. But to answer your question, 
yes, especially BET. It is so hard to get my videos on BET. It 
is to the point I understand the disrespect of women but it 
gets to the point where you can't even have a girl in the video 
no more. They are going overboard. To me, it is OK to----
    Mr. Stearns. So Mr. Crump, you are saying that when you 
submit your music, your lyrics to the executives, they censor 
it?
    Mr. Crump. No, they don't censor it. What they do is, they 
go through the music with a fine-tooth comb and make sure--and 
I have seen the situation where they will bleep your music out 
without you knowing. So I guess in a way they do sometimes, but 
I know that it definitely goes through a board and especially 
when it comes to the videos.
    Mr. Stearns. Do they come back to you and say, Mr. Crump, 
or----
    Mr. Crump. No, sometimes it don't make it back to us. It 
goes straight out to the public.
    Mr. Stearns. OK.
    Mr. Crump. I have heard music of mine that has been altered 
without me saying that it was cool but that is how the game 
goes.
    Mr. Stearns. Mr. Miller, how about you?
    Mr. Miller. I have been listening to Mr. Banner. I will go 
this part, and I will give you guys this real invaluable----
    Mr. Stearns. Remember, the question is, have industry 
executives asked you to alter your music or lyrics? If so, 
under what circumstance? I think Mr. Crump answered that. I was 
just hoping you could tell us.
    Mr. Miller. I will explain that to you guys but I think I 
want to go back to the subject and explain that to you. I keep 
talking about education and knowledge. I think right now you 
have to understand that education and knowledge is two 
different things and I think Mr. Banner is right on, and we are 
talking about the same thing but what I don't understand is, me 
and him talking about the same thing and he is being here as a 
Republican witness for this subject, and I think that we need 
to really understand knowledge, what is so important about it. 
I am going to give you knowledge from the record business. I 
have been on both sides. On this side of the table is that they 
have A&R departments and they can screen your music and say I 
don't want to put this out, you guys can't say this, because 
they have done this all the time, and I think after this here, 
we really need to get together and understand because we all 
talking about the same thing and we all are being scrutinized 
for something that we have no participation in, because at the 
end of the day this is about finance, this is about money, this 
is an uncontrolled situation. So they really can screen your 
music and they do. But we----
    Mr. Stearns. Can you actually say in your case that you 
wrote some lyrics and did you have to go through what Mr. Crump 
said? Did they actually change the lyrics of yours?
    Mr. Miller. I am kind of different because I had a 
distribution deal and that is why I said I am sorry for the 
stuff that I did and I understand it because I had nobody to 
pat me on the back, but it has got to a point where somebody 
could come and say you look at----
    Mr. Stearns. I am talking about your lyrics now.
    Mr. Miller. Yes, talking about my lyrics.
    Mr. Stearns. He or she came to you and said da, da, da, da, 
da and----
    Mr. Miller. At a time in my life people say listen to this 
song, you need to change this and I had to change it.
    Mr. Stearns. You had to change it for----
    Mr. Miller. Because think about what I said. Most kids 
right now, they are just in it for the money. I was in it for 
the money at the time, I could honestly say this.
    Mr. Stearns. I understand.
    Mr. Chairman, I just----
    Mr. Dyson. And I want to say no record company has changed 
my lyrics as of yet.
    Mr. Miller. Not yet.
    Mr. Stearns. Mr. Chairman, I wonder if I have just a little 
bit more time, considering the situation.
    Mr. Rush. Yes, please.
    Mr. Stearns. Mr. Crump, I think just the creative process 
of you coming up with your songs, are you responsible for the 
initial content of your music or do you have like--you sit down 
with friends or do you try out with a girlfriend or some----
    Mr. Crump. I have--excuse me--the full responsibility of 
everything that I say regardless of--it is one thing that I 
always say, it is not Universal's responsibility, it is not my 
friends' responsibility. It is solely my responsibility, and 
there may be things that affect me but I am a man. I take full 
responsibility for everything that I say.
    Mr. Stearns. And so you wrote all the lyrics yourself, and 
then if they get changed, it is because the executives of the 
music----
    Mr. Crump. No, but the fact is, that doesn't happen much, 
and a lot of times if it is something that is actually changed, 
it is something that has to do--like let us say if something 
happened at 9/11 or something is going on with the president, 
something of that magnitude, and it is really nothing--they are 
not nitpicking on every different subject. It is not a 
censorship at all.
    Mr. Stearns. OK. Mr. Miller, this question is, in your 
creative process, you are sitting here, you are a young man. 
You came up with these lyrics. These are all your own content 
that you created yourself or did you have----
    Mr. Miller. Well, it is created from me, it is creating 
from painting a picture, looking out my window, some of things 
I went through, some of the things people that I know that went 
through.
    Mr. Stearns. So your life experiences and just sitting 
there----
    Mr. Miller. Well, I think mine is--to be honest with you, I 
lost my brother at a young age so mine was more of a cry of 
anger saying man, what could I do in this community, I mean, 
why is this happening to us, why is my mother going to a 
funeral, why am I going to a funeral, why am I in this 
situation and what could I do to get out so I think at the end 
of the day what is----
    Mr. Stearns. It was a catharsis for you?
    Mr. Miller. Yes. But think about it. I think at the end of 
the day, what we are not doing is, we are not listening to the 
end of the music. Just like he said, some of my music might 
start off to get these people, but at the end of the day I am 
going to try to leave with some type of message so they say I 
want to make them think and I think it is a part of growing up 
and maturing.
    Mr. Stearns. Dr. Dyson, I have got a question that perhaps 
goes to one of your books. You have written that the rapper 
Tupac Shakur wanted to ``combat the anti-intellectualism of hip 
hop.'' And I thought I would give you an opportunity to further 
elaborate on that idea of his perspective, Shakur's 
perspective, if you could.
    Mr. Dyson. Yes, sir. Thank you very much for that. I think 
that Tupac was in concert with Richard Hofstetter who wrote a 
book in 19, was it 63 or before, about the anti-intellectualism 
of America. He talked about the choice of Eisenhower over Adlai 
Stevenson as a critical turn in the attribution of anti-
intellectual sentiments among the broad American populous. I am 
not trying to make Tupac Shakur Richard Hofstetter. I am 
suggesting, however, that anti-intellectualism is a species 
that is not particular or peculiar to hip hop. It is an 
American disease, one with somebody being tendentious and 
negative could say this is the White House for ample evidence. 
What I would suggest is that anti-intellectualism is deep and 
problematic across the board and hip hop has elements of it. 
This is why Tupac read deeply, thought critically, read many 
books. I went to the home he shared with a woman and I read the 
books for myself. I saw them for myself and I think that he did 
combat the anti-intellectualism of this culture, not only in 
hip hop but more broadly. But it is necessary to say that it is 
an anti-intellectual strain that manifests itself there as it 
manifests itself across the board, and I think the power of 
what these two artists have done here today is to display that 
you can be highly articulate and intelligent, use words in 
productive and provocative ways and use those words to inform 
and inspire. You think about a rapper like Mos Def who said you 
can laugh and criticize Michael Jackson if you want to; Woody 
Allen molested and married his stepdaughter. They show Woody 
and Sunni at the playoff game. Now, sit back and think about 
that. Would he get the same if his name was Woody Black? So 
when you think about the use of words to combat anti-
intellectualism, Tupac was one of the greatest. He said, 
``Somebody help me, tell me where to go from here because even 
thugs cry but do the Lord care,'' but he also ``Just the other 
day I got munched by some crooked cops and to this day them 
same cops on the beat getting major pay. But when I get my 
check they taking tax out so we paying the cops to knock the 
blacks out.'' That is a powerful antidote to the anti-
intellectualism that prevails and I think we need more, not 
less, then a guy like that.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Rush. The Chair recognizes the gentlelady from 
Illinois, Ms. Schakowsky.
    Ms. Schakowsky. I want to describe to you for a second how 
I am feeling about this riveting debate. I am feeling like how 
can I ask something that doesn't make me look like just 
categorized as a privileged white woman who doesn't really get 
it and who can't recite any of the rap music, and I think that 
the way I feel in part describes the problem that we have in 
all sitting down together and talking about the larger problem 
or issue and the specific issue of rap music, is that in some 
ways we come from very different perspectives and it is hard 
really to get into each other's head. Writers are always told, 
write about our own experience and then when young rappers do 
that, well, the experience is painful and it is mean and 
graphic and sometimes ugly and we don't want to really--we 
don't really mean it. I started this morning thinking about it 
from the standpoint of a woman and a mother and a grandmother 
of three little girls and thinking about the music that they 
listen to or that I hope they listen to, which is important in 
their lives, and then the feelings they have about themselves 
after they hear it, so I really--I was thinking not so much 
about racism as sexism and how it--and so I guess I want to ask 
the artists first, when you-well, I guess especially Mr. Crump, 
when you sing these words which I assume--and I don't know 
them--do use the ``H'' word and the ``B'' word, do you think 
about the women who may be listening to this and what do you 
think about that?
    Mr. Crump. I am going to be very honest with you. Last year 
I went through the worst depression that--I mean, I can't 
describe it. And during that depression, I had the money, I had 
the cars, but in this depression I was wondering if I was doing 
my people more harm, and I went to a preacher that had 30 
people in his congregation and then I went to a preacher in St. 
Louis who had 5,000 people in his congregation, and it was 
funny because when the congregation went away, both of them 
said the same thing. They pulled me to the side and they said 
boy, keep rapping. They said yes, there are some negative 
things that come out the words that you say but you are from a 
state of pain, you are coming from pain. My mother told me 
once, she said Levell, she said if you close the door on your 
hand regardless of what anybody say, nine times out of 10, and 
excuse me, you are going to say ``s * * *'' When you slam your 
door, you may not say it in here but when you are at home, that 
is what you are going to say. If it describes the pain that our 
people are going through, and the truth, if we stop talking 
about it, the dialog stops.
    Ms. Schakowsky. I guess I am not talking about the pain 
that you feel but is there any sense of a pain that you may 
inflict by putting down women through your music?
    Mr. Crump. When we go to McDonald's, do we think about the 
pain that we inflict making the United States unhealthy? 
Everything that we do as Americans has some kind of consequence 
to it.
    Ms. Schakowsky. But----
    Mr. Crump. And what I would say is, if a parent--like my 
mother honestly told me when I was growing up in Mississippi, 
and I am going to be honest with you, they still call us n* * * 
* * in Mississippi. So my mother and my grandmother made sure 
they told me every day that I was beautiful. So when people ask 
me did I see right through them in Mississippi and maybe I was 
blinded because of my parents. My parents made me feel so 
beautiful that maybe yes, it was working. I thought it was. But 
I did have those parents there to teach me then. So in me 
saying that and what you also have to understand because we do 
come from different cultures and I had this in my speech and I 
skipped over it for time, but I said that the intent and spirit 
of the word ``n * * * * *'' or ``b * * * *'' in rap music does 
not even remotely carry the same meaning nor historical intent, 
and attempting to censor the word that music depicts be 
camaraderie is outrageous. In saying that, you may hear us say 
the word ``n * * * * *'' and the word ``b * * * *'' and in some 
situations, I will admit, it is meant in a negative way because 
regardless of whether we admit it or not, those type of people 
do exist in society and we are describing a certain type of 
person, and we must admit that they do exist. But in most 
cases, it is a form of camaraderie, and when people hear it 
from the outside, then they are like, they are so mean to each 
other, but it don't mean the same thing.
    Ms. Schakowsky. Dr. Dyson, would you comment on that? I am 
willing to acknowledge that maybe in some ways I don't get it 
but when I hear these words I feel like women are being put 
down in ways that are really bad.
    Mr. Dyson. Yes, absolutely. I think that there is no 
question that the rhetorical contempt that is aimed at women is 
lamentable, should be talked about, should be confronted and 
should be articulated without question. What is interesting is 
that when I said earlier, and I have now a chance to explicate 
it a bit, is that the virtue, if we can call it that, of hip 
hop is that you don't really have to guess. If there is lethal 
viewpoint expressed against women, which we should oppose, 
which we should talk about, which we should explore, which we 
should explain, which we should get at the root of----
    Ms. Schakowsky. Or justify? I mean----
    Mr. Dyson. No, not justify. I mean, you can----
    Ms. Schakowsky. I feel like I am----
    Mr. Dyson. There is no justification in my mind for it but 
what is interesting is that we talked about quarantining the 
crazy, the hip hop. There are ways in which polite society 
reinforces negative values toward women but they don't call 
them b * * * *, ho, skeaze or slut, chicken head, 'hood rat. I 
am not suggesting that b * * * *, ho, skeaze, 'hood rat and 
chicken head are not offensive. They are profoundly offensive. 
What is interesting is that but if we take moral comfort in our 
heart, we have now isolated the strain of virulent misogyny in 
hip hop and therefore we have gotten at the root of it, no, we 
have gotten a powerful manifestation of it that needs to be 
dealt with. But what we have done at the same time is avoid the 
way in which sentiments expressed against women are pervasive 
in the society. This is why I mentioned--and I love the black 
church. I am an ordained Baptist minister. I feel about the 
black church the way Robert McAfee Brown said he felt about the 
church. If it wasn't for the--it is like Noah's ark. If it 
wasn't for the storm on the outside, you couldn't stand the 
stink on the inside. So the church is an institution that deals 
with the funkiness but it has its own kind of funkiness. Now, I 
am not suggesting that there is a parallel between the 
virulent, degrading emphasis upon women's bodies in hip hop and 
what goes on in church but I am saying this: that if you are 75 
percent of an institution, that you can do everything but run 
and your money supports it, you are essentially an 
ecclesiastical whore or a theological b * * * * at that level 
without the explicit expression and articulation. That doesn't 
justify it. I am not a person who is trying to justify 
expressions of degradation against women at any level. Having 
said that, I also know that what Mr. Banner said is interesting 
in this sense. When you use the word ``b * * * *,'' many women 
use the word ``b * * * *'' in and among themselves. Men don't 
have the same register of access to that word that women do 
except in hip hop, it does happen. See, there is not parallel. 
Black men using the ``N'' word is different than men using the 
``B'' word because now you are dealing with women who are being 
degraded by your emphasis, and no matter how cool or down you 
are as a black man, the ``B'' word means something that is 
virulent and vicious and problematic, but at the same time, you 
have men calling each other ``b * * * *'' so that means that 
there is some terminological slippage going on there.
    Ms. Schakowsky. I am looking forward----
    Mr. Dyson. It is not as simple as it can be.
    Ms. Schakowsky. I am looking forward to hearing from some 
women on that point.
    Mr. Dyson. Oh, absolutely. But I am not--that is what I am 
saying. I am not defending the vehement denunciation of women 
at all. I don't in any way concede that. I am simply saying 
however, that if you ban the ``B'' word all together, you don't 
even hear Queen Latifah saying ``don't you call me a b * * * * 
or a ho'' and I am saying that there are women who find that 
degrading and there are many men who find the ``B'' word 
degrading as well, and I think that is what we have to put 
forth.
    Ms. Schakowsky. I was just asking permission of the 
chairman if briefly Mr. Miller could respond.
    Mr. Miller. Yes. I just think that we--as people that come 
from the street, you need to be right or you are wrong, and I 
just think right now, like I said, I want to apologize to all 
the women out there, everybody that I did wrong. I was honestly 
wrong and I accept full responsibility. Back in my days, we 
used to fight if you said something bad about somebody's mama, 
and I think my mama is a beautiful black queen. We got to start 
putting that in our work and stop justifying why is it right or 
wrong. It is wrong. I am going to do everything I can--and me, 
I didn't have somebody to pat me on the back and tell me what I 
can do and what I will do. I am making sure my son would not 
do--he has never said a cuss word. He never talked bad about a 
woman. I think if we start growing up and really understanding 
how to take our game to the next level and take action, not 
worry about what we did in the past, right now where are we 
going, and I think most of where we are going right now, the 
change is coming. It is not going to be quick. It is not going 
to happen overnight but people are starting to wake up saying 
you know what, I want something better out of life. When you 
talk about women, because you either have a mother or a sister 
or a woman that you are sleeping with that you would have to 
say you know what, I don't want people talking about them like 
that, I don't want nobody talking about mine like that, and I 
don't want myself and I want to grow up and I am starting right 
now. So I can tell you what I am doing as an individual. I am 
going to take advantage of that and not be a part of doing that 
because it definitely talking about somebody's mama, sister or 
wife. So I am definitely going to do my part and I think we 
shouldn't call women ``B's'' and we should grow up. We did it 
for a while, we didn't know and we learned to understand. We 
need to grow up, and I think that is the most important thing 
that we are going to figure out today if we grow up, we are 
going to be all right.
    Ms. Schakowsky. Thank you.
    Mr. Rush. The Chair now recognizes the gentleman from 
Texas, Mr. Gonzalez, for 5 minutes.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
     Mr. Miller, I think your last response probably captures 
what we are really trying to do here. Legislating, it is almost 
impossible to do anything. I think what the chairman seeks to 
do in this dialog is to raise the consciousness of the 
producers, the distributors, the artists to the influence that 
you have. Now, you are speaking prospectively and into the 
future. I think Mr. Crump was disagreeing with you because his 
body language surely was that he did not agree with your 
statements. So I only can assume that the distributors, the 
producers, the writers, the artists are probably going to 
continue along the same lines. So I just--we all agree on this: 
you influence people.
    Mr. Miller. Exactly.
    Mr. Gonzalez. All right. And I understand that it is 
reflecting a condition in America that is unacceptable, but you 
are presenting it in a vehicle called entertainment.
    Mr. Miller. Yes.
    Mr. Gonzalez. You are trivializing it, and when I say 
``you'' I don't mean you directly. I am talking about a whole 
industry. I am talking about the artist and so on. You 
glamorize lifestyles that you here today are saying should be 
condemned and that young black men should seek and aspire to 
something else, even though they may not have that opportunity.
    Mr. Miller. Yes.
    Mr. Gonzalez. What I don't see though is that in the lyrics 
and in the videos, which is another issue, I don't see that 
suddenly a solution, an answer, a pathway is being described. 
What you are describing, Mr. Crump, is the present state of 
affairs without giving hope to a different world or an out. 
What you do privately I will say, sir, is commendable and 
admirable but I say what you do publicly is viewed by so many 
more people, and influence and impact so many more people by 
your public persona than what you do privately, and I am saying 
that in good faith to you. I guess what I really want to ask 
you all is, is this entertainment?
    And I want to ask Dr. Dyson, for all the young people that 
view these videos and listen to this music, is it really going 
to encourage and lead them to deal with the present situation 
that needs a discussion and needs solution or is it going to 
lead them to your classroom which is a much more legitimate 
forum to have a meaningful debate on this than for us to be 
legislating. That is the real issue here. We are all over the 
map on this. We are trying to say that the music and the lyrics 
reflect a condemnable condition. We all agree on that. My God, 
I mean, we are not going to go back into history or even Mr. 
Rush where we all started in the early days and where we are 
today. Everyone agrees on it. What we are saying is, what are 
we going to do about this entertainment forum that is promoting 
an understanding and is perpetuating a present situation that 
will remain the future because it really does have that kind of 
influence. And I will start with Mr. Crump.
    Mr. Crump. Thank you very much. First of all, one of the 
problems is in most cases you guys don't listen to our music so 
you don't know what I have actually done. My second single--
first of all, my first single was called ``Like a Pimp''--
rugged, rough, this, that and the other. I had prayed before I 
actually got on it. I told God, I said, God, if you give me an 
opportunity to make it out of the 'hood without drugs, without 
having to go to somebody and get fronted some money, that I 
will try to change my life. Right after that I got a deal. I 
did ``Like a Pimp.'' I actually put my career on the line by 
coming out with a song called ``Cadillac on 22.'' We made a 
video and I will quote a half of a verse: ``God, I know that we 
pimp. God, I know that we wrong. God, I know I should talk 
about more in all of my songs. I know these kids are listening. 
I know I am here for a mission but it so hard to get them when 
22 rims are spinning.'' So in me saying that, I put that video 
out. During that same album, I had--I gave $50,000 for 
scholarships. The truth is, I put that music out there. I made 
the effort. My career went down, down, down. When I went back 
to the music that put me on-because what you have to 
understand, people put us on for a certain type of music, and 
for us to get up once we get rich, that is sort of like treason 
to America. You call treason to the same people that put you 
on. What I will say, and this ties in to what she said, it is 
not about music. If you want to talk about degrading women, I 
think it causes more of a problem to have a little bitty girl 
on the sideline with a short skirt jumping up and down cheering 
for a football player running a football with her being half 
naked on the sideline has nothing to do with him running the 
football or beer commercials where women have on bikinis and 
they are selling beer and walking in McDonald's with her 
cleavage open to sell a sandwich. Exactly. I think that is a 
bigger problem. But what I want all of you guys to take home is 
the fact that people know that young black men don't have 
anybody to protect them so we will always put the drug problem, 
the gun problem, the degradation of women on young black men 
because we don't even protect ourselves, and I would say----
    Mr. Gonzalez. Mr. Crump, let me interrupt you 1 second 
because my time is going to be up, and I appreciate where you 
are coming from but what you just said, if people are really 
listening, is, it is the almighty dollar.
    Mr. Crump. Well, it----
    Mr. Gonzalez. Now, wait a minute. I think you went to what 
I think is a more substantive approach, giving young people 
hope, giving them direction, but what you are saying, your 
career was tanking and the only way you went up--now, let me 
tell you that----
    Mr. Crump. But it is all part--it is all a part of my life.
    Mr. Gonzalez. No----
    Mr. Crump. This is all part of my life.
    Mr. Gonzalez. That is the problem.
    Mr. Crump. And what I want you to know is that----
    Mr. Gonzalez. It is you yourself and----
    Mr. Crump [continuing]. is that I made an effort, but the 
truth is, when it comes down to it, regardless of what we want 
to say, if I do not keep myself current, it don't matter how 
many CDs I put out, how much I stand on the corner and talk 
about positivity, nobody will hear it. At least with me being 
put in a position that I am, I am even here and have the 
ability to take up for my people. If I am not current, it don't 
matter no way.
    Mr. Rush. Mr. Crump----
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Mr. Rush. Have you completed your questioning?
    Mr. Gonzalez. Well, I wanted the other members--again, I 
mean, I think what the chairman is attempting to accomplish 
here, and this is a step in the right direction, but we have 
everyone simply saying nothing is going to change, and that is 
the concern, and Mr. Miller and Mr. Dyson----
    Mr. Miller. Well, what I wanted to tell you guys is, like 
the Congressman said, it is definitely--we can't put a 
stereotype on a dollar. I mean, that is why I am here today to 
let us know how important knowledge is over money. Knowledge is 
the most important thing that we can focus on, because if you 
don't have the knowledge, you would never make the money 
anyway. So my thing is with me, and I feel Mr. Banner's 
frustration because I sold 75 million records and then as it 
decreased, people say I wanted to do the right thing. I started 
doing the right thing. They stopped buying my records at a 
minimum, but what I said was, I am growing up, I am maturing, I 
want to do the right thing. It has got to start right now with 
me. I don't care if they don't buy my records because I am 
going to keep doing the right thing. I don't care if they don't 
play my videos. I am going to keep doing it because I 
understand.
     Somebody has to take a stand for what we are about to 
build and I know we are focusing on what is right now but 
something has to stop and it has to start right today to say, 
you know what, we are not focusing on the dollar no more, we 
are educating, and something is more important than music. We 
don't need to focus on the music. We have got to teach these 
kids how to get into other avenues. I am going to challenge the 
networks and say you know what, we are going to put a financial 
show and show our kids in these communities and see what 
happens because I think that is the most important thing. We 
have to teach them there are other avenues besides music, and 
when we say we can make other avenues besides music, we can 
make money financially doing finally literacy shows. Our kids 
is going to change and say you know what, I don't care if they 
don't play my music; if I got to do the right thing. I have to 
make the right context of what he said about Tupac. Think about 
Tupac's songs. Tupac had a lot of songs what he was going 
through but he also had the dear mama's, the uplifting songs 
that really stuck to our community and I think if we put more 
songs out like that, we are going to be able to change our 
communities and we have got to teach these kids how to make 
money besides music. When we do that, the music is going to 
change. And so I am going to challenge all these networks that 
came and all these records companies, let us do some financial 
shows because one thing about athletes and African-Americans, 
we always lose the first go-round so we have that frustration. 
Every athlete I know has cash problems the first go-round or 
some type of financial problems so they are angry and they are 
waiting for their second contract. We got to stop in the music 
business waiting for that second contract so we can make some 
changes. We have got to teach our kids and we got to prepare 
them and grow them to be financially successful so they don't 
have to look back and do the same thing they did back in the 
past, and that is the only thing, Lord bless me, saying that go 
seek that knowledge, and I want these kids now--I wrote a 
book--pick up a book. Understand that we start reading and stop 
just worrying about the music. The music is going to sound 
better to us because now we have the knowledge.
    Mr. Dyson. Can I just briefly respond? Tonight if you look 
at BET, a two-part series, I challenge the rapper Nelly and TI 
when Nelly swiped a credit card down the woman's gluteus 
maximus and I said we don't reduce your career to that, that's 
true, let us be honest because like Mr. Banner, he is a 
philanthropist but I said to me, when I saw the crass 
commercialization of the woman's body relating back to slavery 
where they were sold on auction blocks, and as a result hip hop 
has simply updated the stereotype that is deeply entrenched in 
the American collective unconscious. And TI said--the other 
rapper said it is really that deep. I said yes, you are a 
rapper, you do the lyrics. I am an intellectual, I do the 
analysis. We both can come together. So I don't justify the 
visual injustice to which black women in particular are subject 
in terms of--and I think the images are even worse so called in 
terms of an influence than the lyrics themselves because now 
you are getting past the conscious mind and the images 
themselves create a universe of expectations and the like but 
at the same time I think that we have to be much more complex. 
Again, to scapegoat one segment of the society without looking 
at how we all participate would be wrong.
    Mr. Rush. Thank you. The gentleman from New York is 
recognized.
    Mr. Towns. Mr. Chairman, I am just going to ask one 
question and then I have to leave. The question is, do you 
think it is possible to be a positive role model and express 
yourself with explicit lyrics at the same time? Just go right 
down the line. Go ahead.
    Mr. Miller. Well, I always said to myself that I come from 
the streets and I was able to educate myself and clean my life 
up. I always say to myself--and that is just me--I said I could 
be an inspiration and I could teach my son to be a role model. 
And I think we can't point the finger at hip hop and we can't 
point the finger at David Banner and me. We are all speaking 
the same thing. We have to grow to a certain level. Right now 
without David Banner being where he is at, because I was there 
one day, I couldn't get to where I am right now. I just think 
that we got to stop stereotyping the whole community because we 
got to put some balance out there right now. That is the only 
reason I am here. I understand where he is at. He understands 
where I am at. What I am here to put balance and say that we 
can do some right and move on and still be successful. But I 
just think that yes, maybe I can be a role model and I come 
from the streets and I come from that type of music and I said 
I am sorry but what I am going to do, I am going to make my 
kids be role models. My son is not going to do that type of 
music because I understand that we are destroying our 
community. I understand that. That is me. Until everybody gets 
to that level and see that, maybe we don't understand. I went 
to 12 funerals so I know, I seen my cousin. It is a lack of 
education. It ain't the music. Everybody is a cycle that I am 
trying to break and if I can break that cycle to show kids put 
some balance out there, we are going to get to where we need to 
go at. And none of it is wrong. We all have the freedom of 
speech, and I want people out there to know, if you make any 
type of music, if you get to--it is like the guy on the street. 
You say man, I am out here hustling but if I live tomorrow, I 
want to try to get into something else to better myself and 
that is the message I want to give to our kids, what about 
tomorrow. What are we going to do if we survive? And we put the 
tattoos all over our neck. We can't go into corporate America. 
We got to understand, it might be tomorrow and that is when I 
woke up with having a child. I have a son. I want to be there 
for him. I want to be there for my kids. I want to be there for 
my family and I don't want to be incarcerated, I don't want to 
be dead. So the kids out there need to get that message too. 
They have parental advisory stickers on the records that are 
parental advisory but I just think if we put a balance and make 
it work, we will be able to get to where we need to be at.
    Mr. Crump. It is amazing to me that Ludicris can lose his 
Pepsi deal and they go and get the Osbornes and that is OK. The 
truth is, it is only music. Yes, it has an effect on children. 
Yes, it can influence some people who have that deficit in 
their personality in the first place. I had--the black caucus 
gave me an award for my philanthropy and there was a big 
uprising in Mississippi and it was strange to me because I told 
some of the city officials in Mississippi, I said me being a 
so-called gangsta rapper has nothing to do with the fact that I 
gave away millions of dollars. This is not against the law for 
me to speak my mind. So why is it that when young black men do 
something and Martin Scorcese can make movies that talk about b 
* * * * * * and n * * * * * * and it is fine and he can be a 
role model. The Osbornes can do the same thing that Ludicris 
can do but he get his Pepsi deal taken away. Same thing with 
Don Imus. We are here in front of Congress but regardless, Don 
Imus got that $1 million contract to go on to his next business 
deal. The truth is, we have been demonized since day 1. Of 
course I can be a role model. Look at Ice Cube. He is one of 
the most powerful guys in the music industry. What if we were 
to stop him in the NWA days? We wouldn't have given him the 
responsibility to grow. It is the process that makes us men. 
Yes, there may be some things that we are not doing right but 
Snoop Dogg says the most powerful thing: I wonder why people 
want to get us in front of Congress and talk to us, get in 
front of the TV and talk to us. Why aren't they men and women 
enough to pull us to the side and say maybe you didn't know no 
better, maybe your mother was on crack, maybe you only saw your 
mother being disrespected and his mother disrespected that 
mother and it went on and it went on. Nobody comes to us and 
talks to us. I talk to Nelly and that video that you are 
talking about, I produced the song to, and regardless of--yes, 
like Nelly says, that was an adult video for adult people and 
it is just like everything that we do is always our fault. It 
is only music.
    Mr. Dyson. I think that, to be very brief, LBJ cussed like 
a sailor. Richard Nixon, they got the tapes, him cussing like a 
man going out of style. They are still presidents of the United 
States. So yes, to be quite simplistic, obviously he can be a 
role model. Look at Richard Pryor who used cursing in a very 
creative and interesting fashion and yet who spoke about some 
of the most powerful social problems that prevailed in American 
culture. Here is what we have to come to grips with. To be 
positive is not itself a virtue if it is not accompanied by 
serious, powerful art that forces us to reflect upon our 
society. All art should not make you feel good.
    Some art should get in your face. Some art should be 
irreverent. The point and purpose of art is not simply to make 
you feel warm and fuzzy. Some art ought to make you change your 
bigoted ways. Maybe you are a sexist. Some art can make you 
think about it. Maybe you are a racist. Some art can make you 
think about it. Some art then perpetuates the very legacy that 
it claims to want to resist. Should we be critical of it? 
Absolutely right. But I think if we are looking for either or, 
black or white answers, that is not it. I think that yes, as 
Kanye West, look at Kanye West who beat 50 Cent in this recent 
scrimmage for hip hop supremacy. That is a mark of the maturity 
and the evolution of hip hop whereas 50 Cent ``I don't know 
what you heard about me but you can't get a dollar out of me'' 
was rejected in favor of a guy singing about Jesus, but even in 
a song singing about Jesus, right after that says ``If this 
manager keeps insulting me, I will be insulting him and after I 
mess the manager up, I am going to shorten the cash register 
up.'' Even after he is singing ``One glad morning, when this 
life is over, I will fly away.''
    That is the convergence of complex that manifests our 
conflicted lives and I think that hip hop at its best, again, 
both reflects the pathology that needs to be rooted out and 
provides an answer through a scalpel of rhetoric to be able to 
dig into the body of the problem and seek what the reality is, 
and I think at its best it does that, and I think that yes, you 
can be a positive, uplifting figure and not say anything and 
you can be a so-called degraded figure who is not positive and 
say something profound and intelligent, and I think that what 
we have to do is to push forward self-criticism. Misogyny, 
sexism, homophobia, racism and the like need to be dealt with, 
articulated and wrestled with regardless of what color they 
come in, regardless of what body they come in. But at the same 
time, as Mr. Banner is suggesting, we must not somehow 
quarantine the problem to young black people who when they 
manifest the pathology are seen as its origins. They are 
certainly at the worst seen as its continuation.
    Mr. Towns. Let me thank all of you for your comments, and 
let me thank you, Mr. Chairman, and of course, I really feel 
that this discussion has been a very good one, and Mr. 
Chairman, I look forward to continuing to work with you in this 
regard.
    Thank you. I yield back.
    Mr. Rush. The gentleman from Massachusetts is recognized.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Mr. Crump, there is a lot of sickness in American society. 
This Congress has a lot of work to do. Washington, DC, has a 
lot of work to do. We have No Child Left Behind but the money 
isn't there. We are debating right now making sure that all 
children get healthcare but the President is saying he will 
veto that legislation. We have a lot of work to do in our 
country, and here in Washington, in order to make sure that 
every child in America is given the opportunity they need, 
education, healthcare, protection in the community, there is no 
debate over that. And I am a liberal Democrat from 
Massachusetts so on those things, that is what I come here to 
do every day, and we are fighting to make that possible, and 
the work that you do for Katrina and books, that is great. It 
really is. I guess the question I would ask you is, how can you 
work to have a positive message? Because they have to hear a 
positive message from Congress. There are people here fighting 
to get that positive message out too. We are not successful in 
the short run and we have to continue to fight. What can you 
do? What you do in Katrina unfortunately, what you do and some 
of these other things, kids in America don't hear about that. 
They should but they don't. All they hear is your music. So 
what can you do working with those of us here who are trying to 
get out a positive message, to try to put positive programs 
out, what can you do in your music to get out the positive 
message, to accent that? What can you do?
    Mr. Crump. I actually call my music a Bible with a Playboy 
cover on it, and the one thing that I disagree with you about 
is, kids know what I do because I make sure that I get on BET, 
I make sure that I get on MTV, and as a matter of fact, one of 
the reasons why my last album probably didn't reach the place 
that it was supposed to reach even though I had one of the 
biggest singles in the world is because I didn't spend time 
promoting my album. I spent time promoting what was going on in 
Mississippi and the fact that people in Mississippi were being 
ignored. I think what happened, as a matter of fact, and I 
think if you talk to people in the crowd, people look at me as 
more of an activist than they do as a rapper and it sort of 
hurts my pocket but that is fine.
    Mr. Markey. Do you think that your music is consistent with 
or undermining of the message you are sending----
    Mr. Crump. Well, actually my music----
    Mr. Markey. Is the music that you put out there consistent 
with or undermining of the message you are sending on Katrina?
    Mr. Crump. My message is very consistent. Actually, like I 
said, I call my music a Bible with a Playboy cover. I start 
here and I end in a different place, and what I will say real 
quick, I think part of the problem I see in Congress right here 
today. I look at the fact that we are debating about something 
that is so very important in our society but our parents are 
gone. I am looking at the seats. Our parents are gone. And as 
more questions are being asked as important as people say that 
this is, our parents are gone. So we are left here again. 
Probably by the end of this day there is probably going to be 
more of us than it will be of you guys. So once again we are 
here to fend for ourselves again.
    Mr. Markey. Let me say this to you. Every time one of your 
video plays, there is not a video playing of your work in 
Katrina. There is not a video playing of this other message. 
All there is that one video and that is what the young people 
in America see. What can you do in your videos, in your music 
that helps to propel this more positive message out there at 
the same time, this Katrina message? What can you do?
    Mr. Crump. It is funny that you say that because people 
always say that my videos are confusing because I always try to 
put something in my videos that I should probably spend more 
time being focused on the music at hand. What I will say is----
    Mr. Markey. Can you----
    Mr. Crump. Can I ask you a question?
    Mr. Markey. Can you do more?
    Mr. Crump. Yes, I can do more.
    Mr. Markey. Let me ask you, will you do more?
    Mr. Crump. No, I am doing more. I think it is better for me 
to become as big as 50 Cent so instead of asking the Red Cross 
to do our 'hoods right and which the Red Cross did not do our 
'hoods right, I can do it myself with the finances that I have 
made, and what I will say, I am--and I have to admit this. 
After I talked it over with the preachers, I am like Stephen 
King. I do better at horror music. Horror music is what I do, 
and you don't ask Will Smith to do the same--well, why are you 
acting, Will Smith? Can you please make sure that you put some 
kind of message in your movie while you are acting and you are 
being a killer? We are musicians.
    Mr. Markey. Look, we here in Washington have work to do. I 
come to work every single day trying to do better for the 
people that you are sending your message to. My question to you 
is, are you willing to try to do better in communicating a 
message that is more positive?
    Mr. Crump. What I will say, I am willing to work harder to 
change the conditions in which I come out of so maybe I won't 
have to talk about it. Maybe if we spent more time in New 
Orleans, and being the fact that Mississippi is the most 
impoverished State in the Union, maybe if my conditions change 
I would have different things to talk about.
    Mr. Markey. Can you get better?
    Mr. Crump. I mean, I can get better if the situations get 
better. Can we make the situations better? I am only speaking 
about what I see in my neighborhood.
    Mr. Markey. Well----
    Mr. Crump. Change the situation in my neighborhood and 
maybe I would have something----
    Mr. Markey. Are you working to----
    Mr. Crump. And I am not being combative. It is just painful 
to me that we go through situations as African-Americans and it 
is like we--first of all, we were brung here as slaves who were 
thrown in situations and now we are talking about the stuff 
that we see and it is like--it is a big problem. Everything 
that--there is nothing that you can look at in my music and say 
that it doesn't exist in my community. That is all I am asking 
is let us really address the real problem because the truth is, 
everyone will point a finger from that perspective. We can 
probably trace something back to each and every family that 
helped affect the music that I am talking about.
    Mr. Markey. Children don't always see it every day the way 
that you do, and the question that you have and that I think we 
all have to do and Washington has a responsibility is to create 
a sense that there is hope, that there is a real to believe, 
that you can be optimistic, that it doesn't all have to be 
negative, and that is all I am asking you to do is to try to in 
your message, in your power to communicate that sense of 
optimism and that there are people who are working to make 
things better. Because you are looking at people here who work 
every single day to do it, from our chairman through most of 
the Members here. Now, we are not always successful because 
there is a White House there but we need through you, through 
your incredible power, because children don't hear the rest of 
this, for you to play a role too.
    Mr. Crump. And I will ask you to do more research on me and 
you will see that I am doing it and instead of listening to the 
curse words, just listen to the fact that we are asking for 
help.
    Mr. Rush. We want to thank you very much. We are going to 
conclude this line of questioning and we are going to have to 
conclude this testimony because we do have another panel that 
has been just so patient. They have been here most of the day. 
Mr. Miller----
    Mr. Miller. Yes, I just want to elaborate on that. I think 
what we have to get back to, I think where Mr. Banner is right 
now where I understand what exactly is going on right now. We 
have to understand that he has to realize what he is doing is 
personal like in his views and what he does when he is in the 
media. I see what the Congressman is saying. What exactly we do 
in the media, it will affect the lives of other people so we 
got to think about it, and that is why I say, education and 
knowledge is two different things. I mean, we could be educated 
but when we get the knowledge and understand that, we will 
really be able to take our game to the next level, and that is 
what I going to do. The kids out there right now really need 
somebody to focus on the knowledge and what we can do to make 
those changes because we do need that balance. But also there 
is the media. We have to stop glorifying the negative stuff and 
glorifying more positive things. Let us glorify the positive 
people in hip hop and the kids are going to want to change.
    But if we constantly keep glorifying the negative stuff--
and also we are in a panic mode right now. I want to leave you 
all with this, that we are in a panic. I have to figure out how 
to take my game to the next level because I want to help take 
David and everybody else around me, to take us out of that 
panic mode because all we got right now is just the way we eat, 
just the way we feed our kids. I want to take hip hop to Wall 
Street to understand how to put a balance so we don't have to 
depend--and we really can say, understand that whatever we want 
but knowing that it affects somebody and when we get to that 
level of the game, and understand we are not talking about 
building a union and start building benefits for hip hop, then 
we can control what these kids are saying. I want to give these 
kids some type of--I want to be like the commissioner, like the 
NBA has.
     Let us build a league for hip hop so now we could give 
benefits, child care, make sure--because these kids are great. 
They come from a great situation but we are not going to do 
that because these guys are not going to sacrifice their 
paychecks and their jobs right now unless we build some type of 
financial literacy where they know that we change and it is not 
just about the music. It is about something bigger. It is about 
our kids. It is about them not being the way we are, and that 
is what I am going to take--I will take full responsibility 
right now for hip hop saying that I am a big part of the 
problem. I say that I am the father of this. I sold 75 million 
records and I wish I had somebody to wake me up in my prime to 
where now I could get to one of these kids like Kanye West 
saying people are watching what you do. If you could take your 
game to the next level, you just took out 50 Cent and showed 
that you could be something bigger. Now if you think about what 
you sell this next record or the next person that becomes 
powerful with a big record like Chamillionaire already started 
to clean his lyrics up and I am not saying change the content 
of the freedom of speech, I am just saying take out the 
negative stuff that they won't play on the radio or TV anyway 
and we can get some of these endorsement deals, we can get our 
product into, we can be a part of the diversity programs. If 
you look at like Wal-Mart, Target, these people got diversity 
that we are not involved in because we are stereotyped by the 
music. So it got to start today and I will be a part of that 
mission. I will be out there fighting and I will be out there 
making sure that we think about what we say and I can help some 
of my colleagues around me and stay behind the scenes. We have 
to get--like David said, we have to get what we need behind the 
scenes and talk about it and--when those guys left, the first 
panel, they was communicating. We are at each other's throats 
and we don't need to be there anymore because we are empowering 
these communities right now.
    Mr. Rush. Thank you very much. We thank this panel. We 
thank you so much for your time and for your testimony. You 
have really done the entire Nation quite an excellent service. 
You really provided some insight into your art form and insight 
into your business. We thank you so very much. And now we will 
ask the next panel to be please be seated. Thank you so very 
much.
    There is a vote that is going on on the floor. There are 
three votes, at least three votes, so we will recess until the 
vote is completed and then we will return, but I am going to 
introduce the panel and possibly get to at least one opening 
statement before we have to recess.
    Our first panelist on the third panel is Tracy Danine 
Sharpley-Whiting. She is a Ph.D. professor at Vanderbilt 
University. Professor Sharpley-Whiting is the author of a book 
entitled ``Pimps Up, Hos Down: Hip Hop's Hold on Young Black 
Women,'' and she is a leading academic on, among other things, 
feminists and critical race theory.
    Our next panelist is Mr. Andrew Rojecki, who is also a 
Ph.D. and associate professor at the University of Illinois-
Chicago. Professor Rojecki is the co-author of the book ``The 
Black Image and the White Mind'' and has researched how media 
portrayals of African-Americans reinforce stereotypes in the 
minds of white Americans.
    Faye Williams, also a Ph.D., is the chair of the National 
Congress of Black Women. Dr. Williams is a valiant fighter, 
always on the front lines, a remarkable woman. She continues 
the legacy of the former NCBW chairwoman, the late Hon. Shirley 
Chisholm, and the late Hon. C. Delores Tucker. She has targeted 
misogyny in hip hop music as an area of much needed reform.
    Lisa Fager is the president of Industry Ears. Ms. Fager is 
a leading watchdog of commercial hip hop and has long sought to 
reform hip hop and return it to its artistic roots as an 
empowering art form for young people.
    And our last witness is Ms. Karin Dill, also a Ph.D. She is 
a professor at Lenoir-Rhyne College. Professor Dill is a 
psychologist who specializes in gender stereotypes and misogyny 
as perpetrated and reinforced by the popular media.
    Again, in the interest of time, I am going to ask our first 
witness, Dr. Whiting, would you please take 5 minutes for a an 
opening statement?

  STATEMENT OF TRACY SHARPLEY-WHITING, VANDERBILT UNIVERSITY, 
                         NASHVILLE, TN

    Ms. Sharpley-Whiting. Mr. Chairman, Ranking Member Stearns 
and other members of the subcommittee, thank you for inviting 
me here today to provide testimony on this very important 
topic. It is a privilege to testify before the Subcommittee on 
Commerce, Trade, and Consumer Protection.
    Today, demeaning, degrading and objectifying black women 
are undeniably profitable pastimes from the cross-dressing male 
a la comedian Eddie Murphy's recent turn in the $50 million-
generating Hollywood vehicle ``Norbit,'' to the Don Imus 
``nappy-headed hos'' kerfuffle, to Rush Limbaugh's referring to 
the accuser in the Duke lacrosse rape case as a ``ho,'' to the 
``we don't love them hos'' of much of commercial hip hop, a 
culture of disrespect, with black women on the receiving end, 
packaged as entertainment permeates American popular culture.
    There are iPod commercials that allude to strip club 
culture featuring an abundantly rumped black woman holding onto 
a pole on a public bus. And then there is the Quentin Tarantino 
ode to alpha females in the second film of the double feature 
``Grindhouse'' where the lone black female character is the 
only one to utter ad nauseum an expletive that describes a 
female dog. Indeed, such antics have risen to the level of art, 
whereby entertainers believe they should receive a ``free 
pass'' because they are merely performing their craft, whether 
it be crude, curmudgeonly shock jocks or grill-wearing pimped-
out rap artists.
    Although most Americans associate this culture of 
disrespect with hip hop culture, ironically such 
characterizations find their roots in our Nation's beginnings. 
In 1781, a mere 5 years after penning that hallowed document of 
the new Nation, the Declaration of Independence, which prized 
freedom while sanctioning perpetual bondage, our Founding 
Father Thomas Jefferson put his sights on writing on his 
beloved State of Virginia. In between pages on flora and fauna 
in ``Notes on the State of Virginia,'' Jefferson delivered a 
prophesy about race-based slavery in the United States. Of 
slavery, he would write

    It is a great political and moral evil

     and that he

    trembled for my country when I reflect that God is just, 
that His justice cannot sleep forever . . . Deep-rooted 
prejudices entertained by whites, 10,000 recollections, by the 
blacks, of the injuries they have sustained will . . . divide 
us into parties . . . end[ing] in the extermination of one or 
the other races.

     Of blacks in general, he concluded that, and I quote

    Whether originally a distinct race, or made distinct by 
time and circumstance, [they] are inferior to the whites in the 
endowments both of body and mind.

     And of black women, he suggested that they were more 
``ardent'' and preferred ``uniformly'' by the male 
``Oranootan'' over females of ``his own species.'' There were 
no orangutans to be found in Virginia to substantiate such an 
observation. This fact was of little consequence to Thomas 
Jefferson.
    A deeply complicated and conflicted man, Jefferson, as is 
widely acknowledged, had a prolonged intimate relationship with 
the young slave girl, Sally Hemmings. With ``Notes on the State 
of Virginia,'' our Nation's third president sealed an odious 
radical-sexual contract within our national fabric regarding 
black women. Jefferson's paradox has had an enduring legacy in 
the United States. Against this unequivocal founding doctrine, 
black women have continuously been struggling both in the 
courts of law and public opinion, in our very own communities, 
and as of late, on American's airwaves.
    From slave narratives like Harriet Jacobs' ``Incidents in 
the Life of a Slave Girl'' to post-emancipation writings such 
as Anna Julia Cooper's ``A Voice from the South, by a Woman 
from the South,'' black women have been steadfast in decrying 
attacks on their character and morality. When after the 
president of the Missouri Press Association wrote an open 
letter addressed to an English woman attempting to cast 
aspersions on the credibility of anti-lynching crusader Ida B. 
Wells, he made plain that black women had ``no sense of 
virtue'' and ``character''. In response, the black women's club 
movement organized in July 1895 to defend their name.
    Despite our strides in every area of American life, nearly 
2 million college-educated black women out-earning their white 
and Latina counterparts, 1 in 4 of us occupies managerial or 
professional positions, the profits to be had at our expense 
are far greater than the cost of caricaturing our personhood.
     Our own complicity in our objectification requires some 
scrutiny as well. Consumer culture seduces many of us into 
selling ourselves short in the marketplace of ideas and 
desires. The range of our successes and the diversity of our 
lives and career paths have been congealed in the mainstream 
media into video vixens, thanks to Karrine Steffans' best-
selling ``Confessions of a Video Vixen'' or shake dance's given 
the frenzy surrounding the Duke rape case and hip hop culture's 
collaboration with the multibillion-dollar adult entertainment 
industry.
     That sexism and misogyny appear to be working overtime in 
America to box us into these very narrow depictions of black 
womanhood are part and parcel of the Jeffersonian contract. Hip 
hop culture certainly is certainly waist-deep in the muck of 
this race-gender chauvinism. Male feelings of displacement in a 
perceived topsy-turvy female-dominated world, increased 
competition for women and girls in every facet of American life 
contribute to black male on black female gender drive-bys, and 
black women's seeming resiliency, despite America's continuing 
race and gender biases, our strengths are flung back at us and 
condensed into cliches such as the late New York Senator Daniel 
Patrick Moynihan's ``emasculating superwomen,'' or better 
still, that ``B'' word.
     Though America drinks to the bursting from that 
Jeffersonian well, it is imperative that women become 
politically and socially conscious about the choices we make 
and the opportunities we take. As a writer and scholar and 
member of the so-called ``hip hop generation,'' I find aspects 
of American popular culture with its global reach and 
entrepreneurial and innovative spirit deeply gratifying and 
simultaneously painfully disturbing. For what has become 
abundantly clear that it is not so much that we women don't 
count; we do in obviously various insidious ways. But we also 
don't add up to much, certainly not more than the profits, in 
the billions, to be had at our expense.
    Mr. Chairman, thank you again for the opportunity to 
testify before this subcommittee today, and I look forward to 
answering any questions you and others may have of me.
    [The prepared statement of Ms. Sharpley-Whiting follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. We want to thank you. We have to recess to go to 
vote so we will recess until the conclusion of the last vote 
and then we will come back. I want to thank you so much.
    [Recess.]
    Mr. Rush. We will ask our second panelists to give us 5 
minutes of opening statements. Dr. Rojecki, am I pronouncing 
that right?
    Mr. Rojecki. Yes.
    Mr. Rush. Please, 5 minutes, if you will. You have 5 
minutes for opening statements.

 STATEMENT OF ANDREW ROJECKI, UNIVERSITY OF ILLINOIS-CHICAGO, 
                          CHICAGO, IL

    Mr. Rojecki. On behalf of my students and the faculty at 
the University of Illinois at Chicago, I would like to thank 
the Chair and the panel for inviting my testimony.
    The Don Imus affair is the most recent example of a pattern 
in how Americans think about race. The civil rights movement of 
the 1960s not only changed the legal framework for race issues, 
it also changed the way Americans spoke in public about race. 
In terms of the social sciences, the norms had changed. It 
became socially unacceptable for white Americans to give voice 
to black stereotypes in anger or in jest. By the early 1990s, 
the term ``political correctness'' had been coined to make fun 
of an exaggerated sensitivity to personal feelings attached to 
group membership. The concept of political correctness is less 
important for naming a hypocritical repression of speech than 
for identifying an incomplete transformation. Specifically, the 
change in public norms has not been accompanied by a change in 
private attitudes. Political correctness could not exist absent 
the tension between what is expected and what is believed or 
felt. For example, large majorities of whites say that blacks 
should have equal opportunity, but major American cities remain 
highly segregated. Black children continue to get inferior 
education and medical care and black unemployment remains twice 
as high as white. How do whites explain these differences? In 
the early 1940s, surveys found that majorities of whites 
explained lower black achievement as evidence of intellectual 
inferiority. Today only a small minority claim that as true. 
The shift in perception from innate biological differences to 
social injustice fueled the civil rights movement. 
Unfortunately, it also gave whites license to discount 
discrimination as an explanation for the continuing difference 
between black and white success.
    Majorities of whites now believe that the lesser position 
of African-Americans is due to moral failing or flaws in black 
culture itself. In our own research on the black image in the 
white mind, whites we interviewed spontaneously referred to 
media images of sexuality and violence that supported their 
negative views. These images substituted for the absence of 
sustained contact between whites and blacks, inevitable in a 
society that remains segregated. This is especially true among 
those persons whom we call the ambivalent majority, those 
whites who are sympathetic to aspirations of black Americans 
but who are influenced by images that highlight 
irresponsibility and violence. In short, majorities of white 
Americans have good intentions but not the subtle inner 
convictions to put their ideals into practice, perhaps because 
the forms of discrimination routinely experienced by African-
Americans have become less visible.
    Social psychologists who study social cognition, how people 
see and process the social world, explain this ambivalence by 
invoking the premise that we need simplified mental 
representations, they call them schemata, to deal with reality. 
Schemata are simple mental shortcuts that let us economize on 
brain power. They also distort our perceptions. So powerful are 
these mental pictures that they may be activated without 
conscious control or awareness, a phenomenon reported by 
research in broad range of contexts. For example, whites take 
less time to associate traits such as intelligence and kindness 
for a white face than for a black face because those traits are 
consistent with their mental representations of whites. These 
experimental results have important real-world implications.
     In one study, researchers sent resumes, identical resumes 
except for stereotypically white or black names, to employers 
in Chicago and Boston and found that Greg and Emily were 50 
percent more likely to get call-blacks than Jamal and Lakisha. 
In another experiment, an identical test was given to black and 
white college students. In one condition students were told the 
test would assess intelligence and the other students were told 
the test would measure a problem-solving task. Blacks and 
whites performed identically in the latter condition but blacks 
did more poorly when they were told the test measured 
intelligence. In other words, blacks may unconsciously hold the 
same stereotypes as whites and behave accordingly. More 
alarmingly, experimental research shows that police officers 
both white and black are more likely to shoot at black suspects 
than at white suspects.
    There is a way out of the unconscious attitude bind: 
consciously resist the stereotype. Research across a range of 
disciplines converges on the same result: lessen the power of 
the stereotype by bringing it out of the unconscious dark and 
into the conscious light. Thus, the Willie Horton ad lost much 
of its effectiveness when Jesse Jackson made a public issue of 
its malicious intent. Social psychologists find that whites who 
harbor unconscious stereotypes are able to overcome their 
influence when they are made aware of them and they have 
sufficient time to process those mental images. Thus, medical 
researchers who do brain scan imaging find that the centers of 
the limbic system, what we call the lizard brain, are 
stimulated even among unprejudiced whites when the stimulus is 
brief, 30 milliseconds of a black face. Lengthen the stimulus 
to half a second and the power of that stereotype is resisted 
by the conscious prefrontal cortex. This explains in part why 
police officers who have little time to react are more likely 
to be influenced by unconscious attitudes.
    On the issue of hip hop music, we know that Don Imus did 
not coin the phrase he used to describe the Rutgers women's 
basketball team. It is also clear that he would have not used 
that phrase had he thought about it for a second or two. That 
image was planted in his mind through a complex sequence of 
events that began in a culture of poverty that thrives in the 
black ghettoes of America. Hip hop is a musical expression of a 
segment of African-Americans who grew up under conditions of 
privation. The daily lives of African-Americans have inspired a 
range of musical innovation and artistic expression: jazz, the 
blues. Sadness and tragedy are common to the human condition, 
but in the United States they have been disproportionately 
experienced by African-Americans who develop musical forms to 
give artistic expressions to their life experience.
    The music industry is always on the hunt for innovative 
forms of music that may be marketed and sold to the largest 
audiences. Hip hop has for over 25 years been an immensely 
popular genre of music. Its largest audience is white. 
Marketing to that audience follows the path of least 
resistance. Sensational images of sex and violence are easier 
to package and promote than more thoughtful and critical 
messages, thus gangster rap has endured much more commercial 
success than the more politically oriented conscious rap. DJs 
use a mix of hip hop to manage the mood of a club but gangster 
rap is catnip to an audience more interested in sexual release 
than raising political consciousness.
    So therein lie the incentives to artists, promoters, 
industry executives and white consumers. The music industry 
offers one of the few paths out of poverty available to 
African-Americans. Sex and violence offer proven paths to 
commercial success and black experience continues to provide 
vicarious thrills for white audiences. Today's suburban 
adolescents will in time move to influential positions within 
corporate America. The question this panel needs to address is 
whether the stream of imagery and language in gangster rap is 
more likely to get Lakisha and Jamal a call-back. If the answer 
is no, how can a system of incentives be changed to make that 
more likely. Thank you.
    [The prepared statement of Mr. Rojecki follows:]

                      Statement of Andrew Rojecki

     The Don Imus affair is the most recent example of a 
pattern in the way Americans think about race. The Civil Rights 
movement of the 1960's not only changed the legal framework for 
issues of race, it also changed the way Americans spoke in 
public about race. In the terms of the social sciences, the 
norms had changed. It became socially unacceptable for white 
Americans to give voice to black stereotypes in anger or even 
in jest. By the early 1990's the term political correctness 
(PC) had been coined to make fun of an exaggerated sensitivity 
to personal feelings attached to group identity.
     The concept of political correctness is less important for 
naming a hypocritical repression of speech than for identifying 
an incomplete transformation. Specifically, a change in public 
norms has not been accompanied by a change in private 
attitudes. Political correctness could not exist absent the 
tensions between what is expected and what is believed or felt. 
For example large majorities of whites say that blacks should 
have equal opportunity, but major American cities remain highly 
segregated (the ten largest at 75 percent), black children 
continue to get inferior education and medical care, and black 
unemployment remains twice as high as white.
     How do whites explain these differences? In the early 
1940's surveys found that majorities of white Americans 
explained lower black achievement as evidence of intellectual 
inferiority (Kinder & Sanders, 1996). Today, only a small 
minority claim that is true (Schuman et al., 1997). The shift 
in perception from innate, biological differences to social 
injustice fueled the success of the Civil Rights movement. 
Unfortunately, it also gave whites license to discount 
discrimination as an explanation for the difference between 
black and white achievement.
     Majorities of whites now believe that the lesser position 
of African Americans is due to individual moral failing or 
flaws in black culture itself (Sears & Henry, 2005). In our own 
research on the black image in the white mind (Entman & 
Rojecki, 2000), whites we interviewed spontaneously referred to 
media images of sexuality and violence that supported their 
negative views. These images substituted for the absence of 
sustained contact between whites and blacks, inevitable in a 
society that remains segregated by race (Massey & Denton, 1993; 
Mumford Center, 2001). This is especially true among those 
persons whom we call the ambivalent majority, those whites who 
are sympathetic to aspirations of black Americans but who are 
influenced by images that highlight irresponsibility and 
violence. In short, majorities of white Americans have good 
intentions but not the settled inner convictions to put their 
ideals into practice, perhaps because the forms of 
discrimination routinely experienced by African Americans have 
become less visible (e.g. Feagin, 1991; Myers & Passion 
Williamson, 2001).
     Social psychologists who study social cognition--how 
people see and process the social world--explain this 
ambivalence by invoking the premise that we need simplified 
mental representations (schemata) to deal with the social 
world. Schemata are mental shortcuts that allow us to economize 
on expenditures of brain power. They also distort our 
perceptions. So powerful are these mental pictures that they 
may be activated without the person's conscious control or 
awareness, a phenomenon widely reported by research in a broad 
range of contexts.
     For example, whites take less time to associate traits 
such as intelligence and kindness for a white face than for a 
black face because those traits are consistent with their 
mental representations of whites (see Gaertner & McLaughlin, 
1983 for the pioneering study; see also https//
implicit.harvard.edu/implicit/). These experimental results 
have important real world implications. In one study (Bertrand 
& Mullainathan, 2004) researchers sent resumes, identical 
except for stereotypically white or black names to employers 
and found that the Greg or Emily were 50 percent more likely to 
get callbacks than Jamal or Lakisha. In another, experimenters 
gave an identical test to black and white college students. In 
one condition students were told the tests would assess 
intelligence; in the other students were told the tests would 
measure a lab problem-solving task. Blacks performed 
identically in the latter condition but did more poorly when 
they were told the test measured intelligence (Steele, 1997). 
In other words, blacks may unconsciously hold same stereotypes 
as whites and behave accordingly. More alarmingly, experimental 
research shows that police officers, both white and black, are 
more likely to shoot at black suspects than white suspects 
(Correll, et al., 2002).
     There is a way out of the implicit attitude bind: 
consciously resisting the stereotype. Research across a range 
of disciplines converges on the same result: lessen the power 
of the stereotype by bringing it out of the unconscious dark 
into the conscious light. Thus the Willie Horton ad lost its 
effectiveness when Jesse Jackson made a public issue of its 
malicious intent (Mendelberg, 2001). Social psychologists find 
that whites who harbor unconscious stereotypes are able to 
overcome their influence when they are made aware of them and 
they have sufficient time to process those mental images. 
Medical researchers who do brain scan imaging find that the 
fear centers of the limbic system (sometimes referred to as the 
lizard brain) are stimulated even among unprejudiced whites 
when the stimulus is brief--30 milliseconds of a black face 
(Cunningham et al., 2004). Lengthen the stimulus to half a 
second and the power of the stereotype is resisted by the 
conscious prefrontal cortex. This explains in part why police 
officers who have little time to react are more likely to be 
influenced by unconscious attitudes.
     On the issue of hip-hop music, we know that Don Imus did 
not coin the phrase he used to describe the Rutgers women's 
basketball team. It is also clear that he would not have used 
that phrase had he thought about it for a second or two. That 
image was planted in his mind through a complex sequence of 
events that began in a culture of poverty that thrives in the 
black ghettos of America. Hip-hop is a musical expression of a 
segment of lived experience that resonates with a significant 
number of African Americans who grew up under conditions of 
privation. The lived experiences of African-American life have 
inspired a range of musical innovation and artistic expression, 
as in jazz and the blues. Sadness and tragedy are common to the 
human condition, but in the United States they have been 
disproportionately experienced by African Americans who have 
developed musical forms to give artistic expression to their 
lived experience.
     The music industry is always on the hunt for innovative 
forms of music that may be marketed and sold to the largest 
audiences. Hip-hop has for over twenty-five years been an 
immensely popular genre of music, and its largest audience is 
white. Marketing to that audience follows the path of least 
resistance: sensational images of sex and violence are easier 
to package and promote than more thoughtful and critical 
messages. Thus gangster rap has enjoyed much more commercial 
success than the more politically oriented conscious rap. DJs 
use a mix of hip-hop to manage the mood of a club, but gangster 
rap is catnip to an audience more interested in sexual release 
than raising political consciousness.
     Therein lie the incentives to artists, promoters, industry 
executives, and white consumers. The music industry offers one 
of the few paths out of poverty available to African Americans, 
sex and violence offer proven paths to commercial success, and 
black experience continues to provide vicarious thrills for 
white audiences. Today's suburban adolescents will in time move 
to influential positions within corporate America. The question 
this panel needs to address is whether the stream of imagery 
and language in gangster rap is more or less likely to get 
Lakisha and Jamal a callback. And if the answer is no, how can 
the system of incentives be changed to make that more likely.

    References

     Bertrand, M. &, Mullainathan, S. (2004). Are Emily and 
Greg more employable than Lakisha and Jamal? National Bureau of 
Economic Research, Working Paper No. 9873.
     Correll, J., Judd, C. M., Park, B., & Wittenbrink, B. 
(2002). The police officer's dilemma: Using ethnicity to 
disambiguate potentially threatening individuals. Journal of 
Personality and Social Psychology, 83: 1314-39.
     Cunningham, W. A., Johnson. M. K., Raye, C. L., Gatenby, 
C., Gore, J. C., & Banaji M. R. (2004) Separable neural 
components in the processing of black and white faces. 
Psychological Science, 15: 806-13.
     Entman, R. M., & Rojecki, A. (2000). The black image in 
the white mind: Media & race in America. Chicago: University of 
Chicago Press.
     Feagin, J. (1991). The Continuing significance of race: 
Antiblack discrimination in public places. American 
Sociological Review, 56: 101-116.
     Gaertner, S. L., & McLaughlin, J. P. (1983). Racial 
stereotypes: Associations and ascriptions of positive and 
negative characteristics. Social Psychology Quarterly, 44: 192-
203.
     Kinder, D. R., & Sanders, L. M. (1996). Divided by color: 
Racial politics and democratic ideals. Chicago: University of 
Chicago Press.
     Massey, D. S., & Denton, N. A. (1993). American apartheid: 
Segregation and the making of the Underclass. Cambridge: 
Harvard University Press.
     Mendelberg, T. (2001). The race card. Princeton: Princeton 
University Press.
     Mumford Center. (2001). Ethnic diversity grows, 
neighborhood integration lags behind. Available online: http://
mumford1.dyndns.org/cen2000/WholePop/WPreport/MumfordReport.pdf
     Myers, K A., & Passion Williamson, B. S. (2001). Race 
talk: The perpetuation of racism through private talk. Race and 
Society, 4: 3-26.
     Schuman, H., Steeh, C., Bobo, L., & Krysan, M. (1997). 
Racial attitudes in America: Trends and interpretations. 
Cambridge: Harvard University Press.
     Sears, D. O., & Henry, P. J. (2005). Over thirty years 
later: A contemporary look at symbolic racism and its critics. 
Advances in Experimental Social Psychology, 37: 95-150.
     Steele, C. M., & Aronson, J. (1995). Stereotype threat and 
the intellectual test performance of African Americans. Journal 
of Personality and Social Psychology, 69: 797-811.
                              ----------                              

    Mr. Rush. Professor Williams.

 STATEMENT OF FAYE WILLIAMS, NATIONAL CHAIR, NATIONAL CONGRESS 
              OF BLACK WOMEN, INC., WASHINGTON, DC

    Ms. Williams. Chairman Rush, on behalf of the Women's 
Coalition on Dignity and Diversity representing more than 11 
million women and their families, we thank you for holding this 
hearing. Even though many of the Members of Congress could not 
be here, many of the cameras have left, many people have left, 
we women have heard that someone said we will get over this and 
they will just outwait us, they don't know us because we are 
still here, we are still standing.
    Our coalition is made up of a diverse group of women who 
come from the National Council of Women's Organizations, 
National Council of Negro Women, the Women of Rainbow PUSH, the 
Women of National Action Network, National Organization for 
Women, Feminist Majority, YWCA, the National Coalition on Black 
Civic Participation, the National Congress of Black Women, 
women from labor, women in sports, women from religion, women 
from business and all walks of life, and I just want to say 
that this is not about hip hop. It is not about just rap or us. 
We are here because we are putting everybody on notice that 
women are tired of the images of ourselves that we see out 
there. Some of us educate ourselves. You will notice at this 
table, everybody's name carries with it ``doctor'' and we work 
very hard for the young people in our community and we are 
tired of being denigrated in our society.
    Mr. Chairman, we women, especially black women and our 
children, have been bombarded with misogyny, violence and 
obscenities day after day. In a society that claims that it is 
fair and seeks justice for all, too many corporate leaders have 
captured the rawness of the feelings of many black males and a 
few black females who feel disenfranchised. Some rap and hip 
hop music which began with a positive purpose now taps into the 
psyche of black teens who have a sense that no one cares that 
the young black males are routinely getting the short end of 
the stick in America. They look at what is happening in Katrina 
still, what is happening to the Jena 6 in my home State of 
Louisiana, and they have reason to believe that they should be 
angry with everybody including you and me, Mr. Chairman.
    Instead of putting adequate funds into the education and 
care of young people and the assurance of jobs and the chance 
to build their own businesses, our system has failed them by 
steadily diverting funds into war and destruction. We have not 
always provided the kinds of options that would prevent our 
young people from idolizing the lives of thugs and pimps and 
warlords and negative images. Too many of us have criticized 
young people for denigrating and disrespecting women and black 
people in order to make a living when they are offered no 
decent option. We have allowed greed to lead many of our young 
people to believe that it is OK to entertain themselves by 
destroying the culture of a people. We know all too well what 
happened to our Native American brothers and sisters in movies 
through the years. The obscenities we see and here today have 
become commonplace to the point that it is being genocidal. 
Even our babies have been subjected to horrifying language and 
images on public airwaves by those who should know better but 
are claiming that this is the only way to relate to our 
children. If you haven't seen the so-called public service 
advertisement that looks just like any other cartoon called 
``Read a Book'' you need to see it to understand what we are 
talking about and why we are still standing. What are teachers 
to do when they hear the children repeat these words? Why 
should our children be assaulted daily with garbage under the 
guide of first amendment rights to say nothing about 
responsibility? I challenge those are so supportive of 
unlimited free speech without responsibility to question why 
they have not spoken out for the right of Anton Mohammad to 
testify here today and to speak out for independent media 
outlets. The corporate executives that lure our young people 
into believing it is all right to destroy the culture of people 
seem to have targeted black women and our families who 
contributed too much to this society.
    We believe in freedom of speech but with every right goes a 
responsibility. We have a right to earn money but we have a 
corresponding responsibility to pay taxes. We have a right to 
travel on public transportation but a responsibility not to 
carry guns onto them. We have a right to have children but a 
responsibility not to abuse and neglect them. Mr. Chairman, 
using the public airwaves and public forums may be our right 
but the line must be drawn and balanced by the responsibility 
to refrain from painting an immoral image of an entire race of 
people and of black women in particular.
    Not only entertainment executives but advertisers must act 
more responsibly. Why should we want to buy a product that pays 
for our destruction? Mr. Chairman, those of us who use public 
airwaves must be made to understand that there are consequences 
for those who insist upon subjecting our children to songs like 
``Read a Book,'' and the words are just too bizarre for me to 
mention here today. When you see the video and hear the words, 
you will understand why we are so highly disturbed. Along with 
the right of freedom of speech goes the responsibility not to 
bombard those airwaves and our public forums with filthy, 
derogatory, offensive, indecent language that crosses the line 
of decency. We are not objecting to what goes on in adult 
nightclubs here. We are talking about what is brought to our 
children and they deserve better images.
    Nearly 15 years ago my predecessor, the late Dr. C. Delores 
Tucker, warned us about where we were headed when we allow 
unrestricted rights to spew vicious, hateful words about women 
and how this contributes to violence and disrespect in our 
society, and I know, Mr. Chairman, you would agree the results 
have come to pass. On occasion we turn on our television and we 
black women are embarrassed and humiliated by what we see when 
we see women who are portrayed as gangsters and men who are 
portrayed as pimps and women as prostitutes and the 
thuggishness that we see there with no mention of the great 
works of great black people, no balance whatsoever. What we are 
often seeing on television, videos and elsewhere is not the 
culture of the black people I know. Our culture has more to do 
with respecting our elders, our sisters, our mothers, our 
grandmothers, but where are those images? In our culture, the 
gangster is the exception. The thug, the pimp, the prostitute, 
those are the exceptions. Many black men and women serve this 
country with honor and distinction and deserve better 
treatment.
    In conclusion, I would like to say black women have served 
this country as Surgeons General, Secretary of Labor, Energy, 
Housing and Urban Development, Secretary of State, in Congress, 
as diplomats, as college presidents, in law, medicine and all 
walks of life and rarely do we ever hear public officials even 
speaking out about balancing rights with responsibilities when 
it comes to the images portrayed of black women and our 
families. Don Imus was wrong when he belittled the young women 
at Rutgers. Cortland Malloy of the Washington Post is usually 
right on the issues but he just plain got it wrong when he 
belittled our efforts to demand better images of women and our 
families in our Enough is Enough Campaign. Isiah Thomas, as 
mentioned before, is wrong when he says that it is highly 
offensive for a white male to call a black female the ``B'' 
word. Well, it is wrong then but it is always wrong.
    Mr. Chairman, we in the Women's Coalition for Dignity and 
Diversity respect the first amendment and we believe in the 
right to free speech but we also believe in decent speech. Yes, 
rights without responsibility should be labeled anarchy yet 
that is much of what we see and hear on our public airwaves and 
in public forums. It is time for Congress to stand up and to 
insist upon responsibility and to insist that others take 
responsibility and make that clear to the FCC and the FTC, what 
their roles should be in making it happen. We can't and we 
won't sit around and wait for gangster rap or hip hop or 
anything else in our society with those vicious media images of 
us to self-destruct. We are not just talking about BET here 
either, and its parent company, Viacom, about bombarding our 
community with vicious images. We are talking about everyone 
who does it in all walks of life. Being credited with or blamed 
for the diminishing sales of gangster rap, Mr. Chairman, and 
offensive language and images is a banner we women proudly bear 
but it is not happening because we allowed it to self-destruct. 
It is happening because we have been intent on making it happen 
for years, at least since the National Congress of Black Women 
began this campaign nearly 15 years ago.
    Again, Mr. Chairman, we thank you so much for having this 
hearing today. We women are glad that we finally have our 
chance to say something public because we witnessed so much 
time when we were never called upon, so we appreciate you for 
calling on us today.
    [The prepared statement of Ms. Williams follows:]

                       Statement of Faye Williams

    Chairman Rush and members of the Subcommittee on Commerce, 
Trade, and Consumer Protection, on behalf of the Women's 
Coalition on Dignity and Diversity, representing more than 11 
million women and their families, we thank you for holding this 
hearing.
    Our coalition is made up of diverse groups of women from 
numerous organizations'such as the National Council of Negro 
Women, Rainbow-PUSH, National Action Network, National 
Organization for Women, Feminist Majority, the YWCA, the 
National Coalition on Black Civic Participation, the National 
Congress of Black Women, as well as women in sports, religion, 
labor, business and all walks of life.
    Mr. Chairman, we women, especially we black women and our 
children, have been bombarded with misogyny, violence and 
obscenity through public airwaves day after day. In a society 
that claims that it is fair and seeks justice for all, too many 
corporate leaders in the entertainment business have captured 
the rawness of the feelings of many black males, and a few 
black females, who feel disenfranchised. Some rap music which 
began with a positive purpose, now taps into the psyche of 
black teens who have a sense that no one cares that young black 
males are routinely getting the short end of the stick in 
America. They look at what is happening in the Jena 6 case in 
my home State, Louisiana, and they have reason to believe they 
should be angry with everybody--even with black women and black 
elders who've given their all to try to make life better for 
them.
    Instead of putting adequate funds into the education and 
care of young people, and the assurance of jobs and a chance to 
build their own businesses, our system has failed them by 
steadily diverting funds into war and destruction. We have not 
always provided the kinds of options that would prevent our 
young people from idolizing the lives of thugs, pimps, warlords 
or other negative images. Too many of us have criticized young 
people for denigrating and disrespecting women and black people 
in order to make a living, when they are offered no decent 
options.
    We have allowed greedy corporate executives--especially 
those in the entertainment industry--to lead many of our young 
people to believe that is okay to entertain themselves by 
destroying the culture of our people. We know all too well what 
happened to our Native American brothers and sisters in movies 
through the years. The profanity, vulgarity, and obscenity we 
see and hear today have become common place to the point of 
being genocidal.
    Even our very young babies have become subjected to 
horrifying language and images on public airwaves by those who 
should know better, but are claiming that this is the only way 
to relate to our children. If you haven't seen the so-called 
public service advertisement that looks like just another 
cartoon, called Read a Book, you need to see it to understand 
what I am talking about. What are teachers to do when they hear 
these children repeat these words?
    Why should our children be assaulted daily with garbage 
under the guise of First amendment rights that say nothing 
about responsibility?
    The corporate executives that lure our young people into 
believing it is all right to destroy the culture of a people 
seem to have targeted black women and our families who've 
contributed so much to this nation. The same can be said 
historically about our Native American sisters and their 
families.
    We believe in freedom of speech, but with every right goes 
responsibility. We have a right to earn money, but we have a 
corresponding responsibility to pay income taxes.We have a 
right to travel on public transportation such as airplanes, but 
a responsibility not to carry on or even mention guns or other 
weapons while riding. We have a right to have children, but a 
responsibility not to abuse or neglect them.
    Mr. Chairman, using the public airwaves may be a right, but 
the line must be drawn and balanced by the responsibility to 
refrain from painting an immoral image of an entire race of 
people--and of black women in particular. Not only 
entertainment executives, but advertisers must act more 
responsibly. Why should we want to buy a product that pays for 
our destruction?
    Mr. Chairman, those who use the public airwaves must be 
made to understand that there are consequences for those who 
insist upon subjecting our children to songs like Read a Book. 
The words are too bizarre to mention in this hearing, but it's 
easy enough to hear them on the Internet or on television.
    When you see the video and hear the words, you will 
understand why we are so highly disturbed about what is brought 
to our children--while those who bring it castigate those of us 
who object to it. We all want our children to read a book, but 
our children are not so dumb that they need to be told in such 
vile and bizarre language to do so. Along with the right of 
freedom of speech goes the responsibility not to bombard those 
airwaves with filthy, derogatory, offensive, indecent language 
that crosses the line of decency and shocks the conscience of 
all who hear or see it. We're not objecting to what goes on in 
adult clubs here; we're talking about what is brought to our 
children who deserve better images.
    Nearly 15 years ago, my predecessor, the late Dr. C. 
DeLores Tucker, warned us about where we were headed when we 
allow unrestricted rights to spew vicious, hateful words about 
women, and how this contributes to violence and disrespect. The 
results have come to pass.
    On occasion, we turn our televisions on and we are 
embarrassed and humiliated to see so many black men and women 
portrayed as gangsters, pimps, prostitutes, and thugs--with no 
mention of the great works of our people--no balance what-so-
ever.
    What we so often see on television, videos and elsewhere is 
not the culture of the people I know. It's not the culture of 
the majority of black people. Our culture has more to do with 
respecting our elders, our sisters, our mothers and 
grandmothers--but where are those images? In our culture, the 
gangster is the exception; the thug is the exception; the pimp 
is the exception; the prostitute is the exception. Many black 
men and women serve this country with honor and distinction, 
and deserve better treatment.
    Black women have served this country as Surgeon General, 
Secretary of Labor, Energy, Housing and Urban Development, 
Secretary of State, in Congress, as Diplomats, as college 
Presidents, in law, medicine and all walks of life--and too 
rarely do we even hear many of our public officials speak out 
about balancing rights with responsibilities when it comes to 
the images portrayed of black women and our families on public 
airwaves. Don Imus was wrong when he belittled the young women 
at Rutgers. Courtland Milloy of the Washington Post is usually 
right on the issues, but he just plain got it wrong when he 
belittled our efforts to demand better images of women and our 
families in our ``Enough is Enough'' campaign. Isiah Thomas is 
wrong when he says that it's highly offensive for a white male 
to call a black female a b * * * *, but it's okay for a black 
man to do so. Well, Mr. Thomas would be surprised to know that 
they're equally offensive and totally unacceptable to black 
women.
    Chairman Rush, we in the Women's Coalition for Dignity and 
Diversity respect the First Amendment rights of every citizen. 
We believe in the right to free speech, but we also believe in 
decent speech.
    Yes, rights without responsibilities should be labeled 
anarchy; yet that is much of what we see and hear on our public 
airwaves. It's time for Congress to stand up and insist upon 
responsibility, and make it clear to the FCC and the FTC what 
their roles should be in making it happen. That is what we in 
the Women's Coalition for Dignity and Diversity are saying.
    We can't, and we won't, sit around and wait for gangsta rap 
and other vicious media images of us to self destruct. We're 
not just talking about BET, and its parent company, Viacom, 
about bombardment of our community with vicious images of women 
and of black people. We call upon all media to be more 
responsible. We also call upon advertisers to be more sensitive 
to the pain these negative images cause those of us being 
targeted.
    I conclude by repeating what President Lyndon Johnson once 
said, ``How incredible it is that in this fragile existence we 
should hate and destroy one another!'' And I say that without 
responsibility, that is exactly what happens to women and our 
families each time someone decides to denigrate us on public 
airwaves for the almighty dollar, and in the name of free 
speech.
    Being credited with, or being blamed for, the diminishing 
sales of gangsta rap and offensive language and images is a 
banner we proudly wear; but it's not happening because we 
allowed it to self destruct. It's happening because we've been 
intent upon making it happen for years--at least since the 
National Congress of Black Women began our campaign nearly 15 
years ago, with others joining us recently.
    We have a long way to go, Mr. Chairman, and we still need 
your help. We need Mr. Markey's help and the help of every 
Member of this Subcommittee and the Committee on Energy and 
Commerce to rein in what should and what should not be seen or 
said so freely on public airwaves.
    We need the Progressives, Conservatives, Democrats, 
Republicans, Independents, and all others to talk not just 
about rights of free speech, but also about the 
responsibilities inherent in this great freedom. Again, we 
thank you for your courage in holding these hearings.
                              ----------                              


  STATEMENT OF LISA FAGER BEDIAKO, PRESIDENT, INDUSTRY EARS, 
                          ODENTON, MD

    Ms. Bediako. Actually I am the only person up here without 
a Ph.D.
    Mr. Williams. That is all right. You are good. You have 
good information.
    Ms. Bediako. I have an M.B.A.
    Thank you, Mr. Chairman, for the opportunity to testify 
today on the business of stereotypes and degrading images. My 
name is Lisa Fager Bediako and I am the president and cofounder 
of Industry Ears. Industry Ears is a nonprofit, nonpartisan, 
independent organization which is focused on the impact media 
has on communities of color and children since 2003. My 
cofounder, Paul Porter, and I have collectively more than 40 
years of experience working in media and entertainment 
companies including BET, Clear Channel Communications, Emmetts 
Communications, Discovery Communications, CBS Radio, Capital 
EMI Records, Def Jam Records and Radio One, to name a few. 
Using our insiders' knowledge, we created Industry Ears and 
IndustryEars.com to address the myths and misconceptions about 
the media and entertainment industry and how they operate, and 
more importantly, to develop effective means to combat the 
negative consequences of harmful media images and messages on 
children, particularly children of color.
    The now-infamous Imus incident is intriguing in that it has 
created strange bedfellows. It has unified both conservative 
and liberal media invoking hip hop music as a veritable poster 
child of all that is wrong with society. This is a popular 
argument made in the throes of Imus oft-repeated ``nappy-head 
hos'' comment. Such language pales in comparison to the content 
of most commercialized hip hop music. The idea is that if radio 
stations and Viacom music channels can play the b * * * *, n * 
* * * *, ho content of gangsta rappers, then what is so bad 
about the Imus comment. If the black community apparently 
accepts such language from its own, then why get upset when Don 
Imus says it.
    What appears to be more difficult to understand, especially 
to our friends in the news media, is there exists a large cadre 
of individuals and organizations that represent communities of 
color that also are in an uproar when media permit content that 
is degrading to women and people of color. Note that unlike 
conservative and liberal media hype, our concern is not 
simplistically directed at the artists who produce such 
material. Our concern is also directed towards the record 
labels, radio stations and music video channels, i.e., the 
corporations that are profiting from and allowing such material 
to air. This is a fact that often gets overlooked in mainstream 
media: not all black people and not all lovers of hip hop like 
myself endorse materialism, violence and misogyny that 
characterize commercial rap music. It is time to wake up and 
see the real issue. The media conglomerates are the gatekeepers 
of content and in essence control what opinions receive 
airtime.
    The deletion of the Fairness Doctrine and the passage of 
the 1996 Telecommunications Act help to create incredibly big 
media corporations by eliminating the requirements that balance 
viewpoints be presented, and by relaxing rules, placing limits 
on how much media a single corporation can own. Further, by 
repealing the Tax Certification Program, which successfully, if 
temporarily, increased ownership of media outlets by people of 
color, we have ensured that these big media corporations do not 
represent the diversity of society. With the control of so much 
media concentrated in the hands of a very few, we are at the 
mercy of big media and rely on companies to serve the best 
interest of the public while also serving their bottom line. 
And as might seem obvious, what best serves the public interest 
and what best serves the bottom line are not always the same. 
This is evidenced by the fact that CBS fired Imus only when 
corporate sponsors started to pull out.
    Commercial hip hop has flourished in this environment, 
giving public perception that what you see and what you hear on 
radio and TV has been set in the community standard. The 
Federal Communications Commission states that it is a Federal 
violation to broadcast indecent or sexually explicit content 
between the hours of 6 a.m. and 10 p.m. However, songs that 
discuss explicit sexual situations including oral sex, rape, 
casual sex and gang sex receive daily spins on radio stations 
and video channels that cater to the 12-17 demographic.
    Freedom of speech has been shown by the industry 
conglomerates to mean the ``B'' word, the ``N'' word and ``ho'' 
while censoring and eliminating hip hop music that discusses 
Hurricane Katrina, the Iraqi war, the Jena 6, dangers of gun 
violence and drugs and songs that have contained words like 
``George Bush'' and ``Free Mummia.'' In 2005, MTV and radio 
stations around the country self-regulated themselves to remove 
the word ``white man'' from the Kanye West hit song ``All Fall 
Down.'' The lyrics demonstrated the far reach of capitalism by 
explaining drug dealers like Jordans, crackheads like crack, 
and a white man gets paid from all of that. When asked why they 
decided to dub ``white man'' from the lyrics, the response from 
MTV was, we did not want to offend anyone.
    Today hip hop is bombarded by the demeaning images of black 
male thugs and the sleazy video vixen. Record labels and their 
executives choose to support and promote these images for 
airplay solely as if these are the only images that represent 
black people. I understand that payola is out of the scope of 
the subcommittee. However, I think it is important to mention 
because it is a major contributor to how music receives radio 
and video airplay. The former attorney general Eliot Spitzer, 
now governor of New York, made deals with four major record 
labels totaling $30.1 million as with two broadcasters for 
another $6.25 million in a statewide payola investigation that 
also implicated many outside of the State of New York. 
Meanwhile, the FCC settled with a consent decree that stopped a 
Federal investigation of payola and allowed broadcasters to 
avoid a finding of liability by this violation and entering 
into a settlement agreement costing them a measly combined 
total of $12.5 million, and then on top of that, they do not 
have to admit guilt. All over the country, you have identical 
play lists from station to station no matter the radio format, 
and it is no coincidence. Payola is no longer the local DJ 
receiving a couple dollars under the table. It is now an 
organized corporate crime that supports the lack of balanced 
content and demeaning imagery with no consequences.
    A good example of records, radio and corporate partnerships 
include the song on Virgin record label called ``Miss New 
Booty'' and there is a sheet under your copies of this picture, 
and this is what I am referring to. This song performed by a 
white rapper was silly and tasteless but the promotion by the 
record label and the partnership with Girls Gone Wild was truly 
offensive. A local Washington DJ on an urban radio station in 
Washington, DC, at 5 p.m. promoted the tune by suggesting he 
would like to visit the MissNewBooty.com Web site to 
masturbate. The Web site created by Virgin Records asks girls 
to enter a contest for the best new booty. The girls are 
required to take photos of their butts and post them online. 
Each week people would vote for the best booty of the week and 
the winner receiving a chance to be in a music video. It was 
obvious that girls under 17 were entering the contest. Some 
even listed their MySpace account, making it easy for the child 
predator. The Girls Gone Wild partner was listed on top of the 
Web site and linked and making it easy for preteens and others 
to access. I wrote an open letter to Virgin Records and 
Jermaine Dupree at the time, who was president of urban music 
at Virgin, responded by saying it was all in fun, it wasn't 
about sex. Later that same month Jermaine Dupree appeared in an 
article in Billboard magazine and said that hip hop was 
inspired by strip clubs. Go figure.
    It is important to note that African-American children 
listen and watch more radio and television than any other 
demographic. Although top 40 and hip hop radio stations claim 
to target 18-34 demographics as well as the MTV and BET 
stations, their largest audience share are the 12- to 17-year-
old segment. Record companies, radio stations and Viacom are 
aware of their audience but have chosen to put the bottom line 
above the welfare of the audience.
    In the hip hop documentary ``Hip Hop Beyond Beats,'' a 
group of white teens are asked what they think about hip hop. 
They explain hip hop gives us a better insight into black 
culture and it is like how it is to grow up in the ghetto as if 
all black people had the same experience. Bakari Kitwana, 
professor and author of several books dealing with hip hop and 
politics----
    Mr. Rush. Ms. Bediako----
    Ms. Bediako. I am going to wrap it up.
    Mr. Rush. Please.
    Ms. Bediako. I am going to tell you what he said. He was 
doing research and he asked a group of white women if they were 
offended by rappers using the term ``b * * * *'' to describe 
women and they said no, because they are only referring to 
black women.
    In sum, I just want to say I am sure the industry will 
shrug at the notion that these actions that they have done have 
led or influenced any behavior and so I strongly suggest that a 
research study look at these direct impacts of degrading and 
stereotypical images on children and adults. This study will 
help us understand the direct implications and back up the 
policy and regulations that need to be implemented and 
enforced.
    [The prepared statement of Ms. Fager-Bediako follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Thank you very much.
    Dr. Dill, please, around 5 minutes.

STATEMENT OF KAREN DILL, PH.D., LENOIR-RHYNE COLLEGE, HICKORY, 
                               NC

    Ms. Dill. Chairman Rush, thank you so much for inviting me 
here and I am very pleased that you are holding this hearing 
today about this important subject. We Americans spend two-
thirds of our waking lives consuming media, be it television, 
movies, video games or the Internet. Media consumption is the 
No. 1 waking activity of choice for U.S. Americans, commanding 
on average 3,700 hours of each citizen's time annually. The 
average American child devotes 45 hours plus per week of what 
we call screen time, which is combined television and others 
forms of media. This alone I think America is putting serious 
attention into looking at media education in our school system. 
It is what children do with their time.
    Since culture is our shared reality created and sustained 
through common experience, American culture is now largely what 
is shaped and maintained by the mass media be it television, 
video games or music. Media creates meaning, it creates shared 
beliefs and values and even rules for behavior. They all tell 
us stories, project images and communicate ideas. Since we are 
social creatures, it is natural for us to learn who we are, how 
we should act, feel, think and believe through the stories of 
our common culture. We were not created to have social 
interactions on the media. We treat our interactions with the 
media like they were real-life face-to-face interactions and 
that is how we learn through that information. If we see a 
black person behaving a certain way in the media, we think oh, 
this is social information, this is real behavior.
    This creation of culture through popular media was sadly 
exemplified recently when radio personality Don Imus referred 
to a college women's basketball team as ``nappy-headed hos.'' 
Sadder still, many responded that the racist and sexist 
language was acceptable because that type of language is used 
by minority members in rap music. Unfortunately, racist and 
sexist slurs influence real people, for example, sending the 
message to girls that this is how our society views you and 
causing issues with self-esteem and with identity. Over and 
over again I have had the chance to talk with people about 
media and by and large what I find is that people do not 
believe they are affected by media at all. Studies show this. 
People do not believe they are affected by the media. As an 
example, a recent study showed that the more violent video 
games you play, the less you think people are affected by 
playing violent video games.
    There is a lot of reasons for these different 
misperceptions about the media. I will name a few here. First 
of all, we all have a natural tendency to not want to believe 
that our habits are harmful. We don't want to believe that our 
child playing a violent video game can have a negative 
influence. That would make us a bad parent or a bad person. We 
have a mistaken view of how media affects us. For example, we 
think media effects need to be immediate and very extreme. 
People say to me often, I play lots of violent video games and 
I haven't picked up a gun and gone out and shot someone. Well, 
that is not how media effects work. Media creates a culture and 
for example, we are talking about rap lyrics today. That 
creates a culture where we understand women, black women 
particularly in a certain way. It is not a matter of where you 
go out and shoot someone or behave in an extreme fashion. It is 
a cumulative effect.
    Also, we misunderstand that media are produced primarily to 
entertain us. They are produced primarily to make a profit and 
the content follows. And finally, we have a tendency to believe 
that for an important event it must have an important cause so 
if someone is violent, it can't be caused by watching 
television or listening to a song. So there are lots of things 
that we don't understand about how the media works and again 
that just underlines the idea that we need a media education 
curriculum in our schools so that kids can understand this.
    Research on music has demonstrated that exposure to violent 
rap videos increases adversarial sexual beliefs, meaning that 
we view men and women as enemies in the sexual sphere. It also 
increases the acceptance of relationship violence. 
Additionally, violent music lyrics have been shown to increase 
aggression.
    The APA taskforce on the sexualization of girls just put 
out a report in 2007. It is an excellent piece of work and we 
have included in the written record that report for you to look 
at. That report found that when girls are exposed to images in 
the media of women as sex objects, a variety of negative 
outcomes follow. Sexualization is linked to negative 
consequences, both cognitive and emotional functioning, mental 
health including eating disorders, low self-esteem and 
depression, physical health and one's own sexual image also 
develops less healthy than it would.
    To understand the psychology behind these issues, one must 
understand that aggression is in part motivated by a need for 
power, dominance and coercion. For example, current research 
characterizes domestic violence as being motivated by the need 
to coerce and dominate. Theoretically, both sexism and racism 
in the media are examples of social influence. Degrading women 
and minorities through sexist and racist language and imagery 
is a way to keep women and minorities quote, unquote, in their 
place. It creates a culture in which this true. I have several 
research examples summarized in my written testimony but I 
wanted to tell you about one study I conducted recently with my 
colleagues, Michael Collins and Brian Brown. We exposed young 
people to either sexist stereotypes or to professional men and 
women and then we had them read a story, a real-life story 
about a woman who experienced sexual harassment from her 
college professor, and then we asked them questions about this 
and what we found was that the men who had been exposed to the 
sexist images were less likely to say the event really was 
sexual harassment, to say it was serious and damaging and to 
show empathy for the victim. They were more likely to blame the 
victim and choose less severe punishment for the perpetrator.
    Today we heard that if you don't like a piece of music or a 
television show, you can just turn it off, but you can't turn 
off your culture. This kind of imagery pervades the culture.
     In conclusion, we enjoy freedom of expression in this 
country but no country can grant us freedom from consequences. 
My message today is that violence, hatred, racism and sexism in 
the media do matter and I would call for two things: one, more 
research and more funding for research on this topic, and two, 
as I have said, to implement a curriculum in our schools which 
would be referred to as media literacy training, and I can give 
more information on that if anyone is interested but is just a 
basic education about how the media work and this helps young 
people cope with those images that they see in the media.
    Thank you very much. I appreciate the opportunity to 
testify.
    [The prepared statement of Ms. Dill follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rush. Thank you so very much. I am going to begin my 
line of questioning with Professor Whiting.
    Professor Sharpley-Whiting, in your testimony you talk 
about the long, demeaning and tragic history of African-
American women all the way back to Thomas Jefferson, and you 
basically state that some of the contemporary commercial hip 
hop is simply continuing that unfortunate legacy. I had the 
privilege and honor of going to visit Ghana this past summer 
for their 50th anniversary. And we went to a slave castle and 
our tour guide explained to us about the slave castle. And the 
image that is implanted in my psyche is the image of the yard 
where all the women in a certain time of day were gathered to 
the yard, all the slave women, and on the balcony, like a 
second-floor balcony, this is where the captain or the head of 
the castle would come out invariably, the same hour every day, 
and selected the women who he would exploit and abuse, and 
there was a little contraption to the side and with a chain to 
it and a ball and this is where the women who were used for 
that moment would go. This is where they were held out in the 
sun beaming down on them. It was a very hot place. So it seems 
to me like it even goes beyond Thomas Jefferson. It seems to me 
like there has been--that there are two types in the psyche of 
slave culture. It is like modern-day culture to a great extent 
in racist culture. There are two types of black women, those 
who are asexual, the other kind of asexual women who are 
portrayed in a comical sense by the movies, Tyler Perry's 
movies, ``Big Mama.'' Those are the asexual types but then you 
have the oversexed type that are portrayed in some of the hip 
hop videos, and so I agree with you, there is a continuum that 
exists. My question is, how do we effectively as a society, how 
do we effectively intervene with this powerful, powerful 
psychological force that creates a demeaning point of view, 
referenced image of our women? Imus was speaking to that, as 
far as I am concerned, and a lot of artists speak to that. Can 
you expand on your concept?
    Ms. Sharpley-Whiting. Well, that is a huge question, 
Congressman. But let me say this. The reason why I wanted to 
begin with Jefferson was because it is critical for us to have 
historical context in thinking about the issues that women in 
general are dealing with and black women in particular, and it 
is very important for me to link Jefferson's ideas at the 
moment of the founding of the Nation. This is very important. 
And so I think although we can go back further, clearly the 
transatlantic slave trade is the moment in which black women 
were certainly denigrated, and as you have described that 
history very vividly and oversexualized and sexualized. I think 
what we are dealing with today, or what needs to happen today, 
is that young women are being handed their sexuality. They are 
being essentially told this is what it means to be sexy, to be 
affirmed. The images are extremely seductive. As a woman with a 
Ph.D., they are seductive to me even and I think we have to 
admit that as human beings, they are very intriguing. They are 
meant to be titillating, and so it is very difficult to resist 
them. Ms. Fager-Bediako, as she has described, that a 
particular demographic is very influenced by these images. It 
is absolutely important to recognize that there is a particular 
demographic being targeted and it is very susceptible to it but 
I think we all in some ways are quite susceptible to it and 
seduced by it. I think that what we do need to begin with is 
with young women thinking about what does a healthy, affirming 
sexuality look like.
    I also think that we really need to explore what do 
masculinity, male ways of behavior and manhood mean in this 
country. I think that there is a movement in this country for 
men to kind of reclaim masculinity or manhood, and part of that 
move means that women are hypersexualized and men embody a 
certain hypermasculinity, and this is not restricted to hip 
hop. When you can have a writer and Ph.D., a professor at 
Harvard, Harvey Mansfield, writing a book called ``Manliness'' 
in which he argues that men need to reclaim their manly space 
and that they have been beaten down by the feminist movement on 
C-SPAN ``Book Notes'' with Naomi Wolf, of all people, and argue 
that men essentially don't like women much because we are very 
different and that women, now that we have accepted that we are 
equal, we should also be able to accept that we are not quite 
equal. And so I think this is pervasive in the culture and we 
have to explore these things in tandem. We have a tendency to 
want to isolate certain musical expressions but I find Hooter's 
offensive in a lot of ways as I do aspects of hip hop culture 
and I find aspects of hip hop culture quite edifying in a lot 
of ways. So I am very reluctant to denounce the culture. But 
what I always like to say, and I will stop here, is that I am a 
professor of course in a research institution in the South, a 
very well-respected research institution and one that I am 
quite proud of but I have come from various kinds of research 
institutions and no one, particularly at Vanderbilt--let me be 
clear--has ever called me a ``ho'' but that doesn't mean that I 
haven't been treated like one or people have attempted to treat 
me like one. What that essentially means is people have 
attempted to box me into a category, to subordinate me in a 
certain way, and so the language--I am a little--I don't want 
us to go down the slippery slope of censorship because one 
doesn't necessarily have to call me that. But one can certainly 
attempt to treat me that way and so I think we need to explore 
all of our ways of being and our ways of communicating and 
disseminating ideas about what it means to be a woman and what 
it means to be a man.
    Mr. Rush. Dr. Rojecki, in a continuation of my initial 
question, in your written testimony you write that the black 
experience continues to provide vicarious thrills for white 
audiences. What do you mean by that?
    Mr. Rojecki. I think for the most part that black cultural 
products have defined what it means to be hip, what it means to 
be cool, and you only need look at young white males. My 
nephew, who grew up in a town in upstate New York, a town that 
has no African-Americans, started behaving kind of using kind 
of a hip hop lingo and wearing certain kinds of clothes and so 
on. That defines being cool and I think that has been the case 
for a long time. Coolness comes from a notion of being 
dangerous, sort of riding the line and so on, and that I think 
is a function of the kind of culture that we live in. It is 
very difficult I think to resist for hip hop artists not to 
respond to a demand that I think in large part comes from that 
kind of definition of what it means to be hip and cool. It is a 
very difficult puzzle to solve.
    Mr. Rush. I am kind of intrigued by something else that you 
indicate in your testimony. You point out that the largest 
audience for hip hop--and I think we probably for clarification 
purposes, we need to talk about hip hop, is it the conscious 
hip hop or the gangster hip hop? We need to kind of know which 
hip hop we are really talking about. I think that is one of the 
things that we have learned today that there different 
variations of hip hop. Would you say the audience for hip hop 
is white and that sensational images--and I quote you, 
``sensational images of sex and violence are used to package 
and promote the critical messages.'' Are you--can you quantify? 
Are you saying that the biggest audience for hip hop is not the 
urban African-American dweller but it is the suburban white 
young person? Is that what you said? Clarify that for me, if 
you will.
    Mr. Rojecki. That is exactly what I am saying, and I can't 
give you precise statistic because they are difficult to come 
by but I have heard anywhere from 50 to 60 to 70 percent of the 
market for this music is white.
    Mr. Rush. And what do you feel as though the effect is on 
the white consumer of this music?
    Mr. Rojecki. Well, you are essentially creating a demand 
within the white community for images of black stereotypes that 
the black community is then creating and being marketed through 
large corporations back out to those audiences. I think it is a 
vicious circle.
    Mr. Rush. Dr. Williams, you call for responsibility and 
sensitivity in the use of free speech. How do we as a loosely 
connected, well-meaning group of individuals and organizations, 
a well-meaning coalition, how do we really rise up to your 
challenge for sensitivity and responsibility? Where do we draw 
the line and how do we exercise a sense of responsibility and 
sensitivity while we also honor and respect the first 
amendment?
    Ms. Williams. Yes. I think, well, first of all, we said 
that this is not just about hip hop or rap. We are talking 
about all segments of our society. I believe that we can begin 
to paint more positive pictures of black women and particular 
and other women, of course, in whatever we do. I believe we can 
stand up and we can defend and we can state the other side of 
it when we hear these negative things. We can talk about what 
we know. We can talk about our own culture. We can deny the 
fact that this pimp, ho, prostitute, et cetera kind of thing is 
a part of our culture or at least any big part of our culture. 
We can also coalesce. I believe that all of us have to--we are 
all guilty of it. We want our organization to be the one up 
front so we talk about what we do but I think we need to bring 
all of the organizations together that are looking for positive 
things and working on positive things for our young people to 
do and we can't wait until they grow up and teach them things 
they need to know. I believe we have to start and we have to 
stop blaming everything on the parents and saying well, the 
parents ought to take care of their children, the parents ought 
to decide what they look at. We have to understand that there 
are many parents themselves who don't know what to do. Also, 
there are many parents who are not wealthy like many of the men 
we saw earlier today. These parents have to go out and work, 
and when I say work, not just 9-5. Many of them are working a 
second and a third job at night and they are not there to 
supervise their children, not because they don't want to be, 
but we need to begin to look at all families are our families, 
and as the popular saying is, it takes a village to raise a 
child. We just all have to accept more responsibility for doing 
that. But again, because mass media can affect so many people, 
I think we have to keep telling them that they have a 
responsibility to show something else. They have a 
responsibility to show that positive side of all of us and not 
just do things that would put us down because that is what we 
see so much. We know that, for instance, it was not intentional 
today but women were last to come on. We have to start lifting 
women up who are trying to do things and trying to better their 
lives like in our community. We need to put them out front. We 
went through it in the Imus incident. We saw people that I love 
and respect out there speaking for women but they were all men. 
We need to hear the voices of women more. We need to feel the 
pain of women when these things are happening to us, and men 
need to stand up more and be in defense of women just as we 
often have to hurt sometimes but defend our brothers sometimes. 
We want to see that same thing. We want to see the members of 
this committee not making excuses as unfortunately I have heard 
some Members of Congress today and defending. We have to forget 
about the fact that somebody gives $5,000 or $10,000 to our 
campaign or to our social event and we have to look at what is 
right, not just what is expedient for us to do to get those 
$5,000 and $10,000 or $20,000, whatever. The point is, we have 
got to look at the harm that this is doing to the people and 
listen to the voices of the women who are saying this hurts me, 
this hurts me to all of the men who decide what hurts and what 
does not hurt us. You can see the pain, and as you looked at 
women today, I am sure you saw the expression on some of our 
faces as we sat through hours of people deciding what is good 
for us and what is not good for us. We need to be involved. We 
have got to be at the table if we are going to make a 
difference. But again, thank you, Mr. Chairman. I mean, I am 
just preaching to the choir now, I know, but you asked the 
question.
    Mr. Rush. I sure did. Let me just say when I heard your 
testimony about Isiah Thomas, I kind of cringed. I know the 
Thomas family and I know that Isiah has to love his mama, all 
right, and his mama is a strong woman. She is the reason why he 
is Isiah Thomas, and so I don't know whether he made the 
connection between his African-American mama and the person 
that he was discussing when he made those unfortunate and I 
think wrongheaded remarks. That is what some of us forget, that 
be it not for black women, black men would not be even as far 
along as we are, and I take my hats off to you black women who 
have really carried the ball and were fathers and mothers for 
us.
    Ms. Williams. Yes. Dick Gregory was here this morning and 
he often said that the two most important entities in our 
community are the black church and black women. Now, the black 
church obviously includes lots of men and so we are talking 
about there are good people out there all over. We just have to 
bring them out, force them to stand up and talk about this. I 
don't think the black church has yet dealt with this issue. We 
have to encourage them and challenge them and say you too have 
a responsibility to deal with this issue. And on the other 
hand, we often hear black women have some things that we have 
to do in order for us to be treated differently. Well, that is 
what those of us at this table and many in this audience are 
trying to do. We try to be role models for our children. We are 
not like many athletes who say I am not--it is not my 
responsibility, I am not a role model. Every time a black 
person is educated, man or woman, we have the responsibility to 
give back to our community, to be a mentor for those young 
people, to lift their horizons and to challenge them to be 
better than they are. We wake up in the morning and of course 
our breath smells a little bad or we don't look so great but we 
put our best face on when we get ready to go out and that is 
what we have to continue to show our children: you have a 
responsibility to do something. My mother reared nine children 
without the benefit of a father in our home and I will tell 
you, my mother always told us, babies, you have to get up in 
the morning and go places like you are somebody special. You 
have to put on your best, whatever that is, look like somebody 
special going to do something important, and she said I can't 
be with you all the time. All I can do is teach you what you 
need to know to survive but you have to live your own life and 
die your own death and somewhere between you have to justify 
your existence, and I find black women all across this country 
justifying their existence every day, and I just think right 
on, sisters, and right on to the good brothers who are helping 
them.
    Mr. Rush. I just want to add that there is--we tried 
desperately----
    Ms. Williams. That is why we in the National Congress give 
a Good Brother award every year.
    Mr. Rush. I tried desperately to get one of the women hip 
hop artists to appear on the panel with the hip hop, with panel 
2. There are no women, as far as I know, who are CEOs of the 
parent companies. Now, we certainly could have had record or TV 
presidents. We could have had one of them to participate but we 
wanted to get the key decision makers, and that is the reason 
why panel 1 didn't have a black women and panel 2, we just 
couldn't get an artist.
    Ms. Williams. Well, we just thank for bringing Master P 
because I think he did speak for many of us and what we were 
thinking and feeling here and he is offered to work with us and 
we agreed to work with him and we just look forward to hearing 
from more people like that. As you know, there is not even an 
image of a black woman in the United States Capitol today in 
remembrance of one and fortunately we are going to have one 
soon and hopefully things like that can begin to make it clear 
that black women are important, they have been important in the 
society and we do many things to make this country work and we 
are always willing to do what we ask someone else to do. 
Sojourner Truth, by the way, is the woman who will be in the 
Capitol soon.
    Mr. Rush. Ms. Fager Bediako, can you explain, tell us a 
little bit more about this contest?
    Ms. Bediako. Yes, I did a couple media projects with 
colleges and this particular project was done with the 
University of Maryland-College Park where students were asked 
to monitor local radio stations and then file complaints based 
on what the FCC states is indecent, and somebody was like, 
``you know, I heard this DJ like at 5:00 talking about this Web 
site and this is when kids are listening,'' this is when the 
middle schooler is calling up and giving shout-outs to his 
friends and everything, so I was a little taken aback and here 
is a 19-year-old concerned about this, and he said, ``Well do 
we complain to the FCC about this and I am like, ``Sure. Did 
you go the Web site? Let us check it out.'' Well, the Web site, 
we were kind of freaked out by it because it is basically porn. 
There was no restrictions. There was no, like, even a minimum 
pop-up that says you have to be 18 didn't even pop up for them 
to tell us contacting Virgin, this wasn't about sex, I mean 
some of these girls, you don't even see their underwear, and 
some of them are like looking in the camera and taking a 
picture of their butts in the mirror, and it just takes you 
back and you are like this is allowed to happen and they want 
to keep telling us like it is not about sex it is a song about 
booty, except that it was a white rapper and in the video it is 
mostly black women and their butts and it is a silly song, and 
so we complained. The Web site then went up with a little 18-
over thing but you can't keep kids off that, and the fact is, 
all the DJs in the area were mentioning the Web site, so 
somehow there was some promotion and it was like ``hey, go to 
MissNewBooty.com. I mean, the Web site is not even up now. They 
took it down and it goes right to the rapper's web page if you 
try to access it. But this is part of a whole bunch of things. 
The local radio station here, the Clear Channel one that does 
top 40 music, has the ``Breast Year Ever.'' That have an over 
20 share of 12- to 17-year-olds that listen to the radio 
station. You never hear the radio stations bragging about, we 
have a 20 share in 12- to 17-year-olds. They only brag about 
their 18-34 or their 25-54 or whatever it is, and in reality 
all the hip hop stations have double digits, usually in the 
20s, for kids, and this is what they are--the songs that you 
are hearing on the radio are the ones that David Banner was 
talking about that he did called ``Play'' that the clean 
version on the radio is talking about cleaning in your thong 
and playing with your clit. These are the songs that are on the 
radio. I don't know what slice of life--it is just like only 
the strip club slice of life is being reflected in the music 
that we are hearing on the radio like you never hear anything 
else, like there is--there isn't anything else, and one of the 
reasons you didn't have a female hip hop artist is because 
those record executives aren't signing them.
    The other thing that David Banner didn't say and he kind of 
said but didn't say, when his--when he talks about his music 
career going down the hill, he was told ``We need a hit song 
and we want something like ``The Whisper Song.'' The ``Whisper 
Song'' was a huge song. The hook was ``Wait until you see my d 
* * *'' and sorry for the language, but this is what our kids 
are hearing, we should be upset, and the fact is, his song is 
very much that song and it went--and he was right, it was about 
dollars, and it went straight up and that is what the 
executives said that they wanted and that is what they got and 
he made money and they made money, and this culture keeps going 
but what happens with the females, MC Lyte can't get a deal, 
Lauren Hill can't get a deal. Method Man made a son that 
questioned BET. Do you think they are going to play that? No. 
Nothing that talks about white men or questions their authority 
gets airplay on the radio or supported by the record labels but 
when we want to talk about each other, killing each other, 
evaluate education, that is OK. Again, just like the book, 
which I read and I loved, ``The Black Image in the White 
Mind,'' it talks about basically we are entertainment for 
this--and it makes sense when you are talking about the white 
are buying more music, they are the larger population, and the 
fact is, there is another study by Mead Productions that said 
even our kids don't really even like hip hop after a certain 
age, like when they get to be like 19, they start loving R&B 
more than they like hip hop. So, it is not about us. We are the 
entertainment.
    Mr. Rush. Well, how do you deal with the images of Common 
or Kanye West, what is the underpinning and the rationale for 
their success? These would be hard hip hop artists.
    Ms. Bediako. Well, what is happening, if I had $18 million 
in my marketing budget like 50 Cent had, then I would be a 
rapper too. When I was in the music industry, the common thing 
is, if they play it, they will listen. The fact that they can't 
even get on the radio, their record labels aren't putting money 
behind them--Kanye is great because he made kind of a niche for 
himself. He--because he is controversial makes him popular and 
it is great. Common, he is still on the kind of underground 
tip, as they say he is getting more exposure but his record 
company doesn't put a lot of money behind him. Mos Def, the 
Roots, their record labels aren't supporting them like they are 
supporting the Young Jocks, Little Jeezy's and Little Waynes 
and all these, 50 Cent, all these other folks. They are not 
getting the same dollars and so it is all about marketing. If 
you can get on MTV--and MTV--Viacom sets the standards. It is 
at a point where if you get on BET or MTV, then radio will 
follow. You can look at Billboard and you can track it. It 
falls in line with each other, and it is not about sales.
    Mr. Rush. Well, you kind of explained to me--I always 
wondered what happened to Lauren Hill, she was one of my 
favorites and I just----
    Ms. Bediako. She is still out there.
    Mr. Rush. She is still out there? And Erika Badyu is?
    Ms. Bediako. Oh, yes, she is--Jill Scott----
    Mr. Rush. And India Arie, I understand that she is not 
promoted.
    Ms. Bediako. She is still out there. They are all still 
there and most of them realize that why should I be with a 
record label when they are not going to support me, I might as 
well go independent, and actually I would suggest that all 
artists go independent because they don't make money selling 
records. Record executives make money from these artists 
selling records. They make money from all their endorsement 
deals. The whole thing is, the record--they don't need the 
record industry. I worked with Scarface when I worked at 
Capitol EMI records and you know what? We never took him to 
radio. We didn't really have the Internet at that time, it was 
around 1995, and we always went to the club with his music. 
That is where it went. His music, quote, unquote, wasn't 
appropriate for radio because it is public airwaves and because 
we weren't in the heat of consolidation, record--I mean radio 
stations wouldn't play him, and you know what? He went gold and 
platinum every time. You do not need radio airplay to sell 
records. And he was doing it with clubs and name recognition, 
and now that you have the Internet, you don't--you can bypass 
all of this need to be on public airwaves.
    Mr. Rush. Dr. Dill, in your testimony you state that 
research on violent hip hop videos increases adversial sexual 
beliefs of both men and women and acceptance of relationship 
violence. How strong is this correlation? Is this in any way 
disputed by other research? You also state that research shows 
that violent music lyrics lead to more aggressive thoughts and 
feelings. Does this translate into some of the aberrant 
behavior that society is reeling from now in certain urban 
communities?
    Ms. Dill. I would say a couple of things about that. First, 
the research on hip hop and video games as they evolve, there 
is less of that than there is research on other forms of media 
such as television and movies simply because they have been 
around for a longer period of time and I do think that as we 
are beginning to see changes in each media, we need to continue 
to watch what the effects of those forums is but yes, 
theoretically underlying all these different forms of media 
when you look at either stereotypical messages or you look at 
violent messages, it has been well documented over time and I 
think mainstream psychology, we don't dispute that there are--
that there is a clear effect going on there. You asked me if 
people would dispute it. As I say, I don't think mainstream 
psychologists would but the industry seems to always be able to 
find someone out there who is a psychologist who will speak for 
their side. So I have learned in my career as a media 
psychologist that there is always controversy following it, but 
in my estimation, there is strong evidence out there of an 
important link between those factors.
    Mr. Rush. There seems to be a nexus between culture that 
you spoke to, and I agree with you, you can turn the television 
off but you can't turn the culture off. There seems to be a 
correlation between the culture of violence, degradation, 
misogyny, sexism and the drug culture. Is there a linkage? Have 
you looked at any linkage between the drug culture which leads 
to penitentiary culture that comes back out on the street? I 
mean, it seems like this is a cyclical kind of deterioration 
that we are engaged in as a society and as a community.
    Ms. Dill. I haven't looked at drug culture per se. I know 
that people have analyzed rap music and found that to be a 
common theme along with criminality and sexuality as we have 
been talking about here today but I would underline that there 
is definitely a link between the stereotypical content and the 
aggressive content, and I noted today during the testimony of 
the artists that they called for the ability to express 
themselves but I think that is all part of a power dynamic that 
if you are in a marginalized group, you look for someone else 
who is below you on the hierarchy to marginalize in order to 
lift yourself up unfortunately so what we didn't hear in that 
discussion is, they want to express themselves but at the cost 
to what other groups, at the cost to black women in their 
communities, for example. So I think it really is about power 
and the drug factor may well be tied in to feelings of 
powerlessness, but as I say, I am not an expert on that aspect.
    Mr. Rush. Dr. Whiting, I am going to conclude. Discuss with 
the committee the issue of power and powerlessness as a dynamic 
in this whole hip hop degradation language that we are 
discussing and the images that we are discussing today.
    Ms. Sharpley-Whiting. I think what Dr. Dill said is 
absolutely on point in terms of--and what I heard from the 
second panel, and what I consistently heard repeated--was this 
desire to express the turmoil, the degradation, the poverty in 
the community as a kind of artistic rap music. This is what is 
going on in our 'hood. But when the Congresswoman from Illinois 
asked well, what is the impact on women, the argument just kept 
coming back to what is going on in our 'hood and we need to do 
something about that, and what expressly came through was that 
women could be sacrificed as long as the larger, more important 
issue was laid out on the table--poverty, police brutality, 
drive-bys, et cetera, et cetera. What I have found is, or what 
I think is particularly fascinating is the ways in which, as I 
said, the cost to black women, to women in general. What we 
have to concede is that hip hop is a global phenomenon--it is 
multiracial and its impact is felt--it is pervasive as well as 
other forms of sexism and misogyny and so the culture of hip 
hop is certainly not alone. What I think is very interesting, 
what I saw coming through more than anything is as one is 
describing the deprivation and the degradation and the self-
hate, et cetera, that is going on in various communities as a 
kind of rapping the reality or even fictionalizing or 
performing for the marketplace, what I think is more troubling 
is that if this is the way that women are being perceived or if 
this is the way that women's lives are being characterized in 
this music, then the lives of women and experiences of women in 
their communities is one that is quite devastating. And so if 
nothing else then, we will take the music as instructive and 
therefore we need to do something about the ways in which women 
are being treated in those communities. So if rapping one's 
reality means exposing the very forlorn experiences that women 
are undergoing in their communities, then we need to do 
something about that. Obviously young black women or girls are 
suffering a great deal in those communities.
    And I want to kind of conclude as well by saying--getting 
back to kind of the b * * * *, ``ho'' thing and the censorship 
thing, there is a song by DMX, and I have to say, DMX is a 
guilty pleasure for me, but there is a song by DMX and he 
says--he has a line in there, ``If you have a daughter over 15, 
I'mma rape her.'' Now, one does not mention ``b * * * *'' or 
``ho'' or ``n * * * * *'' in that line but one certainly 
describes something that is absolutely visceral and violent and 
troubling and so we have to get beyond the beats and the 
rhymes. We have to really think about what is going on in the 
music and how it is depicting people's lives, because if 
nothing else, as I said, it is instructive.
    Mr. Rush. To a certain extent, I am familiar and I am not 
shocked but I am flabbergasted, because in my community, I live 
in the 'hood. I live right next to a public housing 
development. I am right in the poorest community in the city of 
Chicago and I am there for a reason because I want to be there, 
and I know that there is a lot of pain that goes on. There is a 
lot of pain that goes on in relationships between male and 
female and it seems as though from your testimony, it is a lot 
worse than we can imagine because of--and I am not trying to 
make any excuses for anybody but it seems to me like women are 
convenient targets for black men because they can't exercise 
their sense of dignity and power as vis-a-vis white men. They 
can't get to white men, so they will get to the person who is 
closest to them and that is their women, and until we start 
dealing with the issue of power relationships and get into 
instructing our young men but primarily our young women, I 
think that is where you start because they accept and they 
expect and they--some of them--and that is not to blame them--
but they view it as being a mark or some kind of badge of 
courage or badge of acceptance to be ill treated and 
disrespected by men. I see it all the time when I look out my 
window and I can see young women having boys pulling all over 
them and cussing them and I just--I wanted to make sure that 
this committee addresses this issue, that this committee gives 
voice to this problem and all of its complexity as much as 
possible because I really want the members of this committee, 
myself included and everybody who participated and all those 
who have gathered here, I really want us to engage and become a 
part of the solution as opposed to being a part of the problem. 
This is a very serious issue that is not on most of the 
Congress's radar screen. We are never going to get called over 
to vote on this issue. Most committees would never undertaken a 
hearing based on these kind of issues but these are the kinds 
of issues that are tearing the fabric of our community apart 
and I really--again, I want to thank you all for participating 
and for being a part of this hearing and I thank you and I 
compliment you and I commend you for your noble work. We have 
got a long way to go and we also have a short time to get 
there.
    Thank you very much, and the committee stands adjourned.
    [Whereupon, at 5:13 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
